Audit Report




OIG-06-017
Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2005 and 2004 Financial Statements


December 15, 2005




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 15, 2005


            MEMORANDUM FOR JOHN C. DUGAN
                           COMPTROLLER OF THE CURRENCY

            FROM:                   William H. Pugh,
                                    Deputy Assistant Inspector General
                                       for Financial Management and Information
                                       Technology Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2005 and 2004 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2005 and 2004. We
            contracted with the independent certified public accounting firm Gardiner Kamya &
            Associates, PC (GKA) to audit the financial statements of OCC as of
            September 30, 2005 and 2004 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 01-02, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance with Laws and Regulations.

            In its audit, GKA found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,
                •   no matters involving internal control over financial reporting and its operation
                    that are considered material weaknesses, and
                •   no instances of reportable noncompliance with laws and regulations tested.
GKA also issued a management letter dated October 27, 2005 discussing other
matters that were identified during the audit but were not required to be included in
the auditors’ reports.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. GKA is responsible for
the attached auditors’ reports dated October 27, 2005 and the conclusions
expressed in the reports. However, our review disclosed no instances where GKA
did not comply, in all material respects, with generally accepted government
auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
Comptroller of the Currency
Administrator of National Banks

US Department of the Treasury




�������������
                    ����������������




                        �������������������������
                        �����������������������



                                      ENSURING A SAFE AND SOUND
                                             NATIONAL BANKING SYSTEM
                                          FOR ALL AMERICANS
���������� �
The Office of the Comptroller of the Currency (OCC) seeks to
assure a banking system in which national banks soundly manage
their risks, comply with applicable laws, compete effectively with
other providers of financial services, offer products and services
that meet the needs of customers, and provide fair access to
financial services and fair treatment of their customers.
Table of Contents




COMPTROLLER’S VIEWPOINT                                                                                         1

2005 PROFILE                                                                                                    7
                                 Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                                 Structure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                                 Strategic Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                                 Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . 8
                                 Program Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                                 Financial Management Results. . . . . . . . . . . . . . . . . . . 10
OPERATIONS AND ACCOMPLISHMENTS                                                                                13
                                 Supervise Program . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                                 Regulate Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                                 Charter Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
                                 Partnership and Outreach . . . . . . . . . . . . . . . . . . . . . . 39
MANAGEMENT                                                                                                    47
                                 Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50
                                 Management Challenges and High-Risk Areas . . . . . . . 56
                                 Letter from the Chief Financial Officer . . . . . . . . . . . . . 56
                                 Financial Management Discussion . . . . . . . . . . . . . . . . 58
                                 Systems, Controls, and Legal Compliance . . . . . . . . . . 70
                                 OCC’s Next Steps . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
                                 Independent Auditors’ Report . . . . . . . . . . . . . . . . . . . . 75
FINANCIAL STATEMENTS AND NOTES                                                                                82
                                 Balance Sheets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82
                                 Statements of Net Cost . . . . . . . . . . . . . . . . . . . . . . . . 83
                                 Statements of Changes in Net Position . . . . . . . . . . . . . 84
                                 Statements of Budgetary Resources . . . . . . . . . . . . . . . 85
                                 Statements of Financing . . . . . . . . . . . . . . . . . . . . . . . 86
                                 Statements of Custodial Activity . . . . . . . . . . . . . . . . . . 87
                                 Notes to the Financial Statements . . . . . . . . . . . . . . . . 88
APPENDICES                                                                                                    98
                                 A—FY 2005 Performance Measures and Results . . . . . 98
                                 B—Glossary of Acronyms . . . . . . . . . . . . . . . . . . . . . 100
INDEX                                                                                                       104




OCTOBER 2005                                                                                                      i
     Spurred by reports from
     OCC examiners about rising
     credit risk — typical for this
     phase of the credit cycle
     — we took a number of
     steps to identify potential
     areas of weakness and to
     strengthen our supervisory
     oversight of areas that
     presented elevated safety
     and soundness concerns.




ii                    OCC ANNUAL REPORT
Comptroller’s Viewpoint



I was sworn in as the 29th Comptroller of the     as FY 2005 came
Currency on August 4, 2005, and assumed           to close, the OCC
leadership of a proud organization with a long    and the other U.S.
tradition of excellence in bank supervision.      banking agencies
I look forward to building on the initiatives     announced
that were carried out by my distinguished         a revised
predecessors during fiscal year (FY) 2005.        implementation plan that will enable us to
                                                  address these concerns.
The safety and soundness of the national
banking system must always be a fundamental       Spurred by reports from OCC examiners about
priority of the OCC. In FY 2005, national         rising credit risk — typical for this phase
banks compiled record earnings and posted         of the credit cycle — we took a number of
other measures of strength. Capital grew to       steps to identify potential areas of weakness
historic highs. This is especially good news      and to strengthen our supervisory oversight
in light of the challenges facing the banking     of areas that presented elevated safety and
system as it enters the later phases of the       soundness concerns. Specifically, the OCC
credit cycle — a time that customarily brings     issued guidance, or participated in the issuance
increased competition and pressure on loan        of guidance, on such products as home equity
volume and earnings.                              lending, overdraft protection programs,
                                                  predatory residential mortgage lending, and
As Comptroller, I am committed to
                                                  more.
maintaining a strong supervisory presence in
our approximately 1,900 national banks. That      The products I’ve just mentioned illustrate
is down slightly from last year’s numbers.        that banking today is a diverse business, an
National bank assets, however, stand at nearly    important component of which is serving
$6 trillion — a significant increase over FY      retail customers. They also demonstrate that
2004. Those statistical changes underscore both   a bank’s record on compliance and customer
the long-term structural consolidation of the     service can have serious safety and soundness
banking industry and its overall growth — two     consequences. Assuring fair access and fair
secular trends that continued in FY 2005.         treatment of bank customers are significant
                                                  OCC responsibilities to which the agency
Regulatory capital issues were front-and-center
                                                  devoted major resources and effort in FY 2005.
in FY 2005. The OCC has been committed
                                                  It will continue to absorb our attention in the
to strengthening the international capital
                                                  coming months.
framework to make it more risk sensitive
through the Basel II effort. The April release    The OCC’s Customer Assistance Group (CAG)
of the Basel Committee’s fourth Quantitative      is a vital component of the OCC’s efforts in
Impact Statement — QIS-4 — raised new             this area. In FY 2005, CAG opened 73,519
concerns about the Basel II framework, and        cases involving consumer complaints, and




OCTOBER 2005                                                                                         1
    We have long recognized that
    the OCC is only as strong
    as its people. In FY 2005
    we upgraded our efforts to
    attract and retain a high quality
    workforce. The agency’s
    demographics require no less;
    over the next five years, more
    than 25 percent of current
    OCC employees will be eligible
    to retire.




2                                       OCC ANNUAL REPORT
closed cases resulted in the payment of more       AML questions answered and our supervisory
than $6.3 million in disputed fees and other       standards explained to them. More than 24,000
charges to customers of national banks.            people, mostly bankers, participated in this
                                                   program.
Bank Secrecy Act enforcement provided further
evidence of the convergence of compliance and      The agency continued to be sensitive to
safety and soundness. Several OCC-supervised       the impact of its actions on the industry it
institutions were subject to enforcement actions   supervises — and alert to opportunities to ease
arising from violations of the Bank Secrecy        that impact. We have been especially concerned
Act. In several cases, violations resulted in      about the burden of regulatory compliance for
large monetary and administrative penalties.       our community banks — smaller institutions
These actions sent a strong message to banks       that are least likely to have the specialized
that heightened regulatory scrutiny of their       resources to deal with rising compliance costs
Bank Secrecy Act and anti-money laundering         and responsibilities.
(BSA/AML) activities are facts of life in
                                                   With these concerns in mind, we adopted
the post-9/11 world, and that banks will be
                                                   new CRA regulations in FY 2005. A key
expected to establish and maintain BSA/AML
                                                   change was the creation of a new category
systems and controls commensurate with their
                                                   of Intermediate Small Banks, which will be
risk exposure.
                                                   subject to reduced data collection and reporting
While it is vital to our national security that    requirements. By refining our approach, we
banks and other financial institutions have        were able to provide some regulatory relief for
effective BSA/AML programs in place,               banks, while ensuring that the basic purpose of
it is equally important that we maintain           the law — to meet the needs of communities
a fair and balanced approach in this area.         — continued to be served.
To that end, we took steps throughout the
                                                   We also are committed to conducting OCC’s
year both to clarify our BSA/AML goals
                                                   operations efficiently and with the utmost
and to achieve greater consistency in our
                                                   integrity. The agency is in strong financial
supervisory guidance to banks and examiners.
                                                   health. Continuing efforts to strengthen our
A major step in that direction came with the
                                                   financial systems produced an unqualified audit
issuance, under the auspices of the Federal
                                                   opinion, with no material weaknesses, from our
Financial Institutions Examination Council
                                                   independent auditors, and the achievement of
(FFIEC), of a Bank Secrecy Act/Anti-Money
                                                   important milestones for prompt payment and
Laundering Examination Manual. The OCC
                                                   collection of obligations.
also participated in an ambitious outreach
program that included nationwide conference        We have long recognized that the OCC is
calls and meetings around the country, so that     only as strong as its people. In FY 2005 we
bankers and others could have their BSA/           upgraded our efforts to attract and retain a high




OCTOBER 2005                                                                                       3
           With that in mind, we continued a recruitment campaign
           that placed 96 entry-level bank examiners into
           permanent field office positions.




    OCC Offices




4                                                            OCC ANNUAL REPORT
quality workforce. The agency’s demographics          the delivery of cash, loans, and other forms of
require no less; over the next five years, more       relief to those who needed them most. Their
than 25 percent of current OCC employees will         performance in this time of crisis was truly
be eligible to retire.                                exemplary.
With that in mind, we continued a recruitment         Each of us rests on the shoulders of others.
campaign that placed 96 entry-level bank              When the 28th Comptroller of the Currency,
examiners into permanent field office positions.      John D. Hawke, Jr., left office on October
We also hired another 100 new examiners,              13, 2004, the OCC’s chief counsel and first
and began to train them for placement. Our            senior deputy, Julie L. Williams, assumed
efforts to make the OCC a more attractive             the duties of acting Comptroller for almost
employer — both by improving compensation             10 months. Thus, most of the activities and
and benefits and by building a more congenial         accomplishments described above occurred
workplace — were recognized when the OCC              during her tenure. She deserves a large share of
was named as one of the top 10 places to work         the credit for the successes the Office achieved
among 143 comparable agencies in the federal          during this period.
government in a survey conducted by the
Partnership for Public Service and American
University’s Institute for the Study of Public
Policy Implementation.
This recognition is a tribute to the quality of the
OCC staff and its commitment to public service
— a commitment that I see every day.                  John C. Dugan
The past year offered a dramatic reminder             Comptroller of the Currency
of the banking system’s importance to the
                                                      October 27, 2005
American people. The devastation of several
major hurricanes left millions of Americans
in need of emergency financial services to
help them obtain the basic necessities of life
and begin the rebuilding process. Despite
considerable personal hardship, OCC personnel
living in the disaster areas worked closely with
national banks and other regulators to facilitate




OCTOBER 2005                                                                                            5
    This annual report will
    describe what those
    activities entailed,
    highlighting steps the
    OCC took to combat
    terrorist financing and
    money laundering, as
    well as threats from
    natural disasters,
    such as Hurricane
    Katrina.




6                             OCC ANNUAL REPORT
2005 Profile



Last year the OCC focused its efforts on            Structure
maintaining a safe and sound national banking
system for all Americans by protecting the          As of September 30, 2005, the OCC had
deposits of bank customers. This annual report      2,802 OCC employees, including 1,895 bank
will describe what those activities entailed,       examiners. The OCC has its headquarters in
highlighting steps the OCC took to combat           Washington, D.C., a data center in Maryland,
terrorist financing and money laundering, as        and four district offices in Chicago, Dallas,
well as threats from natural disasters, such as     Denver, and New York. The OCC’s Office of
Hurricane Katrina.                                  the Ombudsman is located in Houston. The
                                                    OCC also has 52 field offices and 25 satellite
                                                    locations in cities throughout the U.S., resident
Overview                                            examiner teams in the 23 largest banking
The OCC was established in 1863, as a bureau        companies supervised, and an examining office
of the Department of the Treasury. The OCC          in London, England.
is responsible for supervising, regulating, and     The OCC is headed by the Comptroller of the
licensing the nation’s federally chartered banks.   Currency, who is appointed for a five-year term
As of September 30, 2005, the OCC was               by the President, with the advice and consent of
responsible for regulating and supervising          the Senate. An Executive Committee of senior
1,933 national banks and 51 federal branches        executives of the major business units advises
of foreign banks in the U.S. Based on the           the Comptroller on policy and operational
most recent data (June 30, 2005 call reports),      issues. To provide more focused attention
national banks held $5.8 trillion in assets         on critical issues, senior executives also
or 67 percent of the total assets of all U.S.       serve on smaller subcommittees (audit; bank
commercial banks.                                   supervision; budget and finance; human capital;
                                                    regulatory policy, legal and external affairs; and
The OCC’s operations are funded primarily           technology and systems) that regularly report
by semiannual assessments levied on national        to the Comptroller and Executive Committee.
banks (97 percent) and from interest revenue        From October 2004 to August 2005, Julie L.
from investments in U.S. Treasury securities        Williams was the acting Comptroller of the
and licensing and other fees combined               Currency.
(3 percent). The OCC does not receive
congressional appropriations to fund any of its
operations.                                         Strategic Goals
                                                    The OCC has four strategic goals to achieve
                                                    its mission and contribute to the achievement
                                                    of the Department of the Treasury’s strategic
                                                    goals (promoting prosperous U.S. and world




OCTOBER 2005                                                                                        7
economies and preserving the integrity of                              other internal measures, workload indicators,
financial systems). The OCC’s goals, as                                and customer service standards. Performance
defined in its FY 2003–2008 Strategic Plan,                            results for the three previous years are also
are:                                                                   presented, as available.
•    A safe and sound national banking system.
•    A flexible legal and regulatory framework                         Program Results
     that enables the national banking system to                       The OCC accomplishes its mission through
     provide a full competitive array of financial                     three major programs: supervise, regulate, and
     services.                                                         charter. Accomplishments from the OCC’s
•    Fair access to financial services and fair                        programs and operations follow.
     treatment of bank customers.                                      •     1,287 strategy certifications completed for
•    An expert, highly motivated, and diverse                                examination activities that concluded:
     workforce that makes effective use of OCC                                −     99 percent of national banks were well
     resources.                                                                     capitalized.
                                                                              −     94 percent of national banks earned
Performance Measures                                                                strong composite CAMELS1 ratings of
                                                                                    1 or 2.
The OCC issues an annual performance budget
outlining the performance goals and measures                                  −     94 percent of national banks merited
for the year, as mandated by the Government                                         high consumer compliance ratings of 1
Performance Results Act (GPRA) and its                                              or 2.
implementing guidance. The OCC performance
                                                                       •     427 Community Reinvestment Act (CRA)
information presented in this report is reliable
                                                                             examinations completed.
and complete, as ascertained through the FY
2005 management control assessment process                                    −     273 bank consultations on community
described in the Systems, Controls, and                                             development opportunities were
Legal Compliance section of this report. The                                        conducted.
OCC’s performance on the GPRA goals is                                        −     100 percent of qualified banks in the
incorporated in the program area discussions.                                       new category of “Intermediate Small
Appendix A presents the results achieved on                                         Bank” under recently amended CRA
the OCC’s GPRA performance measures and                                             regulation were offered a consultation.



Acronym for composite rating that banks are given as a result of a bank examination. The letters stand for Capital, Asset quality,
1

Management, Earnings, Liquidity, and Sensitivity to market risk.




8                                                                                                         OCC ANNUAL REPORT
•   607 enforcement actions completed on         •   Examination and licensing activities
    banks and individuals.                           performed in a quality and professional
                                                     manner.
    −   44 percent of problem national banks
        rehabilitated.                               −   External ratings on the OCC’s
                                                         examination and licensing functions
•   Approximately 150 substantive
                                                         exceeded goals for service standards.
    inquiries, including formal and informal
    appeals, processed by the Office of the      Other noteworthy program accomplishments in
    Ombudsman.                                   FY 2005 included:
•   67,839 calls fielded by the OCC’s customer   •   OCC filed “friend of the court” briefs in
    assistance call center.                          six cases that affirmed federal preemption
                                                     of state law restriction of national bank
    −   72 percent of the 72,203 closed
                                                     activities.
        consumer complaints were completed
        within 60 calendar days of receipt.      •   Conducted USA PATRIOT Act (USAPA)
                                                     examinations in all large banks as well as
•   131 legal opinions issued in response
                                                     transaction testing and compliance reviews
    to banks’ requests. Significant topics
                                                     regarding BSA/AML/USAPA for identified
    addressed included use of derivatives,
                                                     high-risk areas and activities. Completed
    electronic banking, and directors’
                                                     BSA/AML/USAPA reviews in high-risk
    qualifying shares.
                                                     mid-size and community banks.
    −   86 percent of the 120 legal opinions
                                                 •   Published the FFIEC’s BSA/AML
        subject to established processing
                                                     Examination Manual, which provides
        time frames were issued on time.
                                                     bankers and bank examiners with
        The remaining 11 opinions dealt with
                                                     comprehensive guidance and resources
        novel or complex issues and were
                                                     about the BSA requirements and the
        excluded from this requirement.
                                                     agencies’ supervisory expectations in this
•   3,332 corporate applications and notices         area. Hosted a series of interagency training
    received.                                        and outreach sessions for examiners and
    −   96 percent of the 2,128 decisions            bankers to discuss the new manual.
        issued were within established time      •   Completed the annual shared national
        frames.                                      credit review that covered 6,817 credits
    −   38 percent of all corporate                  with commitments totaling $1.6 trillion in
        applications and notices were received       coordination with the Board of Governors
        electronically.                              of the Federal Reserve System (FRB), the
                                                     Federal Deposit Insurance Corporation




OCTOBER 2005                                                                                      9
     (FDIC), and the Office of Thrift                 •   Implemented a Collective Bargaining
     Supervision (OTS).                                   Agreement between the OCC and the
                                                          National Treasury Employees Union
•    Placed 96 entry-level bank examiners,
                                                          (NTEU) covering employee working
     hired in June 2004 and January 2005,
                                                          conditions, such as processes for job and
     into permanent field office positions for
                                                          assignment opportunities, provisions for
     community bank supervision. Another 100
                                                          administering leave, work scheduling
     new examiners began on-the-job training
                                                          and work location, and provisions for
     and will be placed into permanent field
                                                          remediation.
     offices in the first half of 2006.
                                                      •   Initiated 21 process improvement studies.
•    Issued four consumer advisories on such
                                                          Completed projects have resulted in
     subjects as gift cards and Check 21.
                                                          cost savings of $700,000, enabled the
•    Revised guidance on the national banking             redirection of staff resources to higher
     system in “A Guide to the National                   priority needs, minimized the impact of
     Banking System,” a companion publication             complying with new mandated or existing
     to the Comptroller’s Licensing Manual that           requirements, and matched internal
     is distributed at OCC’s outreach meetings            customer expectations with service
     and recruitment efforts.                             delivery.
•    Issued interagency Credit Risk
     Management Guidance on Home Equity               Financial Management Results
     Lending that describes supervisory
     expectations for product development and         •   Received an unqualified audit opinion from
     marketing; origination and underwriting;             its independent auditors on the FY 2005
     third-party originations; collateral valuation       financial statements with no material
     management; account management;                      weaknesses.
     portfolio management; operations,                •   Published the annual statement of
     servicing, and collections; secondary                reasonable assurance on the OCC’s
     marketing activities; and portfolio                  compliance with the Federal Managers’
     classifications, allowance for loan and lease        Financial Integrity Act (FMFIA) and
     losses, and regulatory capital.                      the Federal Financial Management
•    Through the FFIEC, issued updated                    Improvement Act (FFMIA).
     guidance for the industry on effective           •   Completed timely and accurate monthly
     methods that they can use to authenticate            and quarterly financial and performance
     the identity of customers who use Internet-          reporting.
     based banking services to help deter
     account fraud and identity theft.




10                                                                             OCC ANNUAL REPORT
•   Completed the documentation for several       •   Processed 99.5 percent of total vendor
    processes related to financial reporting          disbursements by means of electronic funds
    and established a Senior Assessment               transfers (EFT). Additionally, the OCC
    Team (SAT) to ensure the requirements             made 100 percent of travel reimbursement
    of the Office of Management & Budget              payments through EFT. The OCC’s
    (OMB) Circular A-123, Appendix A, are             performance in both areas exceeded
    implemented effectively and communicated          OMB’s goal of minimizing disbursement
    throughout the agency.                            costs and improving accuracy through the
                                                      use of EFT.
•   Paid more than 22,400 invoices totaling
    $81.3 million with 99.6 percent of            •   Collected fee assessments from national
    payments timely, exceeding the OMB goal           banks totaling $579.3 million, with 98.8
    of 98 percent for government entities. This       percent collected within five business
    was an improvement from 98.7 percent              days. This was a small improvement over
    of the 21,300 invoices paid timely in FY          FY 2004 when 98.4 percent of the $490.3
    2004. Interest penalties on late payments         million in assessments collected were
    totaled $1,198, an 82 percent reduction           within five business days.
    from the $6,642 paid in FY 2004.



                             Office of the Comptroller of the Currency
                                        District Locations




OCTOBER 2005                                                                                     11
     Two business lines reside
     within the supervise
     program: large banks and
                                        The supervise
     mid-size/community banks.
                                        program, by
     This approach reflects the
                                        far the largest
     recognition that institutions of
                                        program,
     varying sizes and complexity
                                        constitutes
     present different risks and
                                        the core for
     require unique supervision
                                        accomplishing the
     philosophies.
                                        OCC’s mission.




12                                      OCC ANNUAL REPORT
Operations and Accomplishments




Supervise Program                                                       supervise program. The cost of the supervise
                                                                        program was $420.3 million in FY 2005.
This program encompasses the supervision of
national banks and their subsidiaries, federal                          Two business lines reside within the supervise
branches and agencies of foreign banks,2                                program: large banks and mid-size/community
national trust companies, bank data software                            banks. This approach reflects the recognition
vendors, and data processing service providers.                         that institutions of varying sizes and complexity
This program also consists of activities to                             present different risks and require unique
identify, analyze, and respond to emerging                              supervision philosophies.
systemic risks and trends that could affect an                          The OCC’s large bank program is responsible
individual national bank or the entire national                         for supervising the 23 largest and most
banking system. The Committee on Bank                                   complex national banking companies, using
Supervision establishes and oversees areas of                           teams of dedicated onsite examiners. During
emphasis for the OCC’s supervisory activities.                          FY 2005, areas of supervisory emphasis for
The committee is made up of the Chief                                   the large bank program included BSA/AML/
National Bank Examiner and the senior deputy                            USAPA compliance, corporate governance,
comptrollers for Large Bank Supervision and                             credit quality and credit risk management,
Mid-size/Community Bank Supervision. The                                allowance for loan and lease losses (ALLL)
supervise program supports the OCC’s strategic                          procedures and adequacy, the integrity of
goals of a safe and sound national banking                              banks’ financial statements, ensuring adherence
system, fair access to financial services, and                          to accepted accounting practices, operational
fair treatment of bank customers.                                       vulnerabilities, operational risk measurement
The supervise program, by far the largest                               and management practices, corporate
program, constitutes the core for accomplishing                         structured transactions, compliance with anti-
the OCC’s mission. In FY 2005, the OCC                                  tying and covered transaction rules, and the
devoted 2,236 full-time equivalent (FTEs),                              implementation of Basel II at mandatory and
or 83.4 percent of its total workforce, to the                          opt-in banks.3




2
  Federal branches and agencies are branches licensed by the OCC and operated by foreign banking organizations. Federal agencies are
offices that engage in the business of banking but do not accept deposits or exercise fiduciary powers.
3
  See the Partnership and Outreach section of this report for more information on activities related to Based II. In August 2003, the OCC,
FDIC, FRB, and OTS issued an Advance Notice of Proposed Rulemaking, which explained how the agencies might implement Basel II
in the U.S. and proposed criteria for determining whether a bank would be required to adopt the Basel II framework.




OCTOBER 2005                                                                                                                            13
There are 26 banking companies in OCC’s               Examining
mid-size bank program and 30 companies in
                                                      The OCC continuously supervises banks in the
the credit card bank program. During FY 2005,
                                                      community bank, large bank, mid-size bank,
areas of supervisory emphasis for the mid-size
                                                      and credit card bank programs. A supervisory
and credit card bank programs included BSA/
                                                      strategy is developed based on each banking
AML/USAPA compliance, early identification
                                                      institution’s risk profile and condition. The
and resolution of supervisory issues, the
                                                      strategy includes a variety of supervisory
effectiveness of risk management practices
                                                      activities, including examinations and off-site
and controls, the integrity of banks’ financial
                                                      analyses, to be completed during a supervisory
statements, ensuring adherence to accepted
                                                      cycle. Examination activities focus on safety
accounting practices, banks’ increased reliance
                                                      and soundness, consumer compliance, BSA/
on noninterest income, outsourcing and vendor
                                                      AML/USAPA, fair lending, asset management,
activities, interest rate risk models and controls,
                                                      bank information technology, and the CRA.
investment portfolio practices and holdings,
                                                      The supervisory cycle conforms to either a
and concentration risk.
                                                      12- or 18-month time frame, depending on
The OCC’s community bank program generally            the size, complexity, and condition of the
covers national banks with less than $1 billion       bank. All large banks and mid-size banks,
in total assets. Banks are assigned to an OCC         and federal branches are on a 12-month
portfolio manager who oversees the supervisory        supervisory cycle. At the end of each bank’s
strategy for each bank. These strategies              cycle, OCC examiners certify the completion
combine onsite examinations and off-site              of the supervisory strategy and onsite activities,
analysis to monitor bank performance. During          assign CAMELS ratings, and communicate
FY 2005, areas of supervisory emphasis for            their findings to the bank.
the community bank program included BSA/
                                                      The OCC completed and certified 1,287
AML/USAPA compliance, early identification
                                                      supervisory strategies during FY 2005.
and resolution of supervisory issues, banks’
                                                      Included in this number are strategy
risk management practices and controls, banks’
                                                      certifications for all large, mid-size, and credit
expanded use of outsourcing, interest rate risk
                                                      card banks; all federal branches and agencies;
monitoring and controls, concentration risk, and
                                                      and more than 57 percent of community banks.
investment portfolio practices and holdings.
                                                      In addition to strategy certification activities,
The supervise program is further divided into         the OCC conducted 427 CRA examinations,
three subprograms: examining, enforcing, and          which are on either an 18- or 36-month cycle.
ensuring fair access and fair treatment.
                                                      The supervisory strategy certifications
                                                      completed during FY 2005 show that national
                                                      banks continue to operate in a safe and sound




14                                                                              OCC ANNUAL REPORT
manner as evidenced by assigned CAMELS                               of 40 percent, and an improvement from the
ratings and assessments of capital levels.                           40 percent in FY 2004 and 32 percent in FY
The results of OCC’s supervisory activities                          2003. The OCC also exceeded its customer
indicated that 94 percent of all national banks                      service standard for examination activities
earned the highest composite CAMELS ratings                          as rated by bank officials. The customer
of 1 or 2, and 99 percent were well capitalized                      service results were based on 665 examination
relative to their risks. For the 119 national                        surveys completed by banks for the period
banks with CAMELS ratings of 3, 4, or 5 on                           July 2004 through June 2005, representing a
September 30, 2004, 35 had improved their                            43 percent response rate. The survey is based
composite CAMELS rating to either 1 or 2 by                          on a five-point scale, in which 1 indicates
the end of FY 2005. Another 18 banks were                            complete agreement and 5 indicates complete
sold, merged, or left the national banking                           disagreement with the survey statements. The
system during the year without loss to the                           results of the examining performance measures
Bank Insurance Fund. The OCC achieved a 44                           are shown in Table 1.
percent rehabilitation rate, exceeding the target


Table 1: Examining Performance Measures, FY 2005

           Performance Measures                                                                         Target             Actual 1

           Percentage of national banks that are well capitalized                                       95%                99%
           Percentage of national banks with composite CAMELS rating of 1 or 2                          90%                94%
           Rehabilitated problem national banks as a percentage of the problem national
                                                                                                        40%                44%
                banks one year ago (CAMELS 3, 4 or 5)
           Average survey response that the report of examination clearly communicated
                examination findings, significant issues, and the corrective actions                    ≤ 1.75             1.28
                (including time frames) management needed to take
     1
       Performance numbers shown in bold italics are estimates. Some performance data is obtained from quarterly call reports from
     banks. The September 30, 2005 Reports of Condition and Income (“call reports”) are not due until 30 or 45 days after the end of
     the period. Additionally, examinations concluded late in the fiscal year are not finalized for another 30 to 60 days. As a result,
     complete fiscal year data is not yet available, so estimates have been reported.




OCTOBER 2005                                                                                                                          15
Horizontal Reviews                                  Two of these reviews (ALLL methodology and
A horizontal review is an examination tool          appraisal programs) were conducted at all of
used to address significant, systemic concerns      OCC’s mid-size banks, while the rest focused
by examining across a portfolio of banks with       on particular banks in the portfolio based on
similar characteristics. Horizontal reviews offer   selection criteria.
many benefits, notably the opportunity for
                                                    Large Bank Supervision conducted a review
exchange of best practices and a mechanism to
                                                    focusing on staff monitoring and supervision
ensure consistent expectations and supervision
                                                    processes to ensure each large bank’s
practices across all the banks. Typically
                                                    compliance with OCC guidance for ALLL
conducted by experts in the area of focus,
                                                    methodology. The review was performed to
horizontal reviews provide an independent
                                                    determine the completeness and timeliness of
assessment. These reviews provide invaluable
                                                    Large Bank Supervision’s efforts regarding
insights during the supervision process and
                                                    ALLL, as supported by specific documentation
give a quick assessment of how the banks
                                                    provided by each large bank examination team.
are complying with laws, regulations, and
other regulatory guidance. They allow the           Bank Secrecy Act, Anti-Money
OCC to focus on higher-risk banks and               Laundering, and the USA PATRIOT Act
make adjustments to supervision strategies          Money laundering and terrorist financing
and staffing as needed. During FY 2005,             pose significant risks to the national banking
Large Bank Supervision restructured its             system. The OCC responded to these risks in
senior management to bring the horizontal,          FY 2005 by conducting in-depth reviews across
systemic review, and analytic activities under      all lines of business for compliance with the
a single deputy comptroller. The goal of this       requirements of the BSA/AML/USAPA.
restructuring is to achieve greater consistency
in the supervision of the large institutions.       All large banks received examinations,
                                                    transaction testing, and compliance reviews
The Mid-size Bank Supervision program               regarding BSA/AML/USAPA for high-risk
conducted the following horizontal reviews in       areas and activities. Using a risk-focused
FY 2005:                                            approach, the OCC completed similar reviews
•    Automated Clearing House (ACH) activity        at high-risk mid-size banks and community
                                                    banks. Concurrent with these reviews, OCC
•    ALLL methodology
                                                    communicated with bank managers to make
•    Appraisal programs and appraisal review        them aware of OCC expectations amid the
     programs                                       heightened supervisory attention to this area.
•    Retail credit risk management




16                                                                           OCC ANNUAL REPORT
On the international front, the OCC continued             headquarters; provided the same training to
to provide foreign supervisors with technical             the Latin American regional bank supervisors
assistance and training on BSA/AML                        group; and completed with the World Bank a
techniques used in the OCC’s supervision                  video of its BSA/AML training courses. The
process. The OCC trained more than 50                     video will be available to bank supervisors
supervisors from several countries at its                 worldwide.


      OCC Bolsters BSA/AML Compliance Program

      The OCC took an array of actions in FY 2005 to improve its BSA/AML compliance program, many of which
      address findings and recommendations in a final report emanating from an internal review of the agency’s
      BSA/AML supervision. The agency has:
      •   Enhanced its BSA/AML expertise by creating and filling a new position, director for Bank Secrecy
          Act and Anti-money Laundering Compliance, to consolidate anti-money laundering activities within
          the agency; increasing the number of BSA policy staff in its Washington headquarters; establishing
          BSA/AML as a focal point for the OCC’s Examiner Specialized Skills Program; and augmenting staff
          dedicated to BSA/AML compliance by expanding the contract examiner pool to include BSA skills.
      •   Conducted 1,123 BSA/AML/USAPA examinations through June 30, 2005.
      •   Published enforcement policy to provide additional guidance about situations in which formal actions
          should be taken.
      •   Worked with the other federal banking agencies and the Financial Crimes Enforcement Network
          (FinCEN) to develop and issue guidance on providing banking services to money services businesses.
      •   Issued, jointly with the other federal financial regulators and FinCEN, a new and comprehensive FFIEC
          BSA/AML Examination Manual that establishes minimum core procedures that will be used at every
          examination to review and verify that a bank has an adequate BSA/AML compliance program and
          include mandatory transaction testing in each examination.
      •   Conducted a teleconference for almost 5,000 participants from national banks to ask questions about
          BSA and participated in interagency teleconferences and outreach sessions to examiners and bankers
          on the new BSA/AML Manual.
      •   Created a money laundering risk assessment system to help examiners identify potentially high-risk
          bank activities that may warrant increased scrutiny.
      •   Enhanced internal tracking systems to ensure timely follow-up on BSA/AML compliance deficiencies
          cited in examination reports.
                                                                                                      Continued




OCTOBER 2005                                                                                                      17
     OCC Bolsters BSA/AML Compliance Program continued

     •   Worked with FinCEN and other agencies to improve information sharing and data analysis.
     The OCC investigates and brings enforcement actions against national banks that fail to meet BSA/AML
     requirements to implement adequate BSA compliance programs in accordance with OCC regulations,
     establish procedures to identify and monitor high-risk accounts, and report suspicious transactions. The
     OCC coordinates with other regulators and law enforcement authorities to ensure compliance with BSA/
     AML provisions and detect, track, and prevent attempts by terrorists and other criminals to use the national
     banking system for their activities.
     The OCC brought enforcement actions against several banks for inadequate BSA/AML compliance
     programs. Among other requirements, banks were ordered to develop and implement internal controls,
     conduct audits, designate BSA compliance officers, and conduct employee training programs.
     •   The OCC issued two cease-and-desist orders by consent against a federal branch of a foreign bank
         to preserve asset levels, restrict its wire transfer activities, pay off depositors, and convert to an
         uninsured agency office with limited banking activities. In addition, the OCC, jointly with FinCEN,
         assessed a $24 million civil monetary penalty (CMP) against a federal branch for failure to comply with
         BSA/AML requirements. The agencies took these actions after determining that the branch failed to
         implement an adequate anti-money laundering program to manage the risks of money laundering and
         terrorist financing associated with its dollar clearing transactions, and that the branch violated BSA’s
         suspicious activity reporting requirements.
     •   The OCC issued a cease-and-desist order by consent and assessed a $750,000 CMP against a bank
         for multiple and continuing violations of BSA and the USAPA, including failure to classify and monitor
         accounts of senior foreign officials.
     •   The OCC issued a cease-and-desist order by consent against a federal branch for deficiencies in the
         branch’s internal controls, particularly in BSA/AML compliance. The OCC also issued a prohibition
         order by consent and assessed a $200,000 CMP against the branch’s former general manager.
     •   The OCC issued a cease-and-desist order by consent that required a bank to shut down one of its
         lending departments, after the OCC determined that the bank permitted the department to engage in
         unsafe or unsound banking practices. The OCC also required the bank to address deficiencies in the
         bank’s compliance with BSA and the USAPA; to increase capital levels, in view of increased risks; and
         to correct problems with the bank’s books and records.
     The OCC will also implement a Money Laundering Risk (MLR) system in early FY 2006. This system will
     provide collective information that will formulate the first step in assessing overall BSA/AML quantity of
     risk for each bank and enhance the OCC’s ability to better measure the level of risk, evaluate risks within
     banks, and assess a bank’s relative BSA/AML risk. This effort will not only enhance the quality of risk
     analysis by providing a more consistent methodology for measuring BSA/AML risks, but will allow for a
     larger scale of analysis because of the amount of data that will be systematically processed.




18                                                                                        OCC ANNUAL REPORT
Shared National Credit Review                      by experienced examiners who provide on-the-
In the spring of 2005, the OCC completed           job training examining banks during their first
the annual shared national credit review in        six to eight months with the OCC. During the
coordination with the FRB, FDIC, and the           year, 21 training teams consisting of 96 entry-
OTS. This year’s review covered 6,817 credits      level bank examiners hired in June 2004 and
with commitments totaling $1.6 trillion.           January 2005 completed their training team
Additional information on this program is          assignments and were placed in permanent field
provided in the Partnership and Outreach           office locations in the community bank line of
section.                                           business. In June 2005, 21 new training teams
                                                   began their on-the-job examiner training, and
National Resource Planning Tool                    this group of 100 examiners is expected to join
The National Resource Planning Tool (NRPT)         community bank field offices in the first half of
is a centralized and integrated Web-based          FY 2006.
database that shows resource needs and
opportunities throughout the OCC. It facilitates   Risk Committees
the National Resource Planning Process, which      The OCC National Risk Committee (NRC)
uses an agreed-upon timeline and common            identifies primary and emerging risks to the
data elements for requesting and scheduling        national banking system, stays abreast of
resources from the other lines of business.        evolving business practices and financial
In FY 2005 the large bank, mid-size bank           market issues, advises the OCC’s Executive
and credit card bank lines of business piloted     Committee of material risks facing the
a uniform national process for requesting          national banking system, and recommends
examination staff resources. The pilot involved    OCC supervisory responses. The District Risk
standardizing the processes for staffing and       Committees (DRCs) operate in each district.
scheduling for better communication and            The deputy comptroller for Risk Evaluation
accountability. The pilot resulted in better       chairs the NRC. Its members include senior
examination planning and led to the creation of    managers from key areas across the OCC as
the NRPT.                                          well as DRC chairpersons. The NRC identifies
                                                   resource and training needs and provides
Entry-Level Bank Examiner Training                 specialized support and examiner guidance.
In FY 2005, the OCC continued its recruitment      The NRC also offers examiner training in such
program for entry-level bank examiners. Given      areas as bank technology, asset management,
the number of projected examiner retirements       retail credit, compliance, mortgage banking,
over the next five years, this program is          derivatives, and interest rate risk management.
critical for maintaining the OCC’s high level      These efforts ensure consistent and efficient
of examiner expertise. In this program, newly      responses to emerging risk issues by precluding
hired bank examiners join training teams led       redundancies, encouraging the sharing of ideas




OCTOBER 2005                                                                                     19
throughout the OCC, and assisting with the          An appeal summary is prepared for each formal
work of the DRCs.                                   appeal received in the ombudsman’s office.

National Bank Appeals
The national bank appeals process resolves          Enforcing
individual appeals and inquiries from national
                                                    Enforcement actions ensure that corrective
banks. The ombudsman, with the consent of
                                                    actions are taken to address violations of laws,
the Comptroller, has the discretion to stay
                                                    rules, and regulations, unsafe or unsound
any agency decision or action during the
                                                    banking practices, and non-compliance with
resolution of an appealable matter. The Office
                                                    policies or procedures by national banks, their
of the Ombudsman processed more than 150
                                                    insiders, and other affiliated parties. The OCC
substantive inquiries, including formal and
                                                    takes formal as well as informal actions to
informal appeals, during FY 2005.
                                                    support prompt detection and mitigation of
Some of the issues considered by the                problems before they affect a bank’s viability,
ombudsman in 2005 include:                          and to require resolution of troubled banks in
                                                    an orderly manner. The OCC’s Enforcement
•    The downgrade in the safety and soundness
                                                    and Compliance Division conducts
     examination of the bank’s composite rating
                                                    investigations, takes administrative actions, and
     from 2 to 4.
                                                    litigates those actions.
•    The OCC’s right to retain the full
                                                    During FY 2005, the OCC took formal and
     semiannual assessment fee for the period of
                                                    informal enforcement actions against national
     January 1 through June 30 for a bank that
                                                    banks and institution-affiliated parties who
     converted to a state chartered commercial
                                                    engaged in violations of laws and regulations
     bank on January 1.
                                                    or unsafe or unsound banking practices.
•    The downgrade to a 3 of a bank’s overall       The actions included temporary cease-and-
     composite rating and component ratings for     desist orders, final cease-and-desist orders,
     asset quality, management, and consumer        removal or prohibition orders, CMPs, and
     compliance. The bank’s board also              formal agreements. The OCC’s Fast Track
     appealed the violations of law of the legal    Enforcement Program helps ensure that bank
     lending limit.                                 insiders and employees who committed
•    The restoration to a 2 of a 3 composite        criminal acts involving banks, but who are not
     CAMELSI (capital, asset quality,               being criminally prosecuted, are prohibited
     management, earnings, liquidity, sensitivity   from working in the banking system. This
     to market risk, and information technology)    program resulted in several prohibitions and
     rating assigned at the most recent             personal cease-and-desist orders during FY
     examination.




20                                                                           OCC ANNUAL REPORT
   2005. Table 2 summarizes all enforcement               overage that resulted when he conducted an
   actions completed in FY 2005.                          improper transaction.
   •   The OCC issued orders by consent               •   The OCC issued a prohibition order by
       for prohibition and restitution in the             consent and assessed a $5,000 CMP
       amount of $5,550 against a former                  against a former bank employee who
       bank teller for making unauthorized                made unauthorized transfers from her
       and fraudulent withdrawals from a                  relatives’ accounts into her business
       bank customer’s account for his own                account; made unauthorized loans to, and
       benefit.                                           withdrawals from, accounts of unrelated
                                                          bank customers; and provided falsified
   •   Following the OCC’s issuance of a
                                                          bank documents to another bank to obtain a
       Notice of Charges, the FRB issued a
                                                          business loan.
       prohibition order and the OCC issued
       an order for restitution in the amount         •   The OCC assessed a $180,000 CMP
       of $2,400 against a former bank                    by consent against a bank’s operating
       employee for altering bank records                 subsidiary for failing to dispose of
       to inflate the amount of deposits into             confidential customer information in
       customers’ accounts and depositing                 a secure fashion, in violation of bank
       the surplus into his own account, and              regulations governing the security of
       for diverting for his own use a cash               customer information.

   Table 2: Enforcement Actions, FY 2005
                                                                                   FY 2005
                                                                Against National             Against Institution-
             Type of Enforcement Action                                  Banks                 Affiliated Parties
             Cease-and-Desist Orders                                          23                               21
             Temporary Cease-and-Desist Orders                                1                                0
             Civil Money Penalties                                           11                               52
             Civil Money Penalties Amount Assessed                  $25,587,700                      $6,146,750
             Formal Agreements                                               27                                0
             Memoranda of Understanding                                      14                                0
             Commitment Letters                                               5                                0
             Suspension Orders                                                0                                4
             Letters of Reprimand                                             0                               15
             12 USC 1818 Removal/Prohibition Orders                           0                               24
             12 USC 1829 Prohibitions                                         0                             410
             Total Enforcement Actions                                       81                              526




OCTOBER 2005                                                                                                    21
Other Enforcement Actions                          Ensuring Fair Access
The OCC continued to review the compliance         and Fair Treatment
of national banks with federal regulations
requiring flood insurance for certain properties   During FY 2005, the OCC’s efforts to ensure
located in special flood hazard areas that         fair access and fair treatment focused on
secure loans made by national banks. The           integrating compliance risk supervision into
OCC assessed CMPs totaling $272,700 against        the on-going supervision activities for national
nine banks for violations of flood insurance       banks.
requirements in FY 2005.                           This subprogram included:
The OCC also initiated and litigated               •   Conducting risk-based fair lending
enforcement actions against bank insiders and          examinations.
other institution-affiliated parties who engaged
                                                   •   Conducting outreach to national banks to
in unsafe or unsound practices, unlawful
                                                       assist them in meeting their responsibilities
conduct, or breaches of duty. The OCC acted
                                                       under the recently revised CRA and the
when such practices, conduct, or breaches
                                                       new Home Mortgage Disclosure Act
could have caused or did cause harm to a
                                                       (HMDA) requirements.
national bank, or other banks, or resulted in
financial gain or other benefit for the insider.   •   Researching new opportunities for
Several cases resulted in prohibitions, CMPs,          community development activities by
restitution, or other personal cease-and-desist        national banks and publishing best
orders.                                                practices.
The OCC also brought enforcement actions           •   Meeting with persons and groups that
against banks and bank insiders to support             protest banks’ corporate applications.
prompt detection and mitigation of problems
                                                   •   Facilitating the community and consumer
before they affected a bank’s viability and
                                                       groups’ interactions with the OCC, such
against persons or companies who, while
                                                       as helping them inform their constituents
serving as agents or independent contractors of
                                                       about the OCC’s customer assistance group
national banks, engaged in allegedly reckless
                                                       (CAG).
acts causing losses to the banks.
                                                   •   Reviewing or approving individual bank
                                                       community development activities.
                                                   The OCC met two of the three FY 2005
                                                   performance targets for ensuring fair access and
                                                   fair treatment of bank customers as depicted in
                                                   the following table.




22                                                                           OCC ANNUAL REPORT
Table 3: Ensuring Fair Access and Fair Treatment Performance Measures, FY 2005

          Performance Measures                                                           Target         Actual

          Percentage of national banks with consumer compliance rating of 1 or 2         94%            94%
          Percentage of qualified intermediate small institutions to which the OCC
               offers to provide consultation on the CRA and community development       100%           100%
               opportunities
          Percentage of consumer complaints closed within 60 calendar days of receipt    80%            72%




Unfair and Deceptive Acts or Practices                               the bank to make restitution to affected
On February 2, 2005, OCC issued residential                          customers and issued a cease-and-desist
real estate lending standards to assist national                     order by consent against the company
banks in their efforts to avoid becoming                             that marketed, originated, serviced, and
involved in predatory, abusive, unfair, or                           collected the tax lien loans for the purpose
deceptive residential mortgage lending                               of restricting its conduct of business with
practices. The OCC also continues to respond                         insured depository institutions.
vigorously to abusive, unfair, or deceptive
business practices by national banks, thereby                   Actions to Combat Identity Theft
promoting fair treatment of bank customers                      The OCC investigates and brings enforcement
and fair access to financial services for all                   actions against individual bank employees as
Americans.                                                      well as against bank service providers who
                                                                misuse bank customer information to engage in
•   The OCC issued prohibition and cease-
                                                                identity theft and other illegal activities.
    and-desist orders by consent and assessed
    a $20,000 CMP against a former bank                         Consumer Complaints
    vice president and loan officer for making                  The CAG (Customer Assistance Group) assists
    tax lien loans that violated the Home                       consumers who have questions or complaints
    Ownership Equity Protection Act, the Truth                  about national banks and their operating
    in Lending Act, the Real Estate Settlement                  subsidiaries. The CAG implements a wide
    Procedures Act, and the Federal Trade                       range of initiatives each year to further improve
    Commission Act; and for receiving a large                   the way it conducts its business and responds to
    portion of excessive and duplicative fees                   its constituents’ needs. Through these efforts,
    collected by the bank from customers,                       CAG strives to make a positive impact on
    including fees for services that were never                 the lives of many consumers, a considerable
    performed. Earlier the OCC required




OCTOBER 2005                                                                                                     23
contribution to the OCC supervisory process,      in a case, but it can offer informal education to
and a significant difference to the nation’s      the consumer on banking and the use of credit.
banking industry.
                                                  The CAG is staffed with highly trained
The CAG serves three constituents:                compliance professionals equipped to deliver
                                                  responsive customer service. The operation
•    Customers of national banks and their
                                                  employs state-of-the art call center technology
     subsidiaries — by providing a venue to
                                                  with bilingual call routing (English and
     resolve complaints;
                                                  Spanish), a Web-based complaint resolution
•    OCC bank supervision — by alerting           process, and Internet and facsimile access 365
     supervisory staff members to emerging        days a year.
     problems that may potentially result in
                                                  During FY 2005, the CAG received 67,839
     the development of policy guidance or
                                                  calls, opened 73,519 cases and closed 72,203
     enforcement action; and
                                                  cases. Of the cases closed, 72 percent were
•    National bank management — by providing      completed within 60 calendar days of receipt,
     a comprehensive analysis of complaint        falling short of the target of 80 percent and
     volumes and trends.                          less than the 74 percent achieved in FY 2004.
The CAG is not an advocate for banks or           Although the Houston call center was closed
consumers, but remains neutral in answering       for days due to Hurricane Rita, there was still
questions and offering guidance on applicable     a 1 percent increase in calls from FY 2004.
banking laws, regulations, and practices. The     Additionally, the OCC opened 8 percent
CAG encourages customers to contact their         and closed 6 percent more cases than in FY
banks first to try to resolve their concerns.     2004. The risks and complexity of consumer
If these efforts are unsuccessful, CAG may        complaints continue to increase, requiring
serve as a liaison between the consumer and       additional time for analysis and in many
the bank. If a CAG specialist is unable to help   instances, additional information from the
over the phone, the consumer may be asked         consumer or the bank. This has lengthened the
to submit a signed, written complaint. The        average response time.
CAG is not always able to resolve complaints
                                                  Community Affairs
of a factual or contractual dispute nature;
                                                  Revisions to the CRA regulations in 2005
these more appropriately may be decided by
                                                  added a new category of banks to include
a court of law. Additionally, federal laws and
                                                  “Intermediate Small Bank,” a bank with
regulations might not govern service issues
                                                  assets between $250 million and $1 billion.
or complaints related to the bank’s internal
                                                  The OCC identified national banks in this
policies and procedures. The CAG cannot
                                                  category and offered CRA consultative
give legal advice or personal opinions about
                                                  services to each of them. During FY 2005 the
consumer complaints and/or the bank’s position




24                                                                          OCC ANNUAL REPORT
OCC conducted 273 bank consultations. The                      the Unbanked and Underbanked,” and
consultations covered strategies for national                  “Individual Development Accounts: An
banks’ responsibilities under CRA, including                   Asset Building Product for Lower Income
local and regional investment opportunities,                   Consumers.” It also published four Community
the OCC’s investment authority for community                   Developments newsletters: “The Power of
development investments, federal low-income                    Plastic: How Banks Are Using Technology
housing tax credits, new markets tax credits,                  to Reach the Unbanked,” “Growing Markets
individual development accounts, bank-owned                    with Bank-Owned Community Development
community development corporations, and                        Corporations,” “Investment Intermediaries:
small business administration programs.                        Helping Banks Achieve a Double Bottom
                                                               Line,” and “Using the New HMDA Data
The OCC published two Community
                                                               to Expand Home Mortgage Lending
Developments Insights papers on “Payroll
                                                               Opportunities.”
Cards: An Innovative Product for Reaching


  OCC, Banks, and Other Agencies Team Up to Help Katrina Victims

  In the days and hours leading up to Hurricane Katrina’s landfall along the Gulf Coast on August 29, 2005, the
  OCC was already coordinating with other federal agencies, state officials, and national bankers on efforts to
  weather the storm and begin recovery for what would turn out to be the most costly natural disaster in U.S.
  history.
  After the storm, the OCC joined with other federal and state banking officials and industry trade groups in a
  coordinated response to the crisis. Of immediate importance was restoring financial services to the people
  dealing with Katrina’s aftermath — ensuring that individuals and businesses had access to cash and that
  financial institutions could continue to receive and process payments, including Social Security, veterans, and
  disability payments. As part of these efforts, the OCC and other agencies encouraged banks to consider actions
  to assist storm victims, including:
  •   Waiving ATM fees for customers and non-customers.
  •   Increasing ATM daily cash withdrawal limits.
  •   Easing restrictions on cashing out-of-state and non-customer checks.
  •   Waiving overdraft fees resulting from paycheck interruption.
  •   Waiving early withdrawal penalties on time deposits.
  •   Waiving availability restrictions on insurance checks.
  •   Allowing customers to defer or skip some loan payments.
                                                                                                        Continued




OCTOBER 2005                                                                                                        25
     OCC, Banks, and Other Agencies Team Up to Help Katrina Victims continued
     •   Waiving late fees for credit cards and other loans due to interruption of mail and billing statements, or the
         customer’s inability to access funds.
     •   Easing credit card limits and credit terms on new loans.
     •   Delaying delinquency notices to credit bureaus.
     •   Using non-documentary customer verification methods for customers who could not provide standard
         identification documents.
     In addition, the OCC assisted banks in establishing temporary branches and sharing branch facilities and
     employees. The OCC also established a special section on its Web site where bankers and consumers could
     obtain additional Katrina-related information. Beyond addressing these immediate needs, the OCC has remained
     committed to working with national banks and the industry in addressing longer term concerns and issues. In
     September 2005, the federal financial regulatory agencies announced the formation of a working group to foster
     the regulatory agencies’ coordination, communication, and financial supervisory responses to the issues facing
     the industry in Katrina’s wake.
     The response to Katrina showed the resiliency and strength of the nation’s banking system. It showed the
     pride and professionalism of the federal and state regulators and banking trade groups who recognized the
     essential role banks play in responding to such crises and rebuilding communities. The response also showed
     the willingness of competing financial institutions to act in the interests of their communities and customers by
     sharing space, resources, and support. Lastly it showed the importance of sound disaster recovery planning.
     Although hurricanes like Katrina do not come ashore every year, other natural disasters and incidents regularly
     affect the lives, communities, and businesses they touch. The safety and soundness of America’s national
     banking system requires vigilance for responding to these crises, maintaining plans for disaster recovery and
     continuity of operations, and reviewing those plans to ensure they protect against foreseeable risks.



Regulate Program                                                includes the establishment of examination
                                                                policies, handbooks, and interpretations for
The regulate program establishes regulations,                   examiners. It also includes representing and
policies, operating guidance, and interpretations               defending the OCC’s regulatory authorities and
of general applicability to national banks. These               interpretations in administrative, judicial, and
regulations, policies, and interpretations may                  congressional hearings.
set system-wide standards, define acceptable
banking practices, provide guidance on risks                    The OCC devoted 358 FTEs or 13.4 percent of
and responsibilities facing national banks, or                  the OCC workforce, to the regulate program
prohibit (or restrict) banking practices deemed                 in FY 2005. The cost of the regulate program
to be imprudent or unsafe. This program                         was $65.9 million. The OCC issued 131 legal




26                                                                                             OCC ANNUAL REPORT
opinions. Of the 120 legal opinions subject to          Transactions Act of 2003 (12 CFR 30 and
the processing time frames, 86 percent were             41) 69 FR 77610 (December 28, 2004).
completed on time, meeting the FY 2005 goal.            The OCC, together with the FRB, FDIC,
                                                        and the OTS issued a joint rulemaking
The OCC issued seven final rules, one interim
                                                        to implement section 216 of the Fair and
rule, and two notices of proposed rulemaking.
                                                        Accurate Credit Transactions Act of 2003.
The OCC also issued two notices, pursuant
                                                        Section 216 requires the banking agencies,
to the Economic Growth and Regulatory
                                                        the National Credit Union Administration
Paperwork Reduction Act of 1996 (EGRPRA),
                                                        (NCUA), the Securities and Exchange
inviting comment on ways to improve current
                                                        Commission (SEC), and the Federal Trade
regulations, and two notices seeking comment
                                                        Commission (FTC) to adopt consistent
on substantive guidance that OCC proposed to
                                                        and comparable regulations, to the extent
provide to national banks.
                                                        possible, requiring entities subject to
Among the most significant rulemakings                  their jurisdictions to dispose of consumer
completed this year were:                               information properly to reduce the risk of
•   Rules, Policies, and Procedures for                 identity theft.
    Corporate Activities; Annual Report on          •   OCC Guidelines Establishing Standards for
    Operating Subsidiaries (12 CFR5) 69 FR              Residential Mortgage Lending Practices
    64478 (November 5, 2004). This final rule           (12 CFR 30) 70 FR 6329 (February
    revised OCC’s rules governing national              7, 2005). OCC issued final guidelines
    bank operating subsidiaries. It requires            concerning the residential mortgage lending
    a national bank to file an annual report            practices of national banks and their
    with the OCC that identifies its operating          operating subsidiaries as a further step to
    subsidiaries that do business directly              protect against national bank involvement
    with consumers and are not otherwise                in predatory, abusive, unfair, or deceptive
    “functionally regulated” subsidiaries               residential mortgage lending practices.
    within the meaning of section 5(c)(5) of            The guidelines identify practices that are
    the Bank Holding Company Act of 1956,               consistent with sound residential mortgage
    as amended. The annual filing contains              lending practices and describe terms and
    the name of each reportable operating               practices that may lead to predatory,
    subsidiary, its state of incorporation, and a       abusive, unfair, or deceptive lending
    brief description of its activities. The OCC        practices. They also address steps banks
    makes this information available to the             should take to mitigate risks associated
    public on its Internet Web site.                    with their purchase of residential mortgage
•   Proper Disposal of Consumer Information             loans and use of mortgage brokers to
    under the Fair and Accurate Credit                  originate loans.




OCTOBER 2005                                                                                    27
•    Interagency Guidance on Response                     legitimate purposes, consistent with the
     Programs for Unauthorized Access to                  congressional intent to restrict the use
     Customer Information and Customer Notice             of medical information for inappropriate
     (12 CFR 30) 70 FR 15736 (March 29,                   purposes. The interim final rule also creates
     2005). The OCC, the FRB, the FDIC, and               limited exceptions to permit affiliates to
     the OTS issued an interpretation of section          share medical information with each other
     501(b) of the Gramm-Leach-Bliley Act and             without becoming consumer reporting
     the Interagency Guidelines Establishing              agencies.
     Standards for Safeguarding Customer              •   CRA Regulations (12 CFR 25) 70 FR
     Information. The interpretation describes            44256 (August 2, 2005). The OCC, together
     the agencies’ expectations regarding the             with the FRB and the FDIC, issued a final
     response programs, including customer                rule to revise certain provisions of its rules
     notification procedures, that a financial            implementing the CRA. This rulemaking
     institution should develop and implement             addresses the regulatory burden imposed
     to address the unauthorized access to, or            on smaller banks by revising the eligibility
     use of, customer information that could              requirements for CRA evaluation under
     result in substantial harm or inconvenience          the lending, investment, and service tests.
     to a customer.                                       The rulemaking adds a new community
•    Fair Credit Reporting Medical Information            development test for banks with at least
     Regulations (12 CFR 41) 70 FR 33958                  $250 million and less than $1 billion in
     (June 10, 2005). This interim final rule             assets (Intermediate Small Bank). This
     implements section 411 of the Fair and               rulemaking also revises the definition of the
     Accurate Credit Transactions Act of 2003.            term “community development” to include
     The interim final rule creates exceptions            affordable housing and revitalization and
     to the statute’s general prohibition on              stabilization in underserved rural areas
     creditors obtaining or using medical                 and designated disaster areas and revises
     information pertaining to a consumer in              the regulation to address the impact
     connection with any determination of                 on a bank’s CRA rating of evidence of
     the consumer’s eligibility, or continued             discrimination or other illegal credit
     eligibility, for credit for all creditors. The       practices.
     exception permits creditors to obtain or
     use medical information in connection
     with credit eligibility determinations
     when necessary and appropriate for




28                                                                              OCC ANNUAL REPORT
Legal Opinions                                            bank has an appropriate risk measurement
                                                          and management process. Interpretive letter
Significant legal opinions issued in FY 2005
                                                          No. 1019 (February 10, 2005).
included:
                                                      •   Financial Intermediation Transactions
•   Directors’ Qualifying Shares. National
                                                          Involving Electricity. A bank may engage
    bank directors may meet the qualifying
                                                          in electricity derivative transactions and
    shares requirement under 12 USC 72 by
                                                          hedges, settled in cash and by transitory
    purchasing trust preferred stock. This offers
                                                          title transfer, as part of, or incidental to, its
    bank directors a new means of obtaining
                                                          existing financial intermediation business
    a financial stake in the bank in addition to
                                                          in energy-related commodities derivatives,
    purchasing bank stock. Interpretive Letter
                                                          provided the bank has established an
    No. 1020 (February 8, 2005).
                                                          appropriate risk measurement and
•   Equity Derivative Transactions with                   management process for those activities to
    Affiliates and Subsidiaries. A bank may               which the OCC expresses no supervisory
    enter into equity derivatives transactions            objection. Interpretive Letter No. 1025
    with certain of its affiliates and subsidiaries       (April 6, 2005).
    that mirror the affiliates’ and subsidiaries’
                                                      •   Branching. The OCC concluded that
    transactions with their customers, and
                                                          a remote check-scanning terminal at a
    the bank may hedge the risks of those
                                                          customer’s location, which permits the
    transactions in the same manner as it
                                                          customer to deposit checks electronically,
    hedges the risks of its existing derivatives
                                                          is not a branch. This was the first letter to
    business, provided the OCC has no
                                                          discuss such terminals. Interpretive Letter
    supervisory objection. Interpretive Letter
                                                          No. 1036 (August 10, 2005).
    No. 1018 (February 10, 2005).
                                                      •   Workers’ Compensation Self-Insurance.
•   Agricultural Loans. A bank may offer
                                                          The OCC issued a legal opinion confirming
    agricultural loans with payments that
                                                          that it is permissible for national banks
    vary based on changes in commodity
                                                          to participate in a group to self-insure
    prices. The proposed activities are
                                                          group members’ workers’ compensation
    permissible as incidental to an existing
                                                          obligations. This opinion opens the way
    agricultural lending business. The bank
                                                          for community banks to reduce their costs
    first must satisfy itself concerning possible
                                                          significantly in this area. Interpretive Letter
    application of commodity laws to the
                                                          No. 1022 (February 15, 2005).
    program and must also establish that the




OCTOBER 2005                                                                                             29
Supervisory Guidance, Policies,                         plans to incorporate these procedures in
and Examination Handbooks                               a subsequent update to the Comptroller’s
                                                        Handbook. (OCC Bulletin 2004-59).
During FY 2005, the OCC issued supervisory
guidance, policies, and examination handbooks       •   Guidance on Risk Mitigation and Response
on various issues and risks affecting national          to Web-Site Spoofing Incidents. Web-
banks.                                                  site spoofing is a method of creating
                                                        fraudulent Web sites that look similar,
•    Clarifications to the OCC’s Enforcement            if not identical to an actual site, such as
     Guidelines. Under 12 CFR 21.21, all                that of a bank, with the goal of enticing
     national banks must establish and maintain         customers to reveal information that
     adequate internal controls, independent            would enable a criminal to use customers’
     testing, responsible personnel, and training       accounts to commit fraud or steal the
     to comply with the BSA. This guidance              customers’ identities. In response to the
     clarifies and provides a consistent approach       growing incidents of Web-site spoofing,
     for examiners to use when citing violations        the OCC issued guidance to banks on how
     and taking enforcement actions with                to respond to such incidents and steps
     respect to this rule. The OCC also issued an       that they can take to mitigate the risks to
     appendix to its Enforcement Action Policy          themselves and their customers from such
     to identify those violations (including            incidents. (OCC Bulletin 2005-24).
     BSA) or other supervisory findings that,
     as a result of a statutory or other legal      •   Advisory Letter on Electronic Disclosures
     requirement, require the OCC to take a             and Notices. Increasingly, banks are
     specific action. (OCC Bulletins 2004-50            replacing their paper-based consumer
     and 2004-51).                                      notices or disclosures with electronic
                                                        disclosures. However, the failure to provide
•    Interim Examination Procedures for                 such electronic disclosures in a proper
     Retail Credit. In recent years, the mix and        manner can expose a bank to significant
     complexity of products that banks offer            compliance, transaction, and reputation
     and the availability of credit to consumers        risk. This advisory letter provides
     has expanded. Concurrent with this growth          background and highlights issues that
     have been changes in the ways that banks           should be considered by national banks that
     manage their retail portfolios. In response        provide electronic consumer disclosures.
     to these trends, the OCC issued updated            (OCC AL-2004-11).
     examination procedures that address the
     various risk management and control            •   Additions and Updates to the Comptroller’s
     functions that banks need to manage more           Handbook series. The OCC published two
     diverse and complex portfolios. The OCC            updates to the Comptroller’s Compliance
                                                        Handbook.




30                                                                           OCC ANNUAL REPORT
    −   “Other Consumer Protection Laws               to follow in the event the card is lost or
        and Regulations” incorporates                 stolen; the locations at which the gift card
        interagency examination procedures            can be used; and the procedures to follow
        for the Homeowners Protection Act,            in the event there are problems with the
        the Disclosure and Reporting of               card. If these disclosures are not stated
        CRA-Related Agreements, and the               on the gift card itself, or its packaging,
        Prohibition Against Use of Interstate         the OCC recommended that consumers
        Branches Primarily for Deposit                determine if there is a toll-free number
        Production. It replaces the OCC’s             or Web site that would provide this
        1996 booklet.                                 information.
    −   “Home Mortgage Disclosure Act             •   Check 21: Q’s and A’s, http://www.occ.
        Examination Procedures” incorporates          treas.gov/consumer/check21/htm. The
        FRB changes to Regulation C, the              OCC posted on its public Web site these
        majority of which relate to additional        questions and answers for consumers about
        information requirements lenders              the Check Clearing for the 21st Century
        must include on their HMDA Loan               Act, commonly referred to as the “Check
        Application Register and replaces the         21 Act.” The questions and answers
        OCC’s August 1996 booklet.                    provide basic information to consumers
                                                      on various aspects of this new federal law.
                                                      The document focuses on what consumers
Consumer Advisories                                   most need to know about the Check 21 Act,
Consumer Advisories issued in FY 2005                 including the importance of ensuring that
included:                                             there are sufficient funds in the account
                                                      to cover checks that are written; the
•   Gift Cards: OCC Provides Holiday Tips for         possibility that original checks will not be
    Consumers, OCC News Release 2004-108              returned; the availability and significance
    (December 7, 2004). The OCC issued this           of substitute checks created pursuant to the
    consumer advisory to provide important            Check 21 Act; and special procedures to
    information to holiday shoppers about             correct errors involving substitute checks.
    the terms and conditions that apply to gift
    cards. The OCC advised consumers to           •   Writing a Check: Understanding Your
    make sure they have received disclosures          Rights, OCC News Release 2005-75
    on significant terms and conditions of gift       (August 2, 2005). The OCC issued this
    cards, including any applicable fees, such        consumer advisory to provide consumers
    as those that apply after the purchase of         with important information about their
    the card and thereby reduce its value; any        rights when they use checks to make
    expiration date for the card; procedures          payments. The advisory outlines the




OCTOBER 2005                                                                                         31
     different ways that checks can be processed          granted national banks declaratory and
     and the significance for consumers of those          injunctive relief in suits challenging states’
     differences. For example, the advisory               efforts to license and exercise visitorial
     informs consumers that various methods               powers over the operating subsidiaries of
     for electronic check processing may mean             national banks. In each case, the district
     that funds are taken from consumers’                 court held that the National Bank Act and
     bank accounts more quickly than before.              OCC regulations preempt state licensing
     As a result, it is even more important for           and enforcement authority over the real
     consumers to ensure that they have enough            estate lending activities of national bank
     money in their accounts to cover checks              operating subsidiaries. Both the Second
     at the time they write them. The advisory            and Ninth Circuit Courts of Appeals have
     also discusses the different laws and                affirmed the decisions of the district courts
     regulations governing check transactions,            in California and Connecticut. Wells
     how consumers’ rights may vary depending             Fargo Bank, N.A. v. Boutris, — F.3d —,
     on how a check is processed, and how                 2005 WL 1924713 (9th Cir. August 12,
     consumers may resolve problems in                    2005), Wachovia Bank, N.A. v. Burke,
     connection with their checks.                        414 F.3d 305 (2nd Cir. 2005). The
                                                          decisions of district courts in Maryland
In addition to these OCC issuances, the OCC
                                                          and Michigan are pending appeal before
participated in and issued supervisory guidance
                                                          the Fourth and the Sixth Circuit Courts
and examination procedures in conjunction
                                                          of Appeals, respectively. Nat’l City Bank
with other federal financial regulators. These
                                                          of Ind. v. Turnbaugh, 367 F.Supp.2d 805
initiatives are discussed in the Partnership and
                                                          (D.Md.2005), appeal docketed, No. 05-
Outreach section of this report.
                                                          1647 (4th Cir. June 13, 2005); Wachovia
                                                          Bank, N.A. v. Watters, 334 F.Supp.2d 957
Litigation Activities                                     (W.D.Mich.2004) appeal docketed, No. 04-
                                                          2257 (6th Cir. October 14, 2004).
The OCC was a party to, or prepared, “friend
of the court” briefs in several cases related to      •   Challenge to federal diversity jurisdiction
bank powers, federal preemption of state law,             ruling of the Court of Appeals for the
enforcement actions, problem banks, and Title             Fourth Circuit. The Supreme Court granted
VII actions. Some examples follow:                        certiorari to review a decision of the Court
                                                          of Appeals for the Fourth Circuit that held,
•    Decisions that federal law preempts state            based upon its interpretation of 28 USC
     law restrictions on the activities of national       1348, that a national bank is a citizen of
     bank mortgage operating subsidiaries.                any state in which it maintains a branch
     Four U.S. district courts in California,             office or other physical presence for federal
     Connecticut, Maryland, and Michigan have




32                                                                              OCC ANNUAL REPORT
    diversity jurisdictional purposes. Wachovia        unauthorized practice of law by charging
    Bank, Nat. Ass’n v. Schmidt, 388 F.3d 414          a fee for preparing real estate mortgage
    (4th Cir. 2004), cert. granted, 73 USLW            loan documents. The court concluded that
    3540, 73 USLW 3713, 73 USLW 3718                   a company engages in the practice of law
    (U.S. June 13, 2005) (No. 04-1186). The            by preparing loan documents, such as
    Fourth Circuit Court of Appeals decision           the note and the mortgage. Under Illinois
    created a conflict within the United               law, however, a party to a transaction
    States courts of appeals when it rejected          is permitted to prepare the documents
    a contrary interpretation of 28 USC 1348           memorializing that transaction. Thus, the
    adopted by the Fifth, Seventh and Ninth            court held that state law permits lenders,
    Circuits. See Horton v. Bank One, N.A.,            including national bank subsidiaries, to
    387 F.3d 426 (5th Cir. 2004).                      charge fees for preparing loan documents.
                                                       King. v. First Capital Financial Service
•   Section 104 of the Gramm-Leach-Bliley
                                                       Corp., 828 N.E.2d 1155 (2005).
    Act preempts state law that restricts the
    sale of insurance by national banks. A U.S.    •   Fair Credit Reporting Act preempts
    District Court granted summary judgment            California statute that restricts information
    to plaintiffs who challenged as preempted          sharing among affiliates. The Ninth Circuit
    state statutory provisions that restrict           Court of Appeals held that the clause of
    national bank insurance sales, solicitation,       the Fair Credit Reporting Act preempting
    and cross-marketing. The court held that           state laws regulating the exchange of
    section 104 of the Gramm-Leach-Bliley              information among affiliates invalidates
    Act, 15 USC 6701, preempts state laws              the requirements and prohibitions imposed
    that restrict the insurance sales activities       by the California Financial Information
    of national banks. Massachusetts Banking           Privacy Act (commonly known as SB1)
    Ass’n v. Bowler, 2005 WL 61458 (D.Mass.            for affiliates sharing information bearing
    2005).                                             on a consumer’s creditworthiness, credit
                                                       standing, credit capacity, character, or other
•   Highest state court holds that state law
                                                       factor used to establish the consumer’s
    authorizes a national bank to charge
                                                       eligibility for credit or insurance. American
    document preparation fees. In an
                                                       Bankers Ass’n v. Gould, 412 F.3d 1081
    unanimous opinion, the Illinois Supreme
                                                       (9th Cir. 2005).
    Court affirmed two decisions of the
    Illinois Court of Appeals that dismissed       •   Federal court upholds OCC decision
    complaints in 38 lawsuits, consolidated            denying a request for suspicious activity
    for appeal, where the plaintiffs alleged           reports. The U.S. District Court for the
    that various lenders, including a national         Northern District of Ohio held that the
    bank operating subsidiary, engaged in the          OCC’s decision denying a request for




OCTOBER 2005                                                                                       33
     suspicious activity reports (SARs) was                       of those banks and their subsidiaries. The
     reasonable because the BSA’s prohibition                     program includes the review and approval of
     on the disclosure of a SAR and the OCC’s                     new national bank charters, federal branches
     implementing regulation declaring a SAR                      and agencies, mergers, conversions, corporate
     to be confidential prohibits the disclosure                  reorganizations, changes in control, operating
     of a SAR to anyone. The court also                           subsidiaries, branches, relocations, and
     sustained the constitutionality of the BSA’s                 subordinated debt issues. The charter process
     confidentiality provision and the OCC’s                      incorporates conditions and agreements as
     implementing regulation. Wuliger v. OCC,                     needed to support the safe and sound operation
     — F.Supp. —, 2005 WL 2217039 (N.D.                           of the resulting entities.
     Ohio).
                                                                  In FY 2005, the OCC devoted $15.5 million
•    United States Court of Federal Claims                        and 86 FTEs or 3.2 percent of its workforce,
     rejects banker’s Tucker Act claim                            to the charter program. The OCC exceeded
     to recover compensation for a Fifth                          all of its FY 2005 performance targets and
     Amendment taking. The U.S. Court of                          customer service standards for licensing
     Federal Claims ruled that the OCC did                        operations. The customer service results were
     not prohibit a former banker from selling                    based on 645 licensing surveys completed
     shares of stock he owned in a national bank                  by banks during the year, for a 37 percent
     following his suspension from participation                  response rate. The survey is based on a five-
     in the affairs of the bank and, thus, did not                point scale, in which 1 indicates outstanding
     violate his constitutional rights. Hedrick v.                and 5 indicates significantly deficient. The
     United States, No. 95-684C, slip op. (Fed.                   OCC follows up with every applicant that rates
     Cl. September 29, 2004).                                     the overall licensing process 3 or worse. This
                                                                  follow-up helps agency employees understand
                                                                  the applicants’ concerns, so that the OCC can
Charter Program                                                   make appropriate modifications to its licensing
The charter program relates to chartering                         process. The FY 2005 licensing and customer
national banks as well as evaluating the                          service performance measures and results are
permissibility of structures and activities                       presented in Table 4.

Table 4: Licensing and Customer Service Performance Measures, FY 2005
           Performance Measures                                                            Target       Actual
           Percentage licensing applications and notices filed electronically              35%          38%
           Percentage of licensing applications and notices completed within established
                                                                                           95%          96%
                time frames
           Average survey rating of the overall licensing services provided by OCC
                                                                                           ≤ 1.5        1.19




34                                                                                         OCC ANNUAL REPORT
Licensing Decisions                                                      within the established time frames, the same
                                                                         as in FY 2004. Table 6 shows the timeliness of
A responsive and efficient licensing operation
                                                                         the OCC’s actions by type of application for
is essential to meet the needs of banks that
                                                                         FY 2004 and FY 2005. The OCC met its goal
are part of, or seek to become part of, the
                                                                         while providing a consistently high level of
national banking system. The OCC received
                                                                         services as rated by applicants. In addition, the
2,341 applications and 991 notices during FY
                                                                         OCC received 1,256 applications and notices
2005. The volume of corporate applications
                                                                         electronically, an increase of 64 percent over
and notices decreased by 239 (6.7 percent)
                                                                         the 875 received in FY 2004. Electronic filing
from FY 2004. Table 5 shows the corporate
                                                                         reached 38 percent of all applications and
applications received in FY 2004 and FY 2005.
                                                                         notices received and increased from 34 percent
Of the 2,128 decisions issued on applications
                                                                         in FY 2004.
during FY 2005, 96 percent were completed

Table 5: Corporate Application Activity, FY 2004 and 2005
                                         Applications Received                                  FY 2005 Decisions

                                                                             Approved        Conditionally       Denied            Total
                                                                                               Approved 4
                                            FY 2004         FY 2005
     Branches                                 1,765              1,645           1,546                   4             0          1,550
     Capital / sub debt                         136               141               49                   8             0             57
     Change in Bank Control                      16                17               17                   0             0             17
     Charters                                    31                26                3                 17              0             20
     Conversions1                                21                15                7                   9             0             16
     Federal Branches                              4                2                0                   0             0              0
     Fiduciary Powers                            22                22                5                   6             0             11
     Mergers2                                    90                69               59                   4             0             63
     Relocations                                288               259             241                    1             0            242
     Reorganizations                            137               116               98                   9             0            107
     Stock appraisals                              1                2                0                   0             0              0
     Subsidiaries3                               81                23               39                   4             0             43
     12 CFR 5.53 Change in Assets                NA                 4                0                   2             0              2
     Total                                    2,592              2,341           2,064                 64              0          2,128

1
  Conversions are conversions to national bank charters.
2
  Mergers include failure transactions when the national bank is the resulting institution.
3
  This count does not include 70 After-the-Fact notices received in FY 2004 and 128 After-the-Fact notices received in FY 2005.
4
  On April 14, 2000, the Licensing department issued guidance imposing special conditional approval for all bank charters requiring the
OCC to be notified before a significant deviation or change in the operating plan during the first three years of operation.




OCTOBER 2005                                                                                                                         35
Table 6: OCC Licensing Actions and Timeliness, FY 2004 and 2005
                                                                        FY 2004                                    FY 2005
                                                                             Within Target                              Within Target
     Application Type                   Target time       Number of         Number           %      Number of         Number            %
                                             frames        Decisions                                 Decisions
                                           in days 1
     Branches                                45 / 60           1,798          1,769          98          1,550           1,519          98
     Capital / sub debt                      30 / 45              48              46         96             57                48        84
     Change in Bank Control                  NA / 60              14              14      100               17                17     100
     Charters 2                                                   38              22         58             20                17        85
     Conversions                             30 / 90              18              14         78             16                7         44
     Federal Branches                      NA / 120                2              2       100                0                0         NA
     Fiduciary Powers                        30 / 45              13              7          54             11                6         55
     Mergers                                 45 / 60              96              86         90             63                53        84
     Relocations                             45 / 60             283            278          98            242               237        98
     Reorganizations                         45 / 60             123            100          81            107                88        82
     Stock appraisals                        NA / 90               0              0          NA              0                0         NA
     Subsidiaries                                NA               44              44      100               43                43     100
     12 CFR 5.53 Change in Assets                                  0              0          NA              2                1         50
     Total                                                     2,477          2,382          96          2,128           2,036          96

Note: Most decisions (99 percent in 2004 and 98 percent 2005) were decided in the district offices and Large Bank Licensing under
delegated authority. Decisions include approvals, conditional approvals, and denials.
1
  Those filings that qualify for the “expedited review” process are subject to the shorter of the time frames listed. The longer time frame
is the standard benchmark for more complex applications. New time frames commenced in 1997 with the adoption of the revised Part 5.
The target time frame may be extended if the OCC needs additional information to reach a decision, permits additional time for public
comment, or processes a group of related filings as one transaction.
2
  For independent charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time
frame is 45 days for applications eligible for expedited review, and 90 days for all others.




The OCC made several significant charter                                •     As part of an OCC approval of the
decisions, including:                                                         acquisition of a corporation as an operating
                                                                              subsidiary of a national bank, the agency
•    OCC issued, for the first time, an approval                              found that a number of international
     under its new regulation (12 CFR 5.53)                                   trade-related services were either part of,
     requiring prior OCC approval for a                                       or incidental to, the business of banking.
     fundamental change in a bank’s asset                                     Corporate Decision 2005-02 (March 24,
     composition. Conditional Approval 662                                    2005).
     (October 28, 2004).




36                                                                                                          OCC ANNUAL REPORT
•   The OCC affirmed that a state bank                             Change in Bank Control
    organized as a limited liability company                       The OCC’s objective in administering the
    may convert to a national bank under 12                        Change in Bank Control Act (CBCA) is to
    USC 35. Corporate Decision 2005-10 (June                       enhance and maintain public confidence in
    30, 2005).                                                     the national banking system by preventing
                                                                   identifiable adverse effects resulting from
                                                                   anti-competitive combinations or inadequate
Other Licensing Accomplishments                                    financial support and unsuitable management of
The OCC publishes electronically the 22-                           national banks. The OCC reviews each CBCA
booklet Comptroller’s Licensing Manual.                            notice and disapproves transactions that could
During FY 2005, several manual booklets                            have serious harmful effects.
were revised and posted to the OCC’s Web                           During FY 2005, the OCC continued to
site and made available on compact disc (CD)                       review and determine whether the CBCA
for examiners and the public. In addition, the                     standards warrant a CBCA filer to execute
OCC revised guidance on the national banking                       an enforceable agreement with the OCC. In
system in the manual’s companion publication,                      certain circumstances, the OCC may require
“A Guide to the National Banking System,”                          an agreement that imposes substantive
which is distributed at OCC’s outreach                             requirements equivalent to conditions and pre-
meetings and recruitment efforts.                                  opening requirements that apply to a de novo


Table 7: Change in Bank Control Act,1 2001–9/30/2005
          Year                  Received            Acted On         Not Disapproved    Disapproved      Withdrawn
          2005 *                      17                  17                      17              0             0
          2004 *                      16                 14 2                     13              0             0
          2003 *                      16                  10                       9              1             0
          2002                        10                  10                       9              1             0
          2001                        18                  17                      17              0             0

     * Reported by fiscal year, starting in fiscal year 2003.
     1
       Notices processed with disposition.
     2
       Includes one notice with no activity. The OCC considered it abandoned.




OCTOBER 2005                                                                                                    37
charter. When the notice raises fundamental                  presenting CRA issues that were published
supervisory or other issues that cannot be                   in the OCC’s monthly Interpretations and
mitigated through agreements, the OCC will                   Actions. This publication is available on the
disapprove the proposal.                                     OCC’s Web site.
The OCC’s CBCA activity is reflected in Table
7. The OCC received 17 CBCA notices in FY
2005. During this period, the OCC acted on 17                Licensing Reviews
notices, none of which was disapproved.                      The OCC has several initiatives under way to
                                                             evaluate and enhance its licensing programs.
                                                             During the year, the OCC continued with the
Community Reinvestment Act                                   development of its new processing database,
Consistent with 12 CFR 5, the “Public Notice                 Licensing Information Systems (LIS). Also
and Comments” booklet (February 2004)                        work continued to ensure the OCC and Federal
details the OCC’s procedures for handling CRA                Reserve Banks work together on change
issues in applications, including the treatment              in bank control applications at the holding
of adverse comments from the public. During                  company level, where the OCC seeks certain
FY 2005, the OCC received adverse comments                   safeguards from the acquiring holding company
from the public on three CRA-covered                         of a national bank. Initial efforts began during
applications. Table 8 lists those decisions                  2005 on a Quality Assurance Program (QAP)
rendered during FY 2005 on applications                      for licensing. The Licensing Department plans
                                                             an early calendar year 2006 launch of the
                                                             program.




Table 8: List of Applications Presenting Community Reinvestment Act Issues Decided,
FY 2005
                                                       Interpretations and
         Bank, City, State                             Actions                  Document Number
         Community Bank, NA, Canton, NY                December 2004            CRA Decision No. 124
         Wachovia Bank, NA, Charlotte, NC              January 2005             CRA Decision No. 125
         First American Bank, SSB, Bryant, TX          March 2005               Conditional Approval No. 676
         PNC Bank, NA, Pittsburgh, PA                  May 2005                 Conditional Approval No. 687
         Pacific Capital Bank, NA, Santa Barbara, CA   August 2005              Corporate Decision No. 2005-11




38                                                                                      OCC ANNUAL REPORT
Partnership and Outreach                            pursuant to federal banking agency regulations.

The OCC works with other regulators, industry,      The OCC is a member of the administration’s
and community and consumer organizations to         Financial and Banking Infrastructure
accomplish its mission and meet its strategic       Information Committee (FBIIC) and is working
goals and objectives in an effective and            with other federal regulators to combat
efficient manner.                                   money laundering and terrorist financing. As
                                                    noted elsewhere in this report, the OCC is
                                                    collaborating with the other FFIEC-member
Financial Regulators                                agencies and FinCEN to coordinate BSA/AML
                                                    activities and provide guidance to the industry
Primarily through the FFIEC, the OCC
                                                    in this critical area. In June 2005 the FFIEC
works closely with the other federal banking
                                                    agencies published a BSA/AML Examination
agencies (FRB, FDIC, OTS) and the NCUA
                                                    Manual that provides bankers and bank
to coordinate on issues that cut across the
                                                    examiners with comprehensive guidance and
banking system, such as supervisory policies,
                                                    resources on the BSA requirements and the
regulations, regulatory reporting requirements,
                                                    agencies’ supervisory expectations. Following
and examiner training. These efforts reduce
                                                    its publication, the agencies hosted training and
regulatory burden by promoting greater
                                                    outreach sessions for examiners and bankers
uniformity, consistency, and efficiency in the
                                                    to discuss the new manual. The OCC also
supervision of insured depository institutions.
                                                    worked with the other FFIEC-member agencies
The OCC also works with other state, federal,       and FinCEN to provide additional guidance
and international regulators and supervisors,       on providing banking services to money
such as the SEC on securities, brokerage, and       services businesses and to respond to questions
accounting and disclosure issues, and the FTC       regarding customer identification requirements
on consumer protection and privacy issues.          for consumers affected by Hurricane Katrina.
The OCC has entered into information-sharing
                                                    The OCC continued its participation with the
agreements with 48 state insurance departments
                                                    Basel Committee on Banking Supervision to
and the District of Columbia, and meets
                                                    update and revise the Basel Capital Accord to
with the National Association of Insurance
                                                    make the capital standards for internationally
Commissioners (NAIC) at the NAIC’s national
                                                    active banks more comprehensive, risk
quarterly meetings. The OCC also assisted the
                                                    sensitive, and reflective of advances in banks’
NAIC in drafting a model bulletin that will
                                                    risk measurement and management practices
inform insurers that supervisory information,
                                                    (Basel II). These efforts included the Basel
such as a financial institution’s supervisory
                                                    Committee’s publication of a proposal for
rating, is confidential information and may not
                                                    the application of Basel II to certain trading
be disclosed to, or used by, a third party unless
                                                    activities and the treatment of double default




OCTOBER 2005                                                                                      39
risk when the risk of both a borrower and a        In October 2004, the FFIEC-member
guarantor defaulting on the same obligation        agencies published a new consumer
may be substantially lower than the risk of only   resource, Protecting Yourself from
one of the parties defaulting.                     Overdraft and Bounced-Check Fees. In
                                                   February 2005, the agencies published
The OCC worked closely with other regulators       Overdraft Protection Programs guidance to
during FY 2005 on projects to enhance              assist insured depository institutions in the
consumer protection, address emerging risks        responsible disclosure and administration of
facing the industry, reduce regulatory burden,     overdraft protection services. The guidance
and enhance regulatory efficiency. These           describes federal consumer compliance
efforts included:                                  laws that may apply to such programs, and
                                                   industry best practices for the marketing
•    Initiatives to Enhance Consumer               and communications of these programs.
     Protections and Disclosures. During           Such practices include clearly disclosing
     FY 2005, the OCC worked with other            fees, explaining the impact of transaction-
     regulatory agencies to strengthen             clearing policies on the overdraft fees
     regulations, policies, and disclosures that   consumers may incur, disclosing the types
     assist consumers in making financial          of consumer banking transactions covered
     decisions and in safeguarding their           by the program, and monitoring program
     confidential financial and personal           usage. The agencies also advised financial
     information.                                  institutions to alert consumers before a
                                                   transaction triggers any fees; to provide
     The OCC, FDIC, FRB, NCUA, FTC, and            consumers the opportunity either to opt-in
     the SEC continued efforts to simplify         or opt-out of the program; and to notify
     consumer privacy notices to make them         consumers promptly each time overdraft
     more understandable and useful for            protection is used.
     consumers and less burdensome for
     banks to provide. The OCC and the             Identity theft is a growing problem and
     other agencies have engaged experts in        concern for many Americans. As discussed
     plain language disclosures and consumer       in the Regulate Program section of this
     testing to assist in conducting focus         report, in December 2004 the OCC, FRB,
     groups and consumer interviews to find        FDIC, and OTS issued interagency final
     out what information consumers find           rules to require financial institutions to
     most meaningful, and the most effective       adopt measures for properly disposing of
     way to disclose that information. The         consumer information derived from credit
     agencies expect this consumer testing to be   reports. In March 2005, the agencies issued
     completed by the end of CY 2005; it may       guidance on programs that banks should
     form the basis for a proposal to revise the   have in place to respond to unauthorized
     current privacy notice rules.                 access to sensitive customer information.
                                                   In early October 2005, the agencies




40                                                                      OCC ANNUAL REPORT
    issued updated guidance for the industry          Intermediate Small Banks and, at the same
    on effective methods that they can use to         time, encourage meaningful community
    authenticate the identity of customers who        development lending, investment, and
    use Internet-based banking services to help       services by these banks.
    deter account fraud and identity theft.
                                                      In September 2005, the OCC, FDIC, and
•   Initiatives to Reduce Unnecessary                 FRB implemented the agencies’ Web-based
    Regulatory Burden and Enhance Efficiency.         Central Data Repository (CDR), which was
    The OCC continues to work with the                created to modernize and streamline how
    other FFIEC-member agencies on a multi-           the agencies collect, validate, manage, and
    year project to review their regulations          distribute financial data submitted by banks
                                                      in quarterly call reports. Through the use
    to identify outdated, unnecessary, or
                                                      of new open data exchange standards the
    burdensome regulatory requirements for
                                                      CDR system will facilitate faster delivery
    insured depository institutions. During           of accurate call report data for supervisors,
    FY 2005, the agencies requested public            bankers, and the public. Banks will use the
    comment about possible burden reduction           system beginning with the submission of
    in six categories: money laundering;              their September 30th call report data.
    safety and soundness; securities banking
                                                      The OCC along with other federal banking
    operations; directors, officers and
                                                      agencies testified before Congress on
    employees; and rules of procedures. The           the challenge of reducing unnecessary
    agencies also continued their outreach            regulatory burden and on suggestions for
    meetings with bankers and community               reforms to reduce such burdens.
    groups with outreach meetings for bankers
    held in March 2005 in Phoenix, June           •   Basel II Implementation and Revisions
    2005 in New Orleans, and August 2005 in           to Risk-Based Capital Standards. In June
    Los Angeles. Two outreach meetings for            2004, the Basel Committee issued its
    consumer groups took place in Washington,         “International Convergence of Capital
    D.C., and Kansas in August and September          Measurement and Capital Standards: A
    2005.                                             Revised Framework” (Framework). This
                                                      Framework forms the basis for the U.S.
    As discussed in the Regulate Program              banking agencies and representatives
    section, in July 2005 the OCC, the FRB,           of the other Basel Committee member
    and the FDIC issued a final amendment to
                                                      countries to develop proposed revisions
    their CRA regulations to reduce regulatory
                                                      to existing capital adequacy regulations
    burden on community banks while
    making CRA evaluations more effective             and standards. Throughout FY 2005,
    in encouraging banks to meet community            the OCC worked closely with the other
    development needs. The new rules reduce           federal banking agencies (FDIC, FRB, and
    data collection and reporting burden for          OTS) on implementation issues associated




OCTOBER 2005                                                                                     41
     with the proposed Basel II Framework.               risk-based capital rules for banks that
     This work included a fourth quantitative            would not be subject to Basel II.
     impact study (QIS), designed to provide         •   Joint Examination Programs. During
     the agencies with a better understanding            2005, the banking agencies continued their
     of how the implementation of the Basel II           joint supervisory programs, including the
     Framework might affect minimum required             Shared National Credit (SNC) Program,
     risk-based capital within the U.S. banking          the Interagency Country Exposure
     industry overall, at consolidated U.S.              Review Committee, and the interagency
     institutions, and for specific portfolios. In       examination program for multi-regional
     April 2005, the agencies announced they             data processing servicers (MDPS).
     would undertake additional analysis of
     the QIS results before proceeding with a            The interagency SNC program, governed
     planned notice of proposed rulemaking               by an interagency agreement between the
                                                         FRB, FDIC, OTS, and OCC, provides
     and on September 30, 2005, announced
                                                         uniformity and efficiency in analyzing
     their revised plan for implementation of
                                                         and rating large, complex credits. A
     the Basel II framework. Concurrent with             SNC is defined as any loan or formal
     this effort, the agencies continued work            loan commitment extended to a borrower
     on supervisory guidance that outlines               by a supervised institution or any of its
     the key components of the measurement               subsidiaries and affiliates that aggregates
     and management structures that banks                $20 million or more and is shared by
     subject to the revised Framework will               three or more institutions under a formal
     need to meet; benchmarking exercises to             lending agreement. The program benefits
     assess banks’ progress in developing and            the regulatory agencies and the banks by:
     implementing operational risk measurement           1) eliminating the redundancy of reviewing
     techniques consistent with the Framework’s          the same credit in multiple institutions;
     requirements; and examiner training                 2) ensuring that credits are reviewed in a
                                                         uniform and consistent manner;
     initiatives. The agency also developed
                                                         3) maximizing resources; and 4) limiting
     and provided training to more than 160
                                                         disruptions to banks’ operations. The FY
     examiners on the Basel II Corporate                 2005 SNC review covered about 6,817
     and Retail AIRB quantitative guidance.              loan facilities with commitments totaling
     The abbreviation “AIRB” stands for the              $1.6 trillion. The review found that the
     advanced internal ratings-based approach to         quality of large syndicated bank loans
     determining credit risk.                            continued to improve in 2005. Adversely
     The agencies also developed and, in early           rated loans, and loss loans in particular,
     October 2005, issued for comment an                 declined significantly from the peak levels
     advance notice of proposed rulemaking               experienced in 2001 through 2003. This
     outlining potential changes to the agencies’        favorable trend is attributed to general




42                                                                             OCC ANNUAL REPORT
    improvement in the economy and liquidity             paper programs (ABCP) (OCC
    in the secondary market for lower quality            Bulletin 2005-12) and clarification of
    assets.                                              the asset quality test that banks can
    In December 2004, the agencies released              use to determine the eligibility of an
    for public comment a proposal to revise              ABCP liquidity facility for certain
    the scope, depth, and manner in which                risk-based capital treatments (OCC
    data is collected for the SNC program.               Bulletin 2005-26).
    The changes are designed to improve
                                                     −   Accounting and reporting
    the effectiveness of the agencies’ SNC
    program; support other agency supervisory            requirements for transactions
    goals by developing a standardized                   involving commitments to originate
    repository for SNC related documents                 and sell mortgage loans (OCC Bulletin
    that would support exchanging SNC data               2005-10).
    electronically; and use and apply advanced       −   The confidentiality of supervisory
    risk analytics to SNC data to benefit
                                                         ratings (OCC Bulletin 2005-4).
    participating banks and supervisors.
                                                     −   Sound credit risk management
•   Updated Supervisory Guidance. The
                                                         practices for institutions engaged in
    OCC and other federal banking agencies,
                                                         home equity lending (OCC Bulletin
    issued supervisory guidance throughout
                                                         2005-22).
    the year to bankers on risks posed by bank
    activities, and methods banks can use to         Training materials and examination
    manage those risks.                              procedures were issued for the
                                                     implementation of the Check Clearing for
    In addition to items previously cited,           the 21st Century Act (OCC Bulletin 2004-
    supervisory guidance to bankers was issued       49); and interim examination procedures
    on:                                              were issued for revised CRA rules for
    −   The risks and controls associated            Intermediate Small Banks (OCC Bulletin
        with the use of free and open source         2005-22).
        software (OCC Bulletin 2004-47).             Frequently asked questions and answers
                                                     were issued on:
    −   The purchase and risk management of
        bank-owned life insurance products           −   Independent appraisal and evaluation
        (OCC Bulletin 2004-56).                          functions for real estate lending
                                                         transactions (OCC Bulletin 2005-6)
    −   The risk-based capital treatment for
                                                         and appraisal and real estate lending
        certain types of direct credit substitutes
                                                         requirements for residential tract
        extended to asset-backed commercial
                                                         developments (OCC Bulletin 2005-
                                                         32).




OCTOBER 2005                                                                                     43
     −   The USA PATRIOT Act’s                     officials was the “Meet the Comptroller”
         requirements for customer                 roundtables.
         identification programs (OCC Bulletin
                                                   The OCC participated in or conducted a
         2005-16).
                                                   variety of outreach activities during FY 2005.
     −   The new Home Mortgage Disclosure          In addition to the interagency seminars and
         Act (HMDA) data (OCC Bulletin             regional outreach meetings on the new FFIEC
         2005-17).                                 BSA/AML Examination Manual, the OCC
     The agencies also sought comment on:          continued its series of Web- and telephone-
                                                   based seminars for bankers on selected
     −   Proposed changes to the agencies’         topics. These convenient and cost-effective
         classification system for commercial      seminars allow bankers to listen to agency
         credit exposures (OCC Bulletin 2005-      experts discuss their experiences and policy
         8).                                       imperatives, and interact with them during
     −   Proposed supervisory guidance on          question-and-answer sessions. The topics of the
         internal ratings-based systems for        three FY 2005 seminars were, “Bank Secrecy
         retail credit risk for regulatory risk-   Act/Anti-Money Laundering,” “The Home
         based capital under Basel II (OCC         Mortgage Disclosure Act,” and “Corporate
         Bulletin 2004-48).                        Governance and the Community Bank.”
                                                   Approximately 9,000 listeners participated in
     −   Proposed advisory on the unsafe and       these seminars from 1,630 sites.
         unsound use of limitation of liability
         provisions and certain alternative        The OCC met with community and consumer
         dispute resolution provisions in          organizations on policy matters relating to
         external audit engagement letters         credit card fees and disclosures, home equity
         (OCC Bulletin 2005-21).                   lending, electronic check cashing processes,
                                                   financial literacy, predatory appraisals, and
                                                   other consumer issues. These meetings
Industry and Community Outreach                    provided the OCC with information about the
                                                   challenges and opportunities for increased
The OCC maintains open communications with
                                                   access to financial services for consumers in
key constituents affected by, and interested in,
                                                   disadvantaged communities.
the OCC’s mission. The Comptroller and senior
managers seek comments on issues facing the        The OCC also continued and expanded its
banking industry through outreach meetings         workshops for community bank directors. The
with industry and trade associations. One          OCC’s workshop on “Understanding OCC’s
creative response to the need for continuing       Risk Assessment Process” enhanced directors’
dialogue between bankers and senior OCC            understanding of risk-based supervision;
                                                   increased familiarity with major risks in




44                                                                         OCC ANNUAL REPORT
commercial banking; highlighted the types
of questions to ask managers, auditors, and
examiners; and reviewed common ways to
identify, measure, monitor, and control risk.
The workshop, “Credit Risk: A Director’s
Focus,” increased directors’ knowledge of
effective credit risk management processes,
taught them to assess and control their banks’
risk profiles and improved their abilities
to evaluate the quality of their banks’
management information systems. The OCC
added a new workshop in 2005, “Compliance
Risk: What Directors Need to Know.” This
workshop focused on increasing a director’s
knowledge of major compliance risks, critical
regulations, and the elements of an effective
compliance risk management program. In all,
approximately 500 directors attended these
three workshops.




OCTOBER 2005                                     45
     To ensure a safe and sound national banking system for
     all Americans, OCC must have an expert, highly motivated
     and diverse workforce that makes effective use of its
     resources. During FY 2005, OCC pursued management
     initiatives to achieve those goals.




46                                            OCC ANNUAL REPORT
Management



To ensure a safe and sound national banking        and more complex national banking system.
system for all Americans, OCC must have an         The measure will weigh OCC’s costs against
expert, highly motivated, and diverse workforce    national bank assets regulated. Bank assets
that makes effective use of its resources.         represent the growth and complexity of the
During FY 2005, OCC pursued management             national banking system. The OCC’s ability to
initiatives to achieve those goals.                control its costs while ensuring the safety and
                                                   soundness of the banking system benefits all
                                                   national bank customers.
President’s
                                                   The OCC evaluated the planning and
Management Agenda                                  budgeting process of four other entities (two
OCC management devoted much of FY 2005             federal agencies, one state agency, and one
to creating initiatives to “get to green” on the   private company) to identify best practices,
scorecard for the President’s Management           and implemented changes that reduced by
Agenda (PMA), where “green” signals success.       two months the cycle time of OCC’s budget
The PMA is the President’s strategy to improve     process. The Executive Committee’s Budget
the management of the federal government.          and Finance Subcommittee played a more
                                                   prominent role in the FY 2006 budget process
                                                   by being involved at all stages of the cycle.
Budget and                                         Business units continued to use staffing models
Performance Integration                            to support their FTE needs, as documented in
The OCC improved its planning, budgeting,          program plans that identified the activities to
and evaluation process for the FY 2006             be accomplished with the related objectives
budget cycle. The OCC’s budget is driven by        and performance measures. These models were
its strategic plan. The Executive Committee        assessed to enhance budgeting and resource
identified the strategic risks that OCC faces in   use.
pursuing its strategic goals and objectives and
the steps in place, in development, or needed
to mitigate those risks. While developing the
                                                   Competitive Sourcing
FY 2006 budget, executives considered those        This past year, the OCC’s competitive sourcing
strategic risks and ensured that plans were in     efforts focused on assisting the Department
place and resources were adequate to address       of the Treasury in reforming the FAIR Act
them.                                              Inventory (FAI) to ensure compatibility and
                                                   consistency across all bureaus. The inventory
In FY 2006, the OCC will implement a
                                                   lists jobs that can be performed by contractors
performance measure that reflects the
                                                   or government employees. This collaborative
efficiency of its operations while meeting the
                                                   effort by all Treasury bureaus resulted in a
increasing supervisory demands of a growing




OCTOBER 2005                                                                                     47
complete and accurate FAI consistent across       of completed, deferred, or cancelled projects,
the bureaus. The OCC also participated in         approximately $3 million was made available
Treasury’s shared services program that           to fund other OCC needs.
leverages Treasury-wide expertise in the area
                                                  Participation in e-Government Initiatives —
of competitive sourcing without increasing
                                                  The OCC participates in government-wide
resources.
                                                  technology initiatives including Integrated
                                                  Acquisition, e-Authentication, e-Training, Enter
                                                  on Duty, and Online Rulemaking.
Expanded e-Government
                                                  e-Training — The OCC’s Automated Learning
Capital Planning and Investment Control —
                                                  Information Center (ALICE) is aligned with the
The OCC made major improvements to its
                                                  federal GoLearn initiative. It is an operational-
Capital Planning and Investment Control
                                                  level data mart that enables OCC management
(CPIC) process to ensure that projects are
                                                  to report on and analyze OCC’s usage of the
aligned to the mission, goals, and objectives
                                                  GoLearn environment more effectively. As
of the agency. The re-engineered process
                                                  an internal management and reporting tool,
has placed the OCC in a position to plan
                                                  ALICE complements the functionality offered
information technology (IT) initiatives
                                                  by the PMA GoLearn initiative. The ALICE
strategically and effectively monitor return on
                                                  system uses courseware through the Office
investments and other benefits derived from
                                                  of Personnel Management (OPM) and the
IT investments. The OCC’s capital planning
                                                  GoLearn initiative. This courseware will help
process aligns with the Department of the
                                                  to identify skill gaps and ensure that the OCC
Treasury’s CPIC process and requirements. The
                                                  workforce has the appropriate skills to meet the
OCC is recognized as a best-practice leader in
                                                  agency mission.
capital planning across the department.
                                                  Federal Document Management System —
OCC has implemented a year-round project
                                                  The OCC is an active partner in the e-Gov
selection process in which the Investment
                                                  Federal Document Management System.
Review Board (IRB) reviews new projects
                                                  The interagency initiative will allow
during quarterly control review meetings. This
                                                  OCC customers to review and comment
process allows customers to plan their projects
                                                  electronically on OCC regulations and
carefully without rushing to meet an annual
                                                  rulemaking actions. This initiative will
selection process. Through the new quarterly
                                                  assist the OCC and other federal agencies in
control process, the OCC also monitors the
                                                  providing more timely service and more access
success of IT projects. The process focuses
                                                  to federal regulations.
project and program managers and OCC
senior management on project risks, costs, and    Enter on Duty e-Gov Initiative — The OCC
schedule variances. As a result of the reviews    accepted the lead role on the e-Gov initiative




48                                                                         OCC ANNUAL REPORT
to automate human resource-related forms            an increasing number of retirements, with
(security, ethics, benefits, etc.) that employees   an emphasis on succession planning and
complete when hired. This initiative will           reallocating Large Bank Supervision examiner
convert current government-wide and agency-         resources to areas of critical needs, such as
unique human resources forms to electronic          New York City. The OCC had achievements in
Web-based forms that can take up to 75 percent      each of these areas.
less time to complete and will eliminate
                                                    The OCC is in the third year of an expanded
duplicate entries. This initiative complements
                                                    recruitment program for entry-level bank
current OCC efforts to improve its hiring
                                                    examiners. This highly successful program
process.
                                                    has attracted diverse pools of applicants with
                                                    superior qualifications. More than half of the
                                                    entry-level examiners hired were female and
Improving Financial Performance
                                                    more than 40 percent were minorities.
In FY 2005, the OCC met all of its objectives
                                                    The OCC continually reviews its hiring policies
for improving financial performance. The OCC
                                                    and practices and conducts long term, in-depth
successfully issued its FY 2004 Annual Report
                                                    hire and separation analyses to address barriers
before November 15 for the fourth consecutive
                                                    that may affect women, minorities, and persons
year. The agency received an unqualified
                                                    with disabilities, who seek employment with
opinion with no material weaknesses on the
                                                    the agency. In addition, new examiner hires
FY 2004 and FY 2005 financial statements.
                                                    are surveyed after their first six months with
No material weaknesses have been identified
                                                    the OCC and annually for their first five years
since FY 1999. The OCC consistently
                                                    with the OCC to identify potential retention
closed its accounting records for month-end
                                                    problems early and opportunities for improving
financial reporting on a timely and accurate
                                                    recruitment and on-boarding processes.
basis. Financial reports are provided to the
Executive Committee’s Budget and Finance            The OCC recognizes that it could lose valuable
Subcommittee monthly and to the Executive           skills and experience in the next three-to-five
Committee quarterly for timely operational          years because of retirements; therefore the
decisions. Performance reporting is an integral     OCC has integrated succession planning into its
part of these quarterly reports.                    recruitment and career development initiatives.
                                                    The OCC plans to implement a succession
                                                    management development program in the
Human Capital                                       bank supervision departments. Through this
In FY 2005, Human Capital efforts focused           program, OCC seeks to provide a systemic way
on recruiting and retraining a highly expert        of identifying candidates for key positions to
and diverse workforce in anticipation of            ensure a continuity of leadership and maintain a
                                                    diverse pool of talent.




OCTOBER 2005                                                                                         49
With the addition of JPMorgan Chase and                employees are expected to develop their skills
Hong Kong Shanghai Bank Corporation                    and knowledge continuously.
to the national banking system, more than
80 examiner positions were added to the
New York City metropolitan area. The
                                                       Other Initiatives
OCC launched a major recruitment effort to             OCC pursued other management initiatives
encourage examiners with expertise in safety           to ensure a diverse and highly motivated
and soundness as well as specialty areas such          workforce that operates efficiently. In FY 2005,
as, capital markets, credit, bank information          those initiatives included:
technology, compliance and asset management,
to relocate to New York City. The OCC offered
a range of relocation incentives and Large             Implemented the Collective
Bank managers conducted town hall meetings             Bargaining Agreement between
in offices throughout the OCC to make the              OCC and NTEU
workforce aware of the New York City
                                                       The Collective Bargaining Agreement between
opportunities and the many benefits associated
                                                       the OCC and the NTEU (National Treasury
with these opportunities. This recruitment effort
                                                       Employees’ Union) went into effect on March
was highly successful in enabling the OCC to
                                                       22, 2005. The agreement covers employee
meet its current staffing needs. Approximately
                                                       working conditions, such as processes
70 percent of OCC employees attending the
                                                       for filling jobs and offering assignment
town hall meetings ultimately applied for
                                                       opportunities, provisions for administering
Large Bank positions in New York City, which
                                                       leave, work scheduling and work location,
traditionally have been difficult positions to fill.
                                                       and provisions for remediation. The OCC’s
The Office of Personnel Management’s 2004              compensation and benefits are not subject
Federal Human Capital Survey ranked the                to negotiation, and therefore, not covered by
OCC higher than the federal government                 the agreement. All OCC managers received
average in all areas: personal work experience;        comprehensive training on their roles and
learning; recruitment, development, and                responsibilities in implementing the agreement.
retention; benefits satisfaction; leadership;          The OCC and NTEU delivered joint training
job satisfaction; and performance culture.             to all employees. In addition, the OCC is
Thirty-one percent of OCC survey items                 establishing a program to assist managers in
received 80 percent or more positive responses         implementing and ensuring compliance with
compared with 12 percent government-                   the agreement.
wide. The survey scores reflect the OCC’s
commitment to cultivating an employee-
focused and performance-based culture where




50                                                                              OCC ANNUAL REPORT
Enhanced Education Programs,                        Deployed Lean Six Sigma
Skill Maintenance, and Delivery                     Lean Six Sigma (LSS) is a fact-based approach
During the year, OCC refined the examiner           for improving OCC’s business processes,
pre-commission training program. A                  eliminating waste, improving compliance
comprehensive framework of classes and on-          with statutory and regulatory requirements,
the-job experience is in place to ensure that       and delivering best value to customers. The
new examiners are trained systemically to           principles of LSS are to assess value from
reach full competency as soon as possible.          the customer’s perspective; involve and align
The OCC also ensured that instruction and the       employees; collaborate across boundaries; and
training-team experiences are consistent with       continuously improve knowledge in pursuit of
the strategic training approach and training best   perfection. LSS addresses management-related
practices.                                          programs.

The OCC made significant progress in                A total of 21 process improvement studies
conceptualizing the OCC future leadership           were initiated in FY 2005. Completed projects
development program and management                  have resulted in cost savings of $700,000,
succession efforts. The Executive Committee’s       enabled the redirection of staff resources to
Human Capital Subcommittee agreed to the            higher priority needs, minimized the impact of
proposed programmatic framework based               complying with newly mandated or existing
on input from an internal task group, with          requirements, and matched internal customer
assistance from OPM. Aspects of the leadership      expectations with service delivery.
development program are being implemented
to meet the needs of our current managers and
leaders, including an executive coaching pilot      Promoted Workplace Fairness
for mid-level managers and senior managers.         and Alternative Resolutions
Significant changes in procedures for               The OCC excels in promoting a professional,
administering the Examiner Specialized              supportive environment for employees that
Skills Program provided timely and accurate         attracts, develops, and retains a world-class
resource and budget tracking. The program           team of professionals. In FY 2005, the OCC
addresses examiner competency gaps in several       raised awareness and understanding of
specialty areas. The program inventories and        equal employment opportunity (EEO) and
develops examiner skills in asset management,       alternative dispute resolution by conducting
compliance (BSA/AML), capital markets, retail       special programs and developing training for
credit, and bank information technology.            managers and employees. The OCC provides
                                                    additional training to employees serving as
                                                    mediators and EEO counselors to comply with




OCTOBER 2005                                                                                     51
the requirements of the Equal Employment                adequacy of district quality assurance
Opportunity Commission and Department                   processes.
of the Treasury. In FY 2005, the number of
                                                    •   An administrative systems cost/benefit
complaints at the OCC fell to 0.2 percent
                                                        analysis.
per employee, significantly less than the
government-wide average of 0.7 percent.             •   An acquisition management benchmarking
                                                        study.
Employees and managers also benefited from
OCC’s continued commitment to its Fair              •   A review of process improvements related
Alternatives and Innovative Resolutions (FAIR)          to a merit pay software application.
process to address workplace disputes that were     •   An audit of timekeeping procedures.
not related to equal employment opportunity.
The OCC also made significant strides in
increasing the efficiency and effectiveness         Opened the District Human
of its discrimination investigation processes.      Resource Soloutions Service Center
Treasury authorized an OCC pilot program to         The OCC consolidated the human resource
test a re-engineered process that was developed     (HR) services of four district offices into one
using Lean Six Sigma. The pilot is intended         service center. The District HR Solutions
to produce quality products and services,           Service Center in Denver opened for business
reduce processing costs, and ensure the agency      in April 2005. The center is staffed by a team
not only meets, but exceeds, statutory and          of HR professionals with experience in all areas
regulatory standards.                               of human resources, including recruitment,
                                                    merit promotion, benefits, retirement, and
                                                    payroll. Each district continues to have services
Enhanced OCC’s Effectiveness                        in employee and labor relations, performance
through Audits and                                  management, and entry-level bank examiner
Program Analyses                                    recruitment provided by its local human
Audit and program analysis initiatives during       resources consultant. This new delivery model
the year continued to enhance the effectiveness     positions OCC’s HR function to better meet the
of the OCC workforce and strengthen its             needs of its client base.
organizational performance and corporate            The OCC is benefiting immediately from its
governance. This year’s initiatives included:       enhanced capability to monitor and adjust
•    An assessment of BSA/AML supervision.          resources according to peak workload times,
                                                    more effective processes for providing training
•    A lessons-learned review of a failed bank.     and hiring new Human Resources staff, and
•    A field office onsite validation to test the   greater consistency in the delivery of services.




52                                                                           OCC ANNUAL REPORT
Ultimately, OCC anticipates realizing overall        Web services and began instituting governance
cost reductions in the delivery of its services      processes to strengthen the management and
and improved customer satisfaction.                  effectiveness of its Web programs. In June
                                                     2005, OCC implemented a new look for its
                                                     public Web site (www.occ.gov) to improve
Ensured the Effective Use of                         service to its 100,000 monthly visitors and
Real Estate and Capital Assets                       reinforce OCC’s identity as the premier bank
                                                     regulatory agency. Additionally, 95 percent
In FY 2005, the OCC successfully exercised
                                                     of all national banks are registered customers
a renewal option on its headquarters facility
                                                     of the OCC’s extranet site, National BankNet.
while negotiating modifications to the
                                                     In FY 2005, BankNet expanded its service
original lease to bring it into compliance with
                                                     by adding new tools to assist bankers with
current federal leasing regulations. During
                                                     their business needs. New reporting forms
FY 2005, the OCC leased, planned, designed
                                                     improved the convenience and efficiency of
and completed construction of the relocated
                                                     communications with the OCC, and three
Northeastern District Office and a District
                                                     existing applications were upgraded in response
Service Center in Denver, as well as the
                                                     to user suggestions. Those changes resulted
expansion of the Western District Office. The
                                                     in an increase in usage of approximately 25
OCC also relocated three field offices, a large
                                                     percent by customers, compared with FY 2004.
bank office, and a satellite office, and initiated
the process of relocating its Central District       Information Security — OCC improved
Office and four field offices before FY 2008.        compliance with the Federal Information
The OCC’s capital real estate projects met           Security Management Act (FISMA); expanded
targets for funding, schedule, and performance.      the OCC secure messaging system that
To further control costs and increase                allows OCC employees to exchange sensitive
productivity, a review of the field office           information securely with national banks
relocation process yielded a leaner process and      and other regulators; deployed additional
more useful customer educational tools.              intrusion detection sensors to identify possible
                                                     compromises of network defenses; scanned
                                                     all OCC Internet e-mail and Web browsing
Pursued Information                                  traffic for viruses and inappropriate content;
Technology Initiatives                               tested the OCC’s Internet security periodically
                                                     using independent penetration tests; scanned
Web-based Services — OCC continued to
                                                     the entire OCC network periodically to identify
enhance its Web-based products and services
                                                     security vulnerabilities; maintained an incident
to better support OCC employees, bankers,
                                                     response capability to respond to viruses,
and other customers. The OCC developed
                                                     worms, and data-compromising incidents; and
requirements for comprehensively enhancing its




OCTOBER 2005                                                                                       53
avoided attacks by worms and viruses that          examinations are being conducted, and what
crippled other public and private organizations.   resources are being used to accomplish OCC’s
                                                   mission. The system also interfaces with the
At the end of FY 2005, the OCC had certified
                                                   OCC’s Financial Management and Human
and accredited 100 percent of its information
                                                   Resource systems. This information technology
systems as required by FISMA.
                                                   initiative has facilitated final resolution of two
Systems Development Life Cycle — The               prior-year audit findings and provides a solid
OCC completed and implemented its systems          foundation for important improvements to
development life cycle (SDLC) process in April     internal controls.
2005 following an independent assessment.
                                                   Licensing Information System — Testing and
The SDLC is now used for all new system
                                                   delivery of the LIS are scheduled for the last
development projects. It provides a series
                                                   quarter of FY 2006. LIS, the replacement for
of best practice standards that application
                                                   the mainframe-based Corporate Activities
developers use to mitigate risks associated
                                                   Information System (CAIS), is the OCC’s
with each phase of the cycle. The method also
                                                   primary means for tracking and approving
standardizes project documentation to ensure
                                                   corporate applications from existing or
that agency software systems can be updated
                                                   prospective national banks.
and modified as needed.
                                                   Personal Backup Devices for All Personnel
Mainframe Retirement — The OCC plans to
                                                   — The OCC distributed external hard drives
retire its mainframe computer by September
                                                   to all employees to provide a convenient, cost-
2007. The project team is working with
                                                   effective method to back up their computer
business units and other federal financial
                                                   hard drives. Each drive included usage
agencies to coordinate the retirement of
                                                   instructions and a program to automate the
mainframe applications and ensure efficient
                                                   process for backing up information.
transfers of interagency data. To date, 23 of 63
mainframe applications have been retired.          Security Patches — The OCC has successfully
                                                   implemented a System Management Server
e-TIME — In June 2005, the OCC
                                                   (SMS) to manage the automatic deployment of
implemented e-TIME, a Web-based time and
                                                   security patches to agency personal computers
attendance system. All OCC employees are
                                                   nationwide. The first enterprise-wide delivery
now able to submit their time and attendance
                                                   of security patches was performed in July
data online each pay period, and supervisors
                                                   2005, following extensive testing of the new
certify the data electronically before it is
                                                   environment. The automatic process is less
submitted to the OCC’s payroll services
                                                   intrusive, quicker, and more cost effective than
provider. The data gathered in e-TIME
                                                   the quarterly production of CD-ROMs formerly
relates not only to the time and attendance of
                                                   mailed to employees.
employees, but also helps OCC track where




54                                                                           OCC ANNUAL REPORT
Tested and Updated Its                            The OCC equipped its headquarters Emergency
Continuity of Operations Plan                     Operations Center (EOC) with secure
                                                  communications, upgraded laptop computers,
The OCC Continuity of Operations Plan             and independent heating and air conditioning
(COOP) formalizes and integrates IT recovery      units during FY 2005. The EOC allows the
plans, relocation scenarios, alternative          OCC Executive Committee to continue to
site logistics, emergency communication           perform critical functions during shelter-in-
procedures, lines of succession, delegations      place emergencies. The OCC enhanced the
of authority, and testing requirements into       COOP site shared with other federal agencies
a comprehensive emergency management              to ensure operational readiness at all times.
plan. The OCC tested elements of its COOP,        The site meets all federal regulations from the
including completing a comprehensive              Department of Homeland Security and FEMA
nationwide relocation/tabletop exercise;          for designated alternate operating facilities.
participating in the Treasury’s Forward
Challenge 05 and other interagency exercises;     The OCC continued to work with the FBIIC
testing the IT recovery plan, completing          to provide secure communications systems
internal and interagency communications           throughout the financial services sector’s
drills; and practicing evacuation drills and      regulatory community, to coordinate emergency
shelter-in-place drills at OCC sites. The OCC     response efforts across agencies, and to
updated its COOP based on lessons learned         identify threats within the financial services
from those tests and exercises and incorporated   industry. The OCC has established protocols
requirements of the revised Federal               for emergency communications and purchased
Preparedness Circular 65 issued by the Federal    new secure communications equipment for its
Emergency Management Agency (FEMA). Key           COOP sites.
staff members completed training and were         The OCC’s COOP and emergency
certified for the National Incident Management    preparedness plans were put to the test during
System.                                           Hurricane Katrina. The plans enabled the OCC
                                                  to assess the status of employees and banks
Improved Emergency Preparedness                   in the affected areas quickly. An emergency
The OCC revised and enhanced processes            response team was put in place to ensure all
and procedures for communicating with, and        employees required to evacuate had access to
accounting for, employees during and after        suitable housing and resources to help them
emergencies as well as communicating with         through the crisis.
national bank personnel during emergencies.




OCTOBER 2005                                                                                  55
Management Challenges                             Letter from the
and High-Risk Areas                               Chief Financial Officer
In FY 2005, the Department of the Treasury        I am pleased to present the OCC’s financial
Office of Inspector General (OIG), identified     statements as an integral part of the FY 2005
concerns for the department that included         Annual Report and am pleased to say that for
anti-money laundering and Bank Secrecy            FY 2005 the independent auditors rendered
Act compliance. Through the year, the OIG         an unqualified opinion with no material
conducted related audits and evaluations to       weaknesses. Strong financial management and
assess administration of BSA requirements         oversight is a strategic focus of the OCC, and
throughout the department and evaluate            the stewardship and safeguarding of agency
the effectiveness of a memorandum of              resources remain my highest priority.
understanding among the financial regulators,
                                                  Reflecting on FY 2005, I would like to
including the OCC, and FinCEN. The OIG
                                                  discuss some key achievements. The OCC
began an audit of the OCC’s supervision and
                                                  has again received a “green” rating under the
enforcement of anti-money laundering activities
                                                  President’s Management Agenda (PMA) from
at national banks in late FY 2005. The OIG’s
                                                  the Department of the Treasury for improving
findings and conclusions will supplement the
                                                  financial performance and has met all core
OCC’s internal assessment and action plans for
                                                  criteria for each component of the measure.
improving BSA/AML supervision.
                                                  The OCC is committed to achieving all of the
                                                  financial-related elements contained in the
                                                  PMA and recognizes the value the PMA brings
                                                  to financial management.
                                                  The OCC is fully engaged in implementing
                                                  the stringent new requirements for federal
                                                  agencies to assess internal controls over
                                                  financial reporting. The agency is working
                                                  to document and test internal controls and
                                                  is developing a communication strategy that
                                                  will ensure that the OCC has a strong internal
                                                  control environment throughout the agency.
                                                  We are committed to implementing the new
                                                  requirements and continuing our ability to
                                                  provide reasonable assurance that internal
                                                  controls are operating effectively across all
                                                  areas of the agency.




56                                                                         OCC ANNUAL REPORT
The Budget and Finance Subcommittee, which         training in Lean Six Sigma, and they have
I chair, continues to play an overarching role     applied the methodology in a wide range of
in managing the financial performance of the       processes, including the monthly financial
agency. During FY 2005, the subcommittee           statement process. Thus far, the OM has
oversaw the budgeting process and made             completed 11 projects and has 10 on-going
key recommendations in establishing the            projects. We are already reaping the benefits of
direction of the approved FY 2006 budget. The      streamlined processes with reduced duplication
subcommittee focused on ensuring that the          and re-work.
budget was not only prudent but that it directly
                                                   Looking forward, the challenges of the coming
links with the agency strategic goals and
                                                   year are reflective of the changing landscape
objectives. The subcommittee also serves an
                                                   in federal financial management. It is clear that
important role as an investment review board
                                                   the emphasis on internal controls will continue
for non-Information Technology investments,
                                                   to increase, and that federal requirements
such as leasing arrangements. This year the
                                                   will continue to evolve as efforts are made to
subcommittee reviewed all agency plans for
                                                   strengthen the financial performance of the
fixed asset replacement including office space.
                                                   government as a whole. In closing, I would like
Further, the subcommittee oversaw a review
                                                   to say that the OCC approach to meeting these
of the agency budget formulation process,
                                                   challenges will be to ensure that the agency has
which involved benchmarking the budget
                                                   the finest people and resources dedicated to
formulation process of other public and private
                                                   these efforts and that managing and monitoring
sector firms. As a result, the timeline of the
                                                   the effective and efficient use of agency
OCC budget formulation process decreased by
                                                   resources will continue to be the mandate.
two months, without sacrificing the scrutiny
needed to ensure the development of a fiscally
responsible budget.
Last year, I discussed the Office of
Management’s (OM’s) commitment to best
business practices and to becoming a strategic-    Thomas R. Bloom
based, metrics-driven, customer-focused
organization. This year I would like to update
you on our progress. In FY 2005, the OM
implemented the Balanced Scorecard and
launched a Lean Six Sigma program. These
programs are aligned in their focus on the
“Voice of the Customer” in everything that the
OM does. The entire OM staff has received




OCTOBER 2005                                                                                     57
Financial Discussion                               •   An effective structure to handle varied
                                                       levels of workload.
and Analysis
                                                   •   A focus on developing staff competencies
                                                       for the evolving organization.
Strategic Focus                                    •   The effective management of projects and
Financial management in today’s environment            programs.
presents challenges as the OCC responds to the
increasing need for strong financial reporting,    FM Strategy
responsible and effective internal controls,       The FM operating strategy for FY 2005 is
and accountability for results. In FY 2005, the    shown in Figure 1. The FY 2005 strategy
Office of Management’s Financial Management        focuses on achieving and maintaining data
department (FM) reconfirmed its dedication to      integrity across all financial management
these principles. Managing for results and using   system components. Data integrity assures
widely recognized best practices, such as the      FM’s ability to provide consistently reliable
Balanced Scorecard and Lean Six Sigma, FM          information to OCC decision makers to manage
has made significant progress toward achieving     their programs effectively. Throughout the
key business goals. The Balanced Scorecard         year, FM carried out initiatives to ensure that
is a framework that allows FM to translate         all general ledger accounts were reconciled
strategy into measurable results. Lean Six         monthly at the transaction level, analyzed,
Sigma incorporates the voice of the customer       properly supported by source documents, and
into processes to ensure their efficiency and      adjusted as appropriate. To stabilize the core
effectiveness.                                     accounting system, FM engaged contractors
                                                   to perform data analysis and an internal
                                                   control evaluation. FM implemented all of
Strategic Goals                                    the recommendations and finished the year
The goal for FM is to become an efficient          with higher assurance in the system and data
organization that reflects:                        integrity than has been experienced during the
                                                   past four years. FM began Lean Six Sigma
•    An engaged workforce that is committed        business process reengineering projects for
     to the business strategy of operational       key processes, such as financial statement
     excellence.                                   report preparation and requisitioning through
•    A solid understanding of customer needs       disbursing. The benefits from such projects are
     and expectations.                             just beginning, and staff expertise in using the
                                                   Lean Six Sigma methodology is growing.
•    Efficient processes that take advantage of
     system capabilities.                          The FM strategy includes building a strong
                                                   internal control environment to ensure that




58                                                                          OCC ANNUAL REPORT
internal controls are in place and operating             throughout the agency. The SAT will include
effectively in all processes and activities. FM          an effective OCC communication strategy to
has begun implementing the new internal                  continue strengthening the agency’s internal
control documentation and testing requirements           control environment.
published during FY 2005 in OMB Circular
A-123, Appendix A, “Internal Control over                The FM Balanced Scorecard
Financial Reporting.” FM strengthened                    The FM Balanced Scorecard covers
detection and prevention controls for erroneous          performance measures and initiatives in four
payments during FY 2005 and began                        perspectives: customer, financial management,
documenting all processes and controls related           internal processes, and learning and growth.
to financial reporting. As FM staff review and           The customer perspective ensures that FM
document processes, management and staff are             identifies its customers and understands
improving internal controls in all areas.                their needs and expectations. FM measures
The OCC has also established an OCC                      performance based on how well FM products
SAT to ensure that the new internal control              and services meet customer needs and
requirements for federal agencies are                    expectations. During FY 2005, FM began a
implemented effectively and communicated                 communication strategy to meet regularly with
                                                         customers and incorporate their input as FM

Figure 1: FY 2005 FM Operating Strategy

                                             ���������������
                                        ��




                                                                 ���
                                       ���




                                                                    ���
                                       �
                                    ��




                                                                       ���
                                  ���




                                                                      ��




                                                 ����
                                 ���




                                                                        ���




                                               ���������
                              ���




                                                                             ���




        ����������������������               �����������������               ������������������������




OCTOBER 2005                                                                                            59
products and services are delivered. Using           The internal processes perspective ensures
valuable input received from OCC customers,          that FM focuses on improving the processes
FM has improved the reporting capabilities of        that are most critical to achieving its business
the OCC’s financial management system. As            goals. As reflected in the FY 2005 operating
the OCC’s new time and attendance system,            and strategic business strategies, the processes
e-TIME, was deployed, FM fully incorporated          that lead to financial reports received the most
the voice of the customer. From the customer         attention and effort this year. FM initiated
perspective, the e-TIME deployment was               several Lean Six Sigma projects, incorporating
clearly the most successful FM system                the voice of the customer as an integral part
implementation in the past several years.            of the analysis. FM used Lean Six Sigma to
As part of an OM initiative, in August 2005          enhance the financial reporting production
FM participated in an OCC-wide customer              cycle for disseminating financial information
satisfaction survey that will be administered        to customers. The newly streamlined approach
annually in the future. FM management and            allows FM to produce accurate monthly
staff will use the results of this baseline survey   financial status reports that more fully meet
to plan FY 2006 and later customer-focused           timeliness and reliability standards and the
initiatives.                                         needs of OCC decision makers. FM also
                                                     began a project to streamline the process for
The financial management perspective ensures
                                                     requisitioning goods and services and the
that FM is using the OCC’s financial resources
                                                     payment of invoices. The project thus far has
to support the OCC’s overall strategic financial
                                                     provided useful data to help identify the areas
goals and objectives. It serves as a mechanism
                                                     that deserve the most re-engineering attention.
to help FM use financial resources to produce
                                                     Using this data, FM is now beginning four
the best value for the OCC. In FY 2005,
                                                     highly focused follow-on projects that will also
primarily as a result of increased costs to
                                                     provide value to its customers.
resolve fully lingering system and data integrity
issues, FM did not meet its Balanced Scorecard       The learning and growth perspective ensures
target of maintaining costs at or below 1.6          that FM identifies the critical staff skills
percent of total planned OCC operating costs.        needed to achieve its business goals and that
Actual performance was 1.68 percent. The FM          management works with staff to ensure those
operating strategy of achieving data integrity       skills are fully developed. During FY 2005,
and strong internal controls increased costs         FM participated in OM’s initiative to conduct
once during FY 2005 and ensured that FM              annually the Gallup Q12 employee engagement
used the additional funds to achieve one of its      survey. It also began working on action plans
highest priority business goals to stabilize the     for each unit to improve employee engagement
financial management system.                         over time. The survey results have been
                                                     distributed, and each FM unit began developing




60                                                                            OCC ANNUAL REPORT
action plans to address the survey area             Looking Forward
identified as most important. FM has begun
                                                    FM will continue to focus on achieving
the transfer of critical knowledge from on-
                                                    strategic business goals and to measure
site contractors to its systems staff, and either
                                                    progress by using the Balanced Scorecard
advanced or refresher training was provided
                                                    and Lean Six Sigma. This year the FM
to many FM staff members from the financial
                                                    organization structure was expanded to
system vendor, PeopleSoft. During FY 2005,
                                                    include agency records management and
100 percent of FM employees received training
                                                    procurement, and an upcoming reorganization
in Lean Six Sigma, and many have participated
                                                    of the financial management areas of FM was
in projects this year.
                                                    recently announced. As the reorganization is
                                                    implemented in FY 2006, FM functions and
Additional Accomplishments                          workload will be better aligned to support
                                                    the achievement of business goals. FM
FM’s FY 2005 performance demonstrates that          will continue to implement the new A-123
the new strategy is helping to improve OCC          internal control requirements, and to meet the
financial management now and for the future.        assessment and reporting deadlines for FY
Additional notable FM accomplishments during        2006. The OCC is considering implementing
FY 2005 include:                                    an e-Travel solution in FY 2006 and pursuing
•   Deployed e-TIME, a Web-based, self-             core financial management systems investments
    service time and labor system that replaces     to modernize operations in line with OMB’s
    the OCC’s legacy time entry system.             recent Lines of Business guidance.

•   Resolved all prior year financial statement
    findings and consistently met Treasury’s        Funding Sources and Uses
    deadline for a three-day close for producing
    financial statements.                           Funding Sources
•   Re-engineered the formal process for data       The OCC does not receive appropriations.
    retention and disposition of federal records.   The Comptroller, in accordance with 12 USC
                                                    482, establishes budget authority for a given
•   Increased the use of performance-based          fiscal year. The total budget authority available
    contracting.                                    for use by the OCC in FY 2005 was $519.4
•   Led the development of the new OM               million and $476.9 million in FY 2004. The
    information technology strategy.                OCC’s operations are funded primarily by
                                                    assessments collected from national banks and
                                                    other income, including interest on investments
                                                    in U.S. Treasury securities.




OCTOBER 2005                                                                                       61
Total revenue recognized for FY 2005                                 Bank Assets and Assessment Revenue
amounted to $577.7 million compared to                               In FY 2005, the composition of national bank
$497.8 million in FY 2004. The increase of                           assets changed compared with FY 2004. For
$79.9 million in total revenue recognized is due                     the same period, the percentage of total OCC
mostly to increased assessments ($75.5 million)                      assets attributable to large banks increased from
as a result of the more than 26.2 percent growth                     82.4 percent to 85.6 percent, while the mid-
in bank assets, which includes the assets of new                     size, community, and federal branches share of
large banks joining the national banking system                      total assets declined. Accordingly, large bank’s
in FY 2005. Table 9 depicts the components of                        share of total assessment revenue increased
total revenue recognized for FY 2005 and FY                          by 5.4 percentage points while mid-size and
2004.                                                                community banks’ shares declined by 2.3 and
                                                                     2.9 percentage points, respectively. National
Investment income is earned on the investment
                                                                     bank asset growth and the movement of assets
of available funds in U.S. Treasury securities.
                                                                     into the national banking system were the
The increase in investment income for FY 2005
                                                                     impetus for higher assessments for FY 2005.
is due largely to the $125.7 million increase in
                                                                     Figure 2 shows the composition of national
the book value of OCC’s portfolio during the
                                                                     bank assets by large banks, mid-size banks,
fiscal year as a result of investing the increased
                                                                     community banks, and federal branches for FY
revenue from assessments. The book value of
                                                                     2005 and FY 2004.
the OCC’s portfolio at September 30, 2005 was
$607.3 million compared to $481.6 million at
September 30, 2004.


Table 9: Components of Total Revenue, FY 2005 and 2004 (in millions)

                                                          FY 2005                     FY 2004                      Change
         Assessments                                        $557.8                      $482.3                      $75.5

         Investment Income                                   $17.0                       $11.3                       $5.7

         Other Sources   1
                                                              $2.9                        $4.2                       $(1.3)

         Total Revenue                                      $577.7                      $497.8                      $79.9

     1
      Other sources of revenue include bank licensing fees, revenue received from the sale of publications, and other miscellaneous
     sources.




62                                                                                                     OCC ANNUAL REPORT
Figure 2: Composition of National Bank Assets as of June 30, 2005 and 2004 (in billions)


    $7,000
                                      1.6%
    $6,000
                                      4.7%
                                      8.1%
    $5,000                                                            1.9%       ■ Federal
                                                                      6.0%
    $4,000                                                                         Branches
                                                                      9.7%
                                                                                 ■ Community
    $3,000
                                      85.6%                           82.4%      ■ Mid-size
    $2,000
                                                                                 ■ Large
    $1,000

       $0
                          6/30/05                         6/30/04




Funding Uses                                        Financial Review
The OCC classifies its funding uses as pay,
                                                    The OCC received an unqualified opinion on
discretionary, and fixed. Pay encompasses
                                                    its FY 2005 and 2004 financial statements. The
payroll-related costs; discretionary reflects all
                                                    financial statements include a Balance Sheet
other funding uses, such as contractual services,
                                                    and Statements of Net Cost, Changes in Net
travel, training, and capital projects; and fixed
                                                    Position, Budgetary Resources, Financing, and
primarily includes rent, utilities, and office
                                                    Custodial Activities. The financial statements
maintenance. In FY 2005, the OCC’s total
                                                    and notes are presented on a comparative
funds used were $500.2 million, an increase
                                                    basis, providing financial information for FYs
of 8.0 percent over the level in FY 2004.
                                                    2005 and 2004. These financial statements
Of the total funds used in FY 2005, $335.6
                                                    summarize the OCC’s financial activity and
million was categorized as pay, $128.6 million
                                                    position. Highlights of information presented
as discretionary, and $36.0 million as fixed.
                                                    on the financial statements follow.
The OCC’s operations are service-intensive;
therefore, the majority of funds are used for       Balance Sheet
pay. The OCC experienced a $20.6 million            The Balance Sheet, as of September 30, 2005
increase in non-pay funds used primarily for        and 2004, presents the resources that are owned
training, travel, relocations, and contractual      by the OCC and available for use (assets),
services. Figure 3 depicts the uses of the OCC’s    the resources due to others or held for future
funding for FYs 2005 and 2004.                      recognition (liabilities), and the resources




OCTOBER 2005                                                                                    63
Figure 3: FY 2005 and 2004 Funding Uses (in millions)

     $600

     $500
                                       7.2%
                                                                          7.2%
     $400
                                       25.7%
                                                                          23.9%
     $300                                                                              ■ Fixed
                                                                                       ■ Discretionary
     $200
                                       67.1%                              68.9%        ■ Pay
     $100

      $0
                          FY 2005                          FY 2004




that comprise the residual (net position). For        Composition of and
clarity in presentation, assets and liabilities are   Trends in OCC Liabilities
differentiated between those resulting from           Total liabilities, as of September 30, 2005,
transactions between the OCC and other federal        increased by a net of $32.0 million over their
entities (intragovernmental) and transactions         level at September 30, 2004. The OCC’s
between the OCC and non-federal entities (with        liabilities are largely comprised of deferred
the public).                                          revenue, accounts payable, and accrued
                                                      liabilities. Deferred revenue represents the
Composition of and Trends in OCC Assets               unearned portion of semiannual assessments
The Balance Sheet shows that total assets as          that have been collected but not yet earned. The
of September 30, 2005, increased by $130.9            increase of $21.6 million in deferred revenue
million from their level at September 30, 2004.       was due to a rise in assessment collections
The increase of $124.9 million in Investments         during FY 2005. The increase of $9.0 million
and Accrued Interest was attributed to a rise         in accounts payable and accrued liabilities
in assessment collections during FY 2005.             was due primarily to an increase in payroll
The increase of $6.0 million in Property and          and employee benefits over last year and
Equipment was due primarily to hardware,              to disbursement timing differences. Figure
software, and telecommunications equipment            5 illustrates the composition of the OCC’s
purchases. Figure 4 shows the composition of          liabilities.
the OCC’s assets.




64                                                                                OCC ANNUAL REPORT
Figure 4: Composition of FY 2005 and FY 2004 Assets (in millions)

     $700
                                   0.5%
                                   7.0%
     $600
                                                                   0.6%
     $500                                                                   ■ Other
                                                                   7.6%
     $400                                                                   ■ Property and
                                   92.5%                           91.8%      Equipment
     $300
                                                                            ■ Investments
     $200                                                                     and Accrued
                                                                              Interest
     $100

       $0
                        FY 2005                        FY 2004




Figure 5: Composition of FY 2005 and 2004 Liabilities (in millions)

       $250
                                    5.0%
       $200                                                                ■ Other
                                                                 5.2%
                                    30.3%                                  ■ Accounts
                                                                 30.7%       Payable
       $150
                                                                             and Accrued
                                                                             Liabilities
       $100
                                                                           ■ Deferred
                                    64.7%                        64.1%       Revenue
        $50


        $0
                        FY 2005                      FY 2004




OCTOBER 2005                                                                                 65
Figure 6: Composition of FY 2005 and 2004 Net Position (in millions)

       $500
                                      3.5%
       $400                           8.9%                                    ■ Special
                                                                                Reserve
                                      23.0%                       4.5%
       $300                                                       5.2%        ■ Asset
                                                                                Replacement
                                                                  24.9%         Reserve
       $200
                                                                              ■ On-going
                                      64.6%                       65.4%         Operations
       $100                                                                   ■ Contingency
                                                                                Reserve
         $0
                          FY 2005                      FY 2004




Composition of and Trends                          Reserves
in OCC Net Position                                The establishment of financial reserves is
The OCC’s net position of $434.4 million as        integral to the effective stewardship of the
of September 30, 2005, and $335.5 million          OCC’s resources, particularly since the agency
as of September 30, 2004, represents the           does not receive congressional appropriations.
cumulative net excess of the OCC’s revenues        The Contingency Reserve funds foreseeable
over its cost of operations since inception. The   but rare events beyond the control of the
net position is presented on both the Balance      OCC, such as a major change in the national
Sheet and the Statement of Changes in Net          banking system or a disaster, such as a fire,
Position. As discussed in the next section,        flood, or significant impairment to the OCC’s
the OCC reserves a significant portion of its      information technology network that may
net position to supplement resources made          interfere with the OCC’s ability to accomplish
available to fund the OCC’s annual budget and      its mission. The Asset Replacement Reserve
to cover foreseeable but rare events. The OCC      funds the replacement of IT equipment,
also earmarks funds for on-going operations to     leasehold improvements, and furniture
cover undelivered orders, the consumption of       replacements for future years. The amount in
assets, and capital investments. Figure 6 shows    the replacement reserve is determined based on
the composition of the OCC’s net position.         the cost of replacement and the useful life of




66                                                                         OCC ANNUAL REPORT
assets. The Special Reserve reduces the effect     Statement of Changes
of unforecasted shortfalls or unbudgeted and       in Net Position
unanticipated requirements.
                                                   The Statement of Changes in Net Position
                                                   presents the change in the OCC’s net position
Statement of Net Cost                              resulting from the net cost of the OCC’s
                                                   operations and financing sources other than
The Statement of Net Cost presents the full cost
                                                   exchange revenues for the years ended
of operating the OCC’s programs for the years
                                                   September 30, 2005, and 2004. Imputed
ended September 30, 2005, and 2004. The net
                                                   financing from costs absorbed by others,
cost of operations is reported on the Statement
                                                   increased by $0.4 million. The OCC’s
of Net Cost, the Statement of Changes in Net
                                                   financing source resulted from a contribution of
Position, and on the Statement of Financing.
                                                   $22.9 million in FY 2005 and $22.5 million in
The OCC uses an activity-based time allocation
                                                   FY 2004, by the OPM toward the OCC’s FERS
process to allocate costs between the programs.
                                                   and CSRS retirement plans.
Costs are further differentiated between those
resulting from transactions between the OCC
and other federal entities (intragovernmental)     Statement of
and transactions between the OCC and non-
                                                   Budgetary Resources
federal entities (with the public). The full
cost includes contributions made by OPM on         The Statement of Budgetary Resources presents
behalf of the OCC to cover the cost of the         the budgetary resources available to the OCC
Federal Employees Retirement System (FERS)         for the year, the status of these resources
and Civil Service Retirement System (CSRS)         at the end of the year, and the net outlay of
plans, totaling $22.9 million in FY 2005 and       budgetary resources at the end of the year. The
$22.5 million in FY 2004. The full program         OCC obligated 49.0 percent of its budgetary
cost increased by $29.5 million, primarily due     resources for the year. The remaining 51.0
to increases in pay and benefits, contractual      percent is available to cover FY 2006 first
services, imputed costs, and non-capitalized IT    quarter operations and OCC’s reserves.
investments. The full cost is reduced by earned
revenues to arrive at net cost. Earned revenues
increased by $79.9 million because of a rise in    Statement of Financing
assessments collected during FY 2005.              The Statement of Financing demonstrates the
                                                   relationship between the OCC’s proprietary
                                                   (net cost of operations) and budgetary
                                                   accounting (net obligations) information. For
                                                   FY 2005, the statement shows $85.2 million in




OCTOBER 2005                                                                                    67
excess resources available to finance activities,   Prompt Payment
a net increase of $49.1 million over September
                                                    The Prompt Payment Act and the OMB
30, 2004. This net increase resulted from an
                                                    Circular A-125 require agencies to make
$87.2 million increase in resources available
                                                    payments on time, pay interest penalties when
netted against the increase of $37.7 million
                                                    payments are late, and take discounts only
in resources used (obligations incurred). The
                                                    when payments are made on or before the
increase in net resources available is due
                                                    discount date. The OMB’s goal is a prompt
primarily to increased assessments and imputed
                                                    payment rate of greater than 98 percent. The
financing, while the increase in resources used
                                                    OCC’s prompt pay rate was 99.6 percent in
results primarily from various office space and
                                                    FY 2005 as compared to 98.7 percent in FY
IT investments as well as pay and employee
                                                    2004. Table 10 summarizes the OCC’s prompt
benefits.
                                                    payment performance for FYs 2005 and 2004.

Statement of Custodial Activities
                                                    Electronic Funds Transfer
The Statement of Custodial Activities identifies
                                                    The use of EFT rather than a paper check
revenues collected by the OCC on behalf of
                                                    for payments provides greater control over
others. These revenues result primarily from
                                                    payment timing and reduces payment cost.
CMPs that are assessed through court enforced
                                                    During FY 2005, the OCC continued to
legal actions against a national bank and/or its
                                                    maximize the use of payment mechanisms as
officers. CMP collections are transferred to the
                                                    required by the Debt Collection Improvement
Department of the Treasury’s General Fund.
                                                    Act of 1996. Table 11 summarizes EFT usage
                                                    for FYs 2005 and 2004.


Table 10: Prompt Payment Performance, FY 2005 and 2004

                                         FY 2005         FY 2004         FY 2005         FY 2004
                                         Amount          Amount          Number          Number
          Invoices paid               $81,266,691     $68,819,284         22,472          21,301

          Invoices paid late           $2,247,318      $4,645,377             81             281

          Interest penalties paid         $1,198          $6,642              53             196




68                                                                          OCC ANNUAL REPORT
Table 11: Electronic Funds Transfer Performance, FY 2005 and 2004

                                                         FY 2005                     FY 2004

         Vendor payments                                   99.5%                      99.4%

         Employee payments                                100.0%                      99.9%




Erroneous Payments                                  to Treasury. As part of its sensitive payments
                                                    program, the OCC conducts a 100 percent
The erroneous payments program meets the
                                                    pre-payment review of executive travel
criteria of the Improper Payments Act of
                                                    vouchers and relocation payments, thereby
2002 (IPIA) to support the Department of the
                                                    helping to prevent erroneous payments. The
Treasury’s strategic goal. The goal is to: Ensure
                                                    OCC uses a sampling approach to audit travel
Professionalism, Excellence, Integrity and
                                                    vouchers and data-mining techniques to
Accountability in the Management and Conduct
                                                    detect potential erroneous payments for post-
of the Department of the Treasury. The OCC
                                                    payment audit activities. Immediately upon
analyzed payments (excluding payroll) made
                                                    their identification, the OCC initiates collection
during FY 2005 and identified 23 erroneous
                                                    activity to ensure recovery of funds. Also, the
payments totaling $30,224. The OCC corrected
                                                    OCC is conducting a Lean Six Sigma review
and recovered all erroneous payments made
                                                    of the non-payroll process to bring about
during the year.
                                                    efficiencies and to determine the need for
The OCC affected software enhancements and          additional controls.
additional manual controls to reduce erroneous
                                                    Based on the analyses, the OCC has concluded
payments. The changes were documented in a
                                                    that erroneous payments will not exceed 2.5
Financial Policy & Procedure document (FPP)
                                                    percent of non-payroll payments and $10
— Payments Certification Process, which
                                                    million. The OCC is compliant with the
governs the daily certification process.
                                                    Erroneous Payments and Recovery Act of 2001
                                                    and the IPIA.
Methodology for
Identifying Improper Payments
The OCC conducts both pre-payment reviews
                                                    Limitations to
and post-payment audits to identify improper
or erroneous payments. The OCC conducts a
                                                    the Financial Statements
100 percent pre-payment review of all supplier      The financial statements have been prepared to
invoices and payment files prior to transmission    report the assets, liabilities, and net position of




OCTOBER 2005                                                                                         69
the OCC, its net costs, changes in net position,
budgetary resources, and reconciliation of            Fiscal Year 2005 Annual Assurance Statement
net costs to budgetary obligations, and its
custodial activity pursuant to the requirements     The Office of the Comptroller of the Currency (OCC)
31 USC 3515(b).                                     has made a conscientious effort during fiscal year
                                                    2005 to meet the internal control requirements of the
While the statements have been prepared             Federal Managers’ Financial Integrity Act (FMFIA) and
from the books and records of the OCC in            the Federal Financial Management Improvement Act
accordance with GAAP and the formats                (FFMIA). OCC systems of management control are
prescribed by the OMB, the statements are in        designed to ensure that:
addition to the financial reports used to monitor      a)   Programs achieve their intended results.
and control budgetary resources that are               b)   Resources are used in accordance with the
prepared from the same books and records. The               agency’s mission.
statements should be read with the realization         c)   Programs and resources are protected from
                                                            waste, fraud, and mismanagement.
that they are for a component of the U.S.              d)   Laws and regulations are followed.
government, a sovereign entity.                        e)   Controls are suffficient to minimize improper
                                                            or erroneous payments.
                                                       f)   Performance information is reliable.
Systems, Controls, and Legal                           g)   Systems security is in substantial compliance
Compliance                                                  with all relevant requirements.
                                                       h)   Continuity of operations planning is sufficient
This section of the report provides information             to reduce risk to reasonable levels.
on OCC’s compliance with FMFIA, FFMIA,                 i)   Financial management systems are in
and other legal and regulatory requirements.                compliance with federal financial system
                                                            standards.
                                                    For all OCC responsibilities, I can provide reasonable
                                                    assurance that our office achieved the above
                                                    management control objectives during FY 2005.
                                                    Specifically, this assurance is provided relative to
                                                    Sections 2 and 4 of the Federal Managers’ Financial
                                                    Integrity Act. I can further assure that our financial
                                                    management systems are in substantial compliance
                                                    with the requirements imposed by the Federal
                                                    Financial Management Improvement Act.




                                                    John C. Dugan
                                                    Comptroller of the Currency




70                                                                                OCC ANNUAL REPORT
Federal Managers’ Financial                        Management Control Program
Integrity Act of 1982                              The OCC’s management control program
FMFIA requires federal agencies to establish       is a continuous process extending to each
management controls and financial systems to       major program with oversight responsibility
ensure that:                                       assigned to the Program and Management
                                                   Accountability Division (P&MA). To ensure
•   Programs achieve their intended results.
                                                   identified weaknesses are responded to
•   Resources are used in a manner consistent      appropriately, the Executive Committee’s Audit
    with our mission.                              Subcommittee provides a forum for monitoring
                                                   progress, resolving problems, and developing
•   Programs and resources are protected from
                                                   consensus recommendations regarding issues
    waste, fraud, and mismanagement.
                                                   that arise from management control reviews,
FMFIA further requires the head of each            quality assurance activities, and audits. Each
agency, based on an evaluation, to provide an      Executive Committee member maintains
annual Statement of Assurance on whether           responsibility for protecting the resources
the agency has met the above requirements.         under his or her direction, and is accountable
The Assurance Statement must disclose              for ensuring that new and existing programs
material control weaknesses along with the         are managed efficiently and effectively, to
specific actions management intends to take        protect resources from waste, fraud, and
to remedy the weakness. To be considered           mismanagement.
a material weakness for inclusion in the
                                                   Figure 7 summarizes the distribution of
Assurance Statement, the problem must be
                                                   management control assessments for FY
significant enough that it severely impairs
the organization’s ability to accomplish its
mission or to prepare timely, accurate financial   Figure 7: FY 2005 Review Activities
statements or reports. Such weaknesses are of
                                                                      GAO Audits
sufficient magnitude that the agency is obliged
                                                                                   OIG Audits
to report them to external stakeholders.                Lean Six                            P&MA Reviews
                                                        Sigma
The OCC’s evaluation of management
controls, financial systems, and administrative
processes for FY 2005 revealed that, as a
whole, OCC programs are operating efficiently
and effectively. The review revealed no
material management control weaknesses that
impair OCC’s ability to fulfill its mission or       EC
significantly weaken established safeguards          Self-Initiated
                                                     Reviews                               Control
against waste, fraud, or mismanagement.
                                                                                           Self-Assessments




OCTOBER 2005                                                                                               71
2005. P&MA completed 9 internal reviews             to the strategic goals and objectives outlined in
and administered 120 management control             OCC’s Strategic Plan. This process resulted in
self-assessments during this period. These          the development of P&MA’s Audit Plan for FY
reviews are in addition to self-initiated program   2005 and FY 2006.
reviews completed at an Executive Committee
member’s direction. The Government
Accountability Office (GAO) issued an               Audited Financial Statements
additional nine audit reports resulting in no       The Government Management Reform Act
action items for OCC. The OIG issued one            of 1994 amended the requirements of the
audit report resulting in one recommendation,       Chief Financial Officers Act by requiring
which has been implemented. No issues               preparation and audit of department-wide
directly related to OCC are highlighted in          financial statements for 24 major executive
GAO’s 2005 high-risk report.                        departments and agencies. As a bureau of
                                                    the U.S. Department of the Treasury, OCC
                                                    supports department-wide compliance with
Executive Committee                                 this requirement by means of an annual,
Program Certifications                              independent audit of its financial statements.
In support of the management control program,
each Executive Committee member submits a
departmental certification that, in combination     Federal Financial Management
with the aforementioned internal reviews and        Improvement Act of 1996
external audits, forms the analytical basis         FFMIA is designed to improve federal
of the annual Assurance Statement. The EC           management by requiring that financial systems
certifications are based on information gathered    provide reliable financial data in accordance
from various sources, including executive           with generally accepted accounting principles
management’s personal knowledge of day-             and standards. Under FFMIA, financial
to-day operations as supplemented by quality        management systems must comply substantially
assurance activities, program reviews, and other    with: (1) Federal financial management system
management-initiated evaluations.                   requirements; (2) applicable federal accounting
                                                    standards; and, (3) the U.S. Government
                                                    Standard General Ledger (SGL) at the
Risk Assessment Program                             transaction level. FFMIA also requires that the
During FY 2005, P&MA worked closely                 independent auditors’ report indicate whether
with the Audit Subcommittee to formulate            the agency’s financial management systems
and establish a risk assessment program to          comply with these requirements.
determine risks and mitigating factors relative




72                                                                           OCC ANNUAL REPORT
OCC implemented a FFMIA-compliant                    estate-related portfolios, as well as other
system in FY 2002, and upgraded to a Web-            consumer-lending portfolios.
based platform during FY 2003. The system
                                                     The OCC will continue its focus on compliance
substantially complies with federal financial
                                                     with the Bank Secrecy Act and anti-money
management system requirements.
                                                     laundering regulations, as well as maintain
                                                     a watchful eye on issues related to privacy,
                                                     predatory lending, and fairness in home
Other Key Legal and Financial
                                                     mortgage lending practices.
Regulatory Requirements
                                                     Corporate governance, accounting
OCC is required to implement controls
                                                     transparency, strong internal controls and audit,
and periodically submit information to the
                                                     and compliance programs remain important
Department of the Treasury in support of
                                                     points of focus for the banking industry — and
various department-wide compliance initiatives.
                                                     large banks in particular.
Specific examples include compliance under
FISMA, IPIA, the Erroneous Payments                  The OCC will work to ensure that banks that
Recovery Act of 2002, and GPRA. The OCC              rely on models to measure risk and determine
continues to monitor its performance under           minimum regulatory capital, develop and
these acts and has been responsive to each           implement effective control mechanisms and
related data call from Treasury. The FY 2005         validation practices to govern the proper use
management control assessment considered             of such models. This work will be done in
OCC’s level of compliance with each of these         accordance with the revisions to the Basel
acts and concluded, with reasonable assurance,       Capital Accord.
that OCC is achieving satisfactory results in        Credit quality, adequacy of ALLL, off-balance-
each case.                                           sheet activities, liquidity, and interest-rate risk
                                                     management will continue to require close
OCC’s Next Steps                                     supervisory attention by the agency.

The OCC will continue to closely monitor             Industry consolidation and earnings pressures
financial sectors and markets in FY 2006. The        will continue to create incentives for banks to
proliferation of non-traditional home mortgage       reduce overhead costs, outsource technology
products, rapid growth of home equity lines          operations and labor-intensive tasks to third
of credit, and the acceleration of home prices       party vendors, and search for new or expanded
require close attention. A sudden and sustained      products and services. Assessing the adequacy
rise in interest rates, or drop in housing prices,   and effectiveness of how banks manage the
could present potential vulnerabilities to real      resulting risks will be a critical component of
                                                     OCC’s supervisory strategies.




OCTOBER 2005                                                                                          73
In the aftermath of Hurricane Katrina, national
banks in affected areas resumed services as
quickly as possible and were operating within a
few days, although some branches and facilities
remained closed. Since then, national banks
continue to cooperate with each other, their
state bank counterparts, and federal, state and
local officials to accommodate the needs of
communities struck by the disaster. The OCC
will remain in contact with these institutions to
provide assistance as recovery and rebuilding
efforts continue. Through the bank supervision
process, the OCC will work with its federal
counterparts to monitor the long-term economic
impact of this disaster and take appropriate
bank supervisory actions.




74                                                  OCC ANNUAL REPORT
Independent Auditors’ Report




                       Independent Auditors’ Report on Financial Statements


The Inspector General, Department of the Treasury, and
the Comptroller of the Currency:

We have audited the accompanying balance sheets of the Office of the Comptroller of the
Currency (OCC) as of September 30, 2005 and 2004, and the related statements of net cost,
changes in net position, budgetary resources, financing, and custodial activity for the years then
ended. These financial statements are the responsibility of the management of OCC. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and the Office of
Management and Budget Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the OCC as of September 30, 2005 and 2004, and its net costs, changes
in net position, budgetary resources, the reconciliation of budgetary obligations to net costs, and
custodial activities for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

The information in the 2005 Profile, Operations and Accomplishments, and Management
sections of OCC’s fiscal year 2005 Annual Report is not a required part of the financial
statements but is supplementary information required by accounting principles generally
accepted in the United States of America. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and accordingly,
we express no opinion on it.




OCTOBER 2005                                                                                           75
Our audits were conducted for the purpose of forming an opinion on the financial statements
taken as a whole. The supplementary information included in Appendix A is presented for
purposes of additional analysis and is not a required part of the financial statements. We did not
audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated October
27, 2005, on our consideration of the OCC’s internal control over financial reporting, and on our
tests of its compliance with certain provisions of applicable laws and regulations. These reports
are an integral part of an audit performed in accordance with Government Auditing Standards,
and these reports should be read in conjunction with this report in considering the results of our
audits.




October 27, 2005




76                                                                            OCC ANNUAL REPORT
        Independent Auditors’ Report on Internal Control over Financial Reporting


The Inspector General, Department of the Treasury, and
the Comptroller of the Currency:

We have audited the balance sheets of the Office of the Comptroller of the Currency (OCC) as of
September 30, 2005 and 2004, and the related statements of net cost, changes in net position,
budgetary resources, financing, and custodial activity for the years then ended, and have issued
our report thereon dated October 27, 2005. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

In planning and performing our audits, we considered the OCC’s internal controls over financial
reporting by obtaining an understanding of the OCC’s internal controls, determined whether
internal controls had been placed in operation, assessed control risk, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives describes in OMB Bulletin No. 01-02 and Government Auditing
Standards. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982, such as those controls relevant
to ensuring efficient operations. The objective of our audits was not to provide assurance on
internal control over financial reporting. Consequently, we do not provide an opinion on internal
control over financial reporting.

Our consideration of internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the OCC’s ability
to initiate, record, process, and report financial data consistent with the assertions of management
in the financial statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a relatively low
level the risk that misstatements caused by error or fraud in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions. Because of
inherent limitations in any internal control, misstatements due to error or fraud may occur and
not be detected.




OCTOBER 2005                                                                                           77
In addition, with respect to internal control related to performance measures determined by
management to be key and reported in the 2005 Profile, Operations and Accomplishments,
Management, and the Appendix sections of the OCC’s Annual Report, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin No. 01-02. Our procedures were not
designed to provide assurance on internal controls over reported performance measures, and,
accordingly, we do not provide an opinion on such controls. We noted no matters involving
internal control and its operation that we considered to be material weaknesses as defined above.
However, we noted other matters involving internal control and its operation that we have
reported to the management of OCC in a separate letter dated October 27, 2005.

This report is intended solely for the information and use of the OCC’s management, the
Department of the Treasury Office of Inspector General, OMB, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties. However,
this report is available as a matter of public record.




October 27, 2005




78                                                                           OCC ANNUAL REPORT
               This page left intentionally blank.




OCTOBER 2005                                         79
        Independent Auditors’ Report on Compliance with Laws and Regulations


The Inspector General, Department of the Treasury, and
the Comptroller of the Currency:

We have audited the balance sheets of the Office of the Comptroller of the Currency (OCC) as of
September 30, 2005 and 2004, and the related statements of net cost, changes in net position,
budgetary resources, financing, and custodial activity, for the years then ended, and have issued
our report thereon dated October 27, 2005. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

The management of the OCC is responsible for complying with laws and regulations applicable
to the OCC. As part of obtaining reasonable assurance about whether the financial statements
are free of material misstatement, we performed tests of the OCC’s compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws
and regulations specified in OMB Bulletin No. 01-02, including certain requirements referred to
in the Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our tests
of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws and regulations applicable to the OCC. However, providing an opinion
on compliance with laws and regulations was not an objective of our audits, and accordingly, we
do not express such an opinion.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph, exclusive of FFMIA, disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Under FFMIA, we are required to report whether the OCC’s financial management systems
substantially comply with (1) Federal financial management systems requirements, (2)
applicable federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance
with FFMIA section 803(a) requirements.

The results of our tests disclosed no instances in which the OCC’s financial management systems
did not substantially comply with the three requirements discussed in the preceding paragraph.




80                                                                          OCC ANNUAL REPORT
This report is intended solely for the information and use of the OCC’s management, the
Department of the Treasury Office of the Inspector General, OMB, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties. However,
this report is available as a matter of public record.




October 27, 2005




OCTOBER 2005                                                                                   81
Financial Statements




                                           Office of Comptroller of the Currency
                                                      Balance Sheets
                                           As of September 30, 2005 and 2004

                                                                          FY 2005                   FY 2004
     Assets
        Intragovernmental:
              Fund balance with Treasury                            $       1,724,161         $      1,701,674
              Investments and related interest (Note 3)                   611,975,767              487,121,232
              Accounts receivable                                              13,300                  144,332
        Total intragovernmental                                           613,713,228              488,967,238


        Cash                                                                   12,584                   25,961
        Accounts receivable, net                                              270,556                  112,201
        Property and equipment, net (Note 4)                               46,190,939               40,147,991
        Advances and prepayments                                            1,145,419                1,144,599

     Total assets                                                   $     661,332,726         $ 530,397,990
     Liabilities
        Intragovernmental:
              Other accrued liabilities                             $       1,405,550         $        746,371
        Total intragovernmental                                             1,405,550                  746,371


        Accounts payable                                                    7,960,357                2,280,839
        Accrued payroll and other employee benefits                        17,555,891               16,203,165
        Accrued annual leave                                               24,942,021               24,037,799
        Other accrued liabilities                                          17,030,393               16,582,611
        Deferred revenue (Note 5)                                         146,664,373              125,015,607
        Post retirement benefits (Note 7)                                  11,352,850               10,071,983
        Total liabilities                                                 226,911,435              194,938,375

        Net position (Note 8)                                             434,421,291              335,459,615

     Total liabilities and net position                                 $ 661,332,726             $ 530,397,990


                     The accompanying notes are an integral part of these financial statements.




82                                                                                      OCC ANNUAL REPORT
                                  Office of Comptroller of the Currency
                                         Statements of Net Cost
                           For the Years Ended September 30, 2005 and 2004

                                                                     FY 2005                 FY 2004

  Program Costs


      Supervise National Banks
         Intragovernmental                                 $        57,553,452     $        55,013,447
         With the public                                           362,769,983             337,088,793

      Subtotal - Supervise National Banks                  $       420,323,435     $       392,102,240


      Regulate National Banks
         Intragovernmental                                 $         9,279,718     $         9,119,549
         With the public                                            56,650,420              54,522,477

      Subtotal - Regulate National Banks                   $        65,930,138         $    63,642,026


      Charter National Banks
         Intragovernmental                                 $         2,232,906         $     2,418,481
         With the public                                            13,228,352              14,049,294

      Subtotal - Charter National Banks                    $        15,461,258         $    16,467,775



  Total Program Costs                                       $      501,714,831         $ 472,212,041
    Less: Earned revenues not attributed to programs               (577,742,644)           (497,764,476)


  Net Cost of Operations                                       $   (76,027,813)        $ (25,552,435)




               The accompanying notes are an integral part of these financial statements.




OCTOBER 2005                                                                                               83
                                     Office of Comptroller of the Currency
                                    Statements of Changes in Net Position
                              For the Years Ended September 30, 2005 and 2004

                                                                       FY 2005                 FY 2004

     Beginning Balances                                            $   335,459,615         $   287,373,440

     Other Financing Sources:
       Imputed financing from costs absorbed by others (Note 7)         22,933,863              22,533,740

     Net Cost of Operations                                             76,027,813              25,552,435

     Net Change                                                         98,961,676              48,086,175


     Ending Balances                                               $   434,421,291         $   335,459,615




                  The accompanying notes are an integral part of these financial statements.




84                                                                                   OCC ANNUAL REPORT
                                   Office of Comptroller of the Currency
                                   Statements of Budgetary Resources
                            For the Years Ended September 30, 2005 and 2004

                                                                        FY 2005                   FY 2004

  Budgetary Resources:
    Unobligated balance:
     Beginning of period                                          $ 398,535,082        $         339,989,380
    Spending authority from offsetting collections:
      Earned
        Collected                                                     596,213,085                507,438,496
        Receivable from federal sources                                 (1,011,814)                 569,956
      Subtotal                                                        595,201,271                508,008,452


  Total Budgetary Resources                                       $   993,736,353          $     847,997,832


  Status of Budgetary Resources
    Obligations incurred                                          $ 487,113,339            $ 449,462,750
    Unobligated balance available                                     506,623,014                398,535,082

  Total Status of Budgetary Resources                             $   993,736,353              $ 847,997,832


  Relationship of Obligations to Outlays
    Obligated balance, net, beginning of period                        80,658,172                 82,639,683
    Obligated balance, net, end of period:
      Accounts receivable                                               (4,678,768)               (5,690,582)
      Undelivered orders                                               18,703,188                 16,425,985
      Accounts payable and accruals, net of assessments refunds        80,247,061                 69,922,769
    Outlays:
      Disbursements                                               $ 474,511,844            $ 450,874,306
      Collections                                                     (596,213,085)             (507,438,496)


  Net Outlays                                                     $ (121,701,241)              $ (56,564,190)


                 The accompanying notes are an integral part of these financial statements.




OCTOBER 2005                                                                                                    85
                                      Office of Comptroller of the Currency
                                             Statements of Financing
                               For the Years Ended September 30, 2005 and 2004

                                                                                              FY 2005                FY 2004
     Resources Used to Finance Activities:
     Budgetary Resources Obligated
       Obligations incurred                                                           $     487,113,339      $     449,462,750
       Less: Spending authority from offsetting collections                                 (595,201,271)          (508,008,452)
       Net obligations                                                                      (108,087,932)           (58,545,702)
     Other Resources
       Imputed financing from costs absorbed by others (Note 7)                              22,933,863             22,533,740
     Total resources used to finance activities                                             (85,154,069)           (36,011,962)
     Resources Used to Finance Items not Part of the Net Cost of Operations

       Change in budgetary resources obligated for goods, services and benefits
           ordered but not yet provided                                                       (2,278,023)            7,278,008
       Resources that finance the acquisition of assets                                      (17,874,784)           (16,304,977)

       Other resources or adjustments to net obligated resources that do not
            affect net cost of operations                                                       (158,355)              320,570
     Total resources used to finance items not part of the net cost of operations           (20,311,162)             (8,706,399)
     Total resources used to finance the net cost of operations                            (105,465,231)           (44,718,361)

     Components of the Net Cost of Operations that will not Require or
         Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
         Change in deferred revenue                                                          21,648,766              7,967,380
         Total components that will require or generate resources in future periods          21,648,766              7,967,380
      Components not Requiring or Generating Resources:
        Depreciation and amortization                                                        11,203,799              8,869,905
         Net (increase) decrease in bond premium                                              (4,043,186)            2,091,916
         Other                                                                                  628,039                236,725
         Total components that will not require or generate resources                          7,788,652            11,198,546

     Total components of net cost of operations that will not require or
          generate resources in the current period                                           29,437,418             19,165,926
     Net Cost of Operations                                                               $ (76,027,813)         $ (25,552,435)

                   The accompanying notes are an integral part of these financial statements.



86                                                                                                      OCC ANNUAL REPORT
                                  Office of Comptroller of the Currency
                                    Statements of Custodial Activity
                           For the Years Ended September 30, 2005 and 2004


                                                                     FY 2005                      FY 2004
  Revenue Activity:


    Sources of Cash Collections
      Civil Monetary Penalties                                 $    31,264,157         $         25,033,961
    Accrual Adjustments                                                234,072                     (733,784)
    Total Custodial Revenue                                         31,498,229                   24,300,177


    Disposition of Custodial Revenue
       Transferred to Treasury                                      (31,117,164)                 (25,577,843)
       (Increase)/Decrease in Amounts Yet to be Transferred           (381,065)                   1,277,666
    Total Disposition for Custodial Revenue                         (31,498,229)                 (24,300,177)


  Net Custodial Activity                                        $              -             $              -




                The accompanying notes are an integral part of these financial statements.




OCTOBER 2005                                                                                                    87
Notes to the                                        agreements. Administrative services provided
                                                    by the DO totaled $2,933,794 in FY 2005, and
Financial Statements                                $2,467,099 in FY 2004.


Note 1 — Organization                               Note 2 —
The OCC was created as a bureau within the          Significant Accounting Policies
U.S. Department of the Treasury by an act of
Congress in 1863. The OCC was created to            Basis of Accounting
establish and regulate a system of federally        The OCC’s financial statements have been
chartered national banks. The National              prepared from its accounting records in
Currency Act of 1863, rewritten and reenacted       conformity with generally accepted accounting
as the National Bank Act of 1864, authorized        principles (GAAP) in the United States of
the OCC to supervise national banks and to          America. The financial statements consist
regulate the lending and investment activities of   of a balance sheet, and the statements of
federally chartered institutions.                   net cost, changes in net position, budgetary
The OCC’s revenue is derived primarily from         resources, financing, and custodial activity.
assessments and fees paid by national banks         These financial statements are presented on a
and income on investments in U.S. government        comparative basis providing information for
securities. The OCC does not receive                FYs 2005 and 2004.
congressional appropriations to fund any of its     The OCC collects CMPs due to the federal
operations. Therefore, the OCC does not have        government that are assessed through court-
any unexpended appropriations.                      enforced legal actions against a national bank
By federal statute 12 USC 481, the OCC’s            and/or its officers. Outstanding CMPs at
funds are maintained in a U.S. government trust     September 30, 2005, and 2004, amounted to
revolving fund. The funds remain available to       $1,514,789 and $1,280,718, respectively.
cover the annual costs of the OCC’s operations      The financial statements reflect both the accrual
in accordance with policies established by the      and budgetary bases of accounting. Under the
Comptroller.                                        accrual method, revenues are recognized when
The Departmental Offices (DO), another              earned, and expenses are recognized when a
entity of the U.S. Department of the Treasury,      liability is incurred, without regard to cash
provides certain administrative services to         receipt or payment. The budgetary method
the OCC. The OCC pays the DO for services           recognizes the obligation of funds according
rendered pursuant to established interagency        to legal requirements, which, in many cases,
                                                    is made prior to the occurrence of an accrual-
                                                    based transaction. Budgetary accounting is




88                                                                           OCC ANNUAL REPORT
essential for compliance with legal constraints   Liabilities
and controls over the use of federal funds.       Liabilities represent the amounts owing
                                                  or accruing under contractual or other
Fund Balance with Treasury                        arrangements governing the transactions,
The OCC’s cash receipts and disbursements         including operating expenses incurred but
are processed by the U.S. Treasury. Sufficient    not yet paid. Payments are made in a timely
funds are maintained in a U.S. government trust   manner in accordance with the Prompt
revolving fund and are available to pay current   Payment Act. Interest penalties are paid when
liabilities. The OCC invests all the funds that   payments are late. Discounts are taken when
are not immediately needed in U.S. government     cost effective, and the invoice is paid within the
securities (Note 3).                              discount period. FY 2004 intragovernmental
                                                  accounts payable are presented this year as
Accounts Receivable                               other accrued liabilities.
Accounts receivable represent monies owed
to the OCC for services and goods provided.       Annual, Sick, and Other Leave
Accounts receivable from the public are           Annual leave is accrued and funded by the
reduced to their net realizable value by an       OCC as it is earned, and the accrual is reduced
Allowance for Doubtful Accounts. The OCC          as leave is taken or paid. Each year, the balance
reserves an allowance equal to 100 percent of     in the accrued annual leave account is adjusted
accounts with outstanding balances exceeding      to reflect current pay rates. Sick leave and other
one year, and 50 percent of accounts with         types of leave are expended as taken.
balances exceeding six months but less than
one year. At September 30, 2005, and 2004,        Use of Estimates
accounts receivable from the public amounted      The preparation of financial statements, in
to $294,552 less an allowance of $23,996          accordance with GAAP, requires management
and $147,597 less an allowance of $35,396,        to make estimates and assumptions that affect
respectively.                                     the reported amounts of assets and liabilities,
                                                  the disclosure of contingent assets and
Advances and Prepayments                          liabilities at the date of the financial statements,
Advances and prepayments to the public            and the reported amounts of revenue and
consist of rent and insurance paid. The amounts   expenses during the reporting period. Such
are recorded as prepaid expenses at the time of   estimates and assumptions could change in the
payment and are expensed when related goods       future as more information becomes known,
and services are received.                        which could affect the amounts reported and
                                                  disclosed herein.




OCTOBER 2005                                                                                       89
Note 3 —                                      discounts are amortized over the term of the
Investments and Related Interest              investment using the straight-line method,
                                              which approximates the effective yield method.
Investments are U.S. Treasury securities      The fair market value of investment securities
stated at amortized cost and the related      was $603,096,812 at September 30, 2005, and
accrued interest. The OCC plans to hold       $484,401,551 at September 30, 2004.
these investments to maturity. Premiums and


Investments and Related Interest Receivable
                                                          FY 2005               FY 2004
     Par Value                                       $    600,379,000      $    478,652,000
     Net Unamortized Discount/Premium                       6,931,298             2,922,982
     Net Unamortized Value                                607,310,298           481,574,982
     Interest Receivable                                    4,665,469             5,546,250
     Total                                           $    611,975,767       $   487,121,232




FY 2005 Investment Portfolio
       Maturity                                     Par Value                   Coupon Rate
       Overnight                              $     218,379,000                     3.460%
       During 2006                                   29,000,000                     5.750%
                                                     25,000,000                     6.875%
       During 2007                                   30,000,000                     3.500%
                                                     30,000,000                     4.375%
       During 2008                                   30,000,000                     3.000%
                                                     30,000,000                     2.625%
       During 2009                                   21,000,000                     3.375%
                                                     21,000,000                     3.875%
       During 2010                                   35,000,000                     3.500%
                                                     35,000,000                     5.750%
       During 2011                                   64,000,000                     5.000%
       During 2012                                   32,000,000                     4.875%
       Total                                      $ 600,379,000




90                                                                      OCC ANNUAL REPORT
FY 2004 Investment Portfolio
       Maturity                                           Par Value                        Coupon Rate
       Overnight                                    $      27,652,000                          1.720%
       T-Bill                                              20,000,000                          1.770%
                                                          120,000,000                          1.590%
       During 2005                                         55,000,000                          5.875%
                                                           40,000,000                          6.500%
       During 2006                                         29,000,000                          5.750%
                                                           25,000,000                          6.875%
       During 2007                                         30,000,000                          3.500%
                                                           30,000,000                          4.375%
       During 2008                                         30,000,000                          3.000%
                                                           30,000,000                          2.625%
       During 2009                                         21,000,000                          3.375%
                                                           21,000,000                          3.875%
       Total                                            $ 478,652,000



Note 4 —                                                 Note 5 — Deferred Revenue
Property and Equipment, net                              The OCC’s activities are primarily financed by
Property and equipment purchased at a cost               assessments on assets held by national banks
greater than or equal to the noted thresholds            and the federal branches of foreign banks.
below with useful lives of five years or                 These assessments are due January 31 and
more are capitalized at cost and depreciated             July 31 of each year based on asset balances
or amortized, as applicable. Leasehold                   as of call reports dated December 31 and June
improvements are amortized on a straight-line            30, respectively. Assessments are paid in
basis over the lesser of the terms of the related        advance and are recognized as earned revenue
leases or their estimated useful lives. All other        on a straight-line basis over the six months
property and equipment are depreciated or                following the call date. The unearned portions
amortized, as applicable, on a straight-line             are reduced accordingly.
basis over their estimated useful lives. The
tables presented below summarize property and
equipment balances as of September 30, 2005,
and 2004.




OCTOBER 2005                                                                                             91
FY 2005 Property and Equipment, net
                                  Capitalization
                                   Threshold/                      Accumulated          Net Book
     Class of Assets                                    Cost
                                   Useful Life                     Depreciation          Value

     Leasehold Improvements       $50,000 5-20     $ 26,429,648   $ (19,271,689)       $ 7,157,959
     Equipment                    $50,000 5-10       15,075,850       (9,379,463)        5,696,387
     Furniture and Fixtures       $50,000 5-10        1,336,778        (971,877)           364,901
     Internal Use Software        $500,000 5-10      31,383,723      (14,199,259)       17,184,464
     Internal Use Software-Dev    $500,000 5-10      15,317,047                   -     15,317,047
     Leasehold Improvements-Dev   $50,000 5-20          470,181                   -        470,181
     Total                                         $ 90,013,227   $ (43,822,288)      $ 46,190,939




FY 2004 Property and Equipment, net
                                  Capitalization
                                                                   Accumulated          Net Book
     Class of Assets               Threshold/           Cost
                                                                   Depreciation          Value
                                   Useful Life
     Leasehold Improvements       $50,000 5-20     $ 25,633,257   $ (18,780,875)       $ 6,852,382
     Equipment                    $50,000 5-10       11,562,453      (7,265,324)         4,297,129
     Furniture and Fixtures       $50,000 5-10        1,336,778        (907,841)           428,937
     Internal Use Software        $500,000 5-10      30,489,430       (8,201,611)       22,287,819
     Internal Use Software-Dev    $500,000 5-10       5,145,251                   -      5,145,251
     Leasehold Improvements-Dev   $50,000 5-20        1,136,473                   -      1,136,473
     Total                                         $ 75,303,642   $ (35,155,651)      $ 40,147,991




92                                                                         OCC ANNUAL REPORT
Note 6 — Leases                                    signed renewal options for its headquarters,
                                                   Data Center and Central District leases. In
The OCC leases office space for headquarters
                                                   addition, a new 10-year lease was executed
operations in Washington, D.C., and for district
                                                   for the Northeastern District. These leases are
and field operations. The lease agreements
                                                   treated as operating leases.
expire at various dates. In FY 2005, the OCC




FY 2005 Future Lease Payments
       Year                                             Amount
       2006                                        $    22,789,699
       2007                                             24,954,737
       2008                                             23,774,977
       2009                                             22,589,732
       2010                                             21,751,178
       2011 and beyond                                  34,436,469
       Total                                       $    150,296,792




FY 2004 Future Lease Payments
       Year                                             Amount
       2005                                        $    22,930,047
       2006                                             15,332,707
       2007                                             6,904,679
       2008                                             6,532,164
       2009                                             6,141,103
       2010 and beyond                                  25,968,478
       Total                                       $    83,809,178




OCTOBER 2005                                                                                     93
Note 7 — Retirement                               accumulated plan benefits, or unfunded
Plans and Other Benefits                          liabilities, if any, are presently the
                                                  responsibility of the OPM.
Retirement
OCC employees are eligible to participate         Other Benefits
in one of two retirement plans. Employees         OCC employees are eligible to participate in
hired prior to January 1, 1984, are covered       the Federal Thrift Savings Plan (TSP). For
by the CSRS, unless they elected to join the      those employees under FERS, a TSP account
FERS and Social Security during the election      is automatically established, and the OCC
period. Employees hired after December 31,        contributes a mandatory 1 percent of adjusted
1983, are automatically covered by FERS           base pay to this account. In addition, the OCC
and Social Security. The distribution of the      matches employee contributions up to an
OCC’s workforce by retirement plan is 70          additional 4 percent of pay, for a maximum
percent FERS and 29 percent CSRS. The             OCC contribution amounting to 5 percent of
remaining 1 percent of employees qualify only     adjusted base pay. Employees under CSRS may
for Social Security benefits. For employees       participate in the TSP, but do not receive the
covered by CSRS, the OCC contributes 7            automatic (1 percent) and matching employer
percent of their adjusted base pay to the plan.   contributions. TSP contributions by the OCC
OCC contributions to CSRS were $6,219,879         totaled $6,890,694 in FY 2005 and $6,437,886
in FY 2005 and $6,582,430 in FY 2004.             in FY 2004. The OCC also contributed a
For employees covered by FERS, the OCC            total of $12,632,597 for Social Security and
contributes 11.2 percent of their adjusted base   Medicare benefits for all eligible employees in
pay. OCC contributions totaled $17,001,247 in     FY 2005, and $12,332,480 in FY 2004.
FY 2005, and $15,129,774 in FY 2004.              Employees can elect to contribute up to 10
Furthermore, the OPM contributed an               percent of their adjusted base pay in the OCC
additional $22,933,863 toward these retirement    401(k) Plan, subject to Internal Revenue
plans during FY 2005, and $22,533,740 in FY       regulations. Prudential Financial Incorporated
2004. The OCC recognized these contributions      administers the plan. Currently, the OCC
as “Imputed costs absorbed by others” and an      contributes a fixed 2 percent of the adjusted
offset in equal amount to “Imputed financing      base pay to the plan for all qualified employees,
from costs absorbed by others” as a result of     regardless of whether they contribute to the
not having to reimburse the OPM.                  Plan or not. In addition, the OCC matches the
                                                  first 1 percent of an employee’s contribution
The OCC does not report in its financial          to the Plan, for a total agency contribution of
statements information pertaining to the          3 percent. Approximately 2,390 employees
retirement plans covering its employees.          receive the maximum of 3 percent contribution
Reporting amounts, such as plan assets,           and 370 employees benefit from the basic 2




94                                                                         OCC ANNUAL REPORT
percent contribution. In FY 2005, the OCC           Employees and retirees of the OCC are eligible
funded a one-time contribution of $1,000            to participate in Federal Employees Health
to be deposited in the 401(k) accounts of           Benefits (FEHB) and Federal Employees
all permanent employees. The total cost of          Group Life Insurance (FEGLI) plans that
the OCC’s contributions plus associated             involve a cost sharing of bi-weekly coverage
administration fees amounted to $9,227,442          premiums by employee and employer. Both of
during FY 2005, and $4,138,146 in FY 2004.          these employee benefit plans are administered
                                                    by the OPM. Total OCC contributions for
The OCC sponsors a life insurance benefit plan
                                                    active employees who participate in the FEHB
for current and retired employees. This plan is a
                                                    plans were $14,567,345 for FY 2005, and
defined benefit plan. Premium payments made
                                                    $13,589,369 for FY 2004. OCC contributions
during FY 2005 totaled $289,348 and $128,258
                                                    for active employees who participate in the
in FY 2004.
                                                    FEGLI plan were $213,267 for FY 2005, and
The weighted-average discount rate used in          $201,697 for FY 2004.
determining the accumulated post-retirement
                                                    The Federal Employees’ Compensation
benefit obligation was 5.5 percent. Gains or
                                                    Act (FECA) provides income and medical
losses due to changes in actuarial assumptions
                                                    cost protection to covered federal civilian
are amortized over the service life of the plan.
                                                    employees injured on the job, employees who


Accrued Post-Retirement Benefit Cost and Net Periodic Post-Retirement Benefit Cost
   Components                                                 FY 2005                    FY 2004
   Accumulated Post-Retirement Benefit Obligation         $ (16,272,887)            $    (12,613,233)
   Unrecognized Transition Obligation                          3,710,166                  1,158,542
   Unrecognized Net Gain                                       1,209,871                  1,382,708
   Total                                                  $ (11,352,850)             $ (10,071,983)


   Service Cost                                            $     509,425             $       468,500
   Interest Cost                                                 844,237                     663,926
   Amortization of Transition Obligation                         172,837                     172,837
   Amortization of Unrecongnized Loss                            186,069                           -
   Total                                                   $   1,712,568             $     1,305,263




OCTOBER 2005                                                                                       95
have incurred a work-related occupational        Replacement Reserves to be used at the
disease, and beneficiaries of employees whose    discretion of the Comptroller. In addition,
death is attributable to a job-related injury    funds are set aside to cover the cost of on-going
or occupational disease. Claims incurred for     operations.
benefits for the OCC’s employees under FECA
                                                 The Contingency Reserve supports the OCC’s
are administered by the U.S. Department of
                                                 ability to accomplish its mission in the case of
Labor (DOL) and later billed to the OCC.
                                                 foreseeable but rare events. Foreseeable but
The OCC accrued $5,260,569 of workers’
                                                 rare events are beyond the control of the OCC,
compensation costs as of September 30, 2005,
                                                 such as a major change in the national banking
and $6,001,044 as of September 30, 2004. This
                                                 system or a disaster, such as a fire, flood,
amount includes unbilled costs of $280,603
                                                 or significant impairment of its information
in FY 2005 and $436,140 in FY 2004 and an
                                                 technology systems.
actuarial estimated liability of $4,979,966 in
FY 2005 and $5,564,904 in FY 2004 based on       The Special Reserve supplements revenue from
calculations provided by the DOL at year-end.    assessments and other sources that are made
                                                 available to fund the OCC’s annual budget.
                                                 The Special Reserve reduces the effect on
Note 8 — Net Position                            operations of unforecasted revenue shortfalls or
                                                 unbudgeted and unanticipated requirements or
The OCC sets aside a portion of its Net
                                                 opportunities.
Position as Contingency, Special, and Asset



Net Position Availability
     Components                                     FY 2005                            FY 2004
     Contingency Reserve                         $ 280,828,551                      $ 219,473,390
     Special Reserve                                15,000,000                         15,000,000
     Asset Replacement Reserve                      38,709,695                         17,532,950
     Earmarked for On-going Operations:
       Undelivered Orders                           18,703,188                         16,425,985
       Consumption of Assets                        55,488,907                         45,401,954
       Capital Investments                          25,690,950                         17,235,357
       District Offices Restructuring                        -                          4,389,979
     Net Position                                $ 434,421,291                      $ 335,459,615




96                                                                        OCC ANNUAL REPORT
The asset replacement reserve was established      Note 9 — Expenses by Budget
in FY 2004. It ensures the incremental funding     Object Classification
of leasehold improvements and replacement of
furniture and equipment scheduled for future       The following table illustrates the OCC’s costs
years. A specific amount is accumulated each       by major budget object class for FYs 2005 and
year based on the expected cost and useful         2004.
life of the asset to ensure that adequate funds
are available when the time comes for the
leasehold improvement or asset replacement.
                                                   Note 10 — Contingencies
The FY 2006 budget authorized the use of           The OCC is party to various administrative
approximately $10.3 million from the reserve       proceedings, legal actions, and claims. In
balance to fund various capital projects and set   the opinion of the management and the
a target level for reserve contribution of $35.4   Chief Counsel, the probability is remote
million by September 30, 2006.                     that the ultimate resolution of these matters,
                                                   individually or in the aggregate, will have a
                                                   material adverse effect on the OCC’s financial
                                                   position or the results of its operations.


   Budget Object Class                                          FY 2005                 FY 2004
   Personnel Compensation                                    $ 256,653,020           $ 253,743,442
   Personnel Benefits                                            85,542,831             72,166,389
   Benefits to Former Employees                                     626,059              3,053,268
   Travel and Transportation of Persons                          31,160,567             27,366,170
   Travel and Transportation of Things                            1,446,824              1,893,377
   Rent, Communication, and Utilities                            33,530,892             32,130,835
   Printing and Reproduction                                       859,851                 914,616
   Other Contractual Services                                    44,696,702             38,102,100
   Supplies and Materials                                         3,382,594              3,365,474
   Equipment                                                      5,452,810              4,811,125
   Land and Structures - Leasehold Improvements                   3,521,380              2,872,330
   Insurance Claims and Indemnities                                 75,601                 152,545
   Depreciation                                                  11,203,799              8,869,905
   Loss on Asset Disposal                                          628,038                 236,725
   Imputed Costs                                                 22,933,863             22,533,740
   Total                                                     $ 501,714,831           $ 472,212,041




OCTOBER 2005                                                                                      97
Appendices




Appendix A —
FY 2005 Performance Measures and Results
The OCC’s FY 2005 performance measures, workload indicators, customer service standards, and
results are presented below.


               Performance Measure                                                                           FY 2005
       OCC                                                                 FY       FY       FY
               Workload Indicator                                                                    Target
     Program                                                              2002     2003     2004                 Actual 1
               Customer Service Standard
               Percentage of national banks that are well capitalized    99%     99%      99%       95%         99%
               Percentage of national banks with composite CAMELS
                                                                         95%     94%      94%       90%         94%
               rating of 1 or 2
               Percentage of critically undercapitalized banks on
               which responsible action is taken within 90 calendar      NA      100%     100%      100%        N/A2
               days after they become critically undercapitalized
               Rehabilitated problem national banks as a percentage
               of problem national banks one year ago (CAMELS 3,         47%     32%      40%       40%         44%
               4 or 5)
               Percentage of national banks with consumer
                                                                         NA      96%      96%       94%         94%
               compliance rating of 1 or 2
 Supervise     Percentage of qualified Intermediate Small Banks
               to which the OCC offers to provide consultation on
                                                                         NA      100%     100%      100%        100%
               the Community Reinvestment Act and community
               development opportunities3
               Percentage of consumer complaints closed within 60
                                                                         NA      87%      74%       80%         72%4
               calendar days of receipt
               Number of consumer complaints opened/closed                       75,114   68,026    80,000      73,519
                                                                         NA
               during the fiscal year                                            69,044   68,104    75,000      72,203
               Average survey response that the report of
               examination clearly communicated examination
                                                                         1.30    1.26     1.30      < 1.75      1.28
               findings, significant issues and the corrective actions
               management needed to take
               Percentage of external legal opinions issued within
                                                                         NA      87%      87%       86%         86%
               established time frames
 Regulate
               Number of external legal opinions issued during the
                                                                         N/A     92       119       125         119
               fiscal year




98                                                                                              OCC ANNUAL REPORT
                    Performance Measure                                                                                    FY 2005
        OCC                                                                       FY          FY          FY
                    Workload Indicator                                                                              Target
      Program                                                                    2002        2003        2004                    Actual1
                    Customer Service Standard
                    Percentage of licensing applications and notices filed
                                                                               NA          8%          34%         35%         38%
                    electronically
                    Number of licensing applications and notices filed
                                                                               NA          182         893         875         1,256
                    electronically during the fiscal year
                    Percentage of licensing applications and notices
    Charter                                                                    96%         97%         96%         95%         96%
                    completed within established time frames
                    Number of licensing applications and notices
                                                                               NA          1,918       2,477       2,400       2,128
                    completed during the fiscal year
                    Average survey rating of the overall licensing services
                                                                               1.17        1.14        1.20        < 1.5       1.19
                    provided by OCC

1
  FY 2005 performance numbers shown in bold italics are estimates. Some performance data is obtained from quarterly call reports
from banks. The September 30, 2005 call reports are not due until 30 or 45 days after the end of the period. Additionally, examinations
concluded late in the fiscal year are not finalized for another 30 to 60 days. As a result, complete fiscal year data is not yet available;
therefore, estimates have been reported.
2
  There were no critically undercapitalized national banks during FY 2005.
3
  The OCC modified this performance measure to conform to the revised CRA regulations that were issued in the fourth quarter of
FY 2005. Previously, the performance measure was: Percentage of community banks that are within one year of their first large bank
Community Reinvestment Act examination in which the OCC offers to provide consultation on community development opportunities.
4
  The OCC did not achieve its target for closing 80 percent of consumer complaints within 60 calendar days. The volume of calls
received increased by 1 percent, cases opened increased by 8 percent, and cases closed increased by 6 percent over FY 2004. In addition
to the increased volume of work, the risks and complexity of the consumer complaints continued to increase requiring additional time
for analysis and in many instances additional information from the consumer and/or the bank. This lengthened the average response time
achieved in FY 2005.




OCTOBER 2005                                                                                                                            99
Appendix B —
Glossary of Acronyms
ABCP     Asset-Backed Commercial Paper
ACH      Automated Clearing House
AIRB     Advanced Internal Ratings-Based
ALICE    Automated Learning Information Center
ALLL     Allowance for Loan and Lease Losses
AML      Anti-Money Laundering
ATM      Automated Teller Machine
BSA      Bank Secrecy Act
CAG      Customer Assistance Group
CAIS     Corporate Activity Information System
CAMELS   Composite rating standing for Capital, Asset quality, Management, Earnings,
         Liquidity, and Sensitivity to market risk
CBCA     Change in Bank Control Act
CDR      Central Data Repository
CMP      Civil Money Penalty
COOP     Continuity of Operations Plan
CPIC     Capital Planning and Investment Control
CRA      Community Reinvestment Act
CSRS     Civil Service Retirement System
CY       Calendar Year
DO       Departmental Offices
DOL      Department of Labor
DRC      District Risk Committee
EC       Executive Committee




100                                                                  OCC ANNUAL REPORT
EEO        Equal Employment Opportunity
EFT        Electronic Funds Transfer
e-Gov      Electronic Government Initiatives
e-TIME     Electronic Time and Attendance Processing
EOC        Emergency Operations Center
FAI        Federal Activities Inventory Reform
FAIR       Fair Alternatives and Innovative Resolutions Program
FBIIC      Financial and Banking Infrastructure Information Committee
FDIC       Federal Deposit Insurance Corporation
FECA       Federal Employees Compensation Act
FEGLI      Federal Employees Group Life Insurance
FEHB       Federal Employees Health Benefits
FEMA       Federal Emergency Management Agency
FERS       Federal Employees Retirement System
FFIEC      Federal Financial Institutions Examination Council
FFMIA      Federal Financial Management Improvement Act
FinCEN     Financial Crimes Enforcement Network
FISMA      Federal Information Security Management Act of 2002
FM         Financial Management Division
FMFIA      Federal Managers’ Financial Integrity Act
FPP        Financial Policy & Procedures
FRB        Board of Governors of the Federal Reserve System
FTC        Federal Trade Commission
FTE        Full-Time Equivalent
FY         Fiscal Year
GAAP       Generally Accepted Accounting Principles




OCTOBER 2005                                                            101
GAO    Government Accountability Office
GLBA   Gramm-Leach-Bliley Act
GPRA   Government Performance Results Act
HMDA   Home Mortgage Disclosure Act
HR     Human Resources
IPIA   Improper Payments Act of 2002
IRB    Investment Review Board
IT     Information Technology
LIS    Licensing Information System
MDPS   Multi-Regional Data Processing Servicers
MLR    Money Laundering Risk
NA     Not Applicable
NAIC   National Association of Insurance Commissioners
NCUA   National Credit Union Administration
NRC    National Risk Committee
NRPT   National Resource Planning Tool
NTEU   National Treasury Employees Union
OCC    Office of the Comptroller of the Currency
OIG    Treasury’s Office of Inspector General
OM     Office of Management
OMB    Office of Management and Budget
OPM    Office of Personnel Management
OTS    Office of Thrift Supervision
PMA    President’s Management Agenda
P&MA   Program and Management Accountability Division
QAP    Quality Assurance Program




102                                                      OCC ANNUAL REPORT
QIS        Quantitative Impact Statement
SAR        Suspicious Activity Report
SAT        Senior Assessment Team
SDLC       Systems Development Life Cycle
SEC        Securities and Exchange Commission
SGL        United States Government Standard General Ledger
SMS        System Management Server
SNC        Shared National Credit
TSP        Federal Thrift Savings Plan
U.S.       United States
USAPA      USA PATRIOT Act




OCTOBER 2005                                                  103
Index




  A     accounting principles generally accepted in U.S. (GAAP), 70, 88, 89

        allowance for loan and lease losses (ALLL), 13,14, 73

        American University, Institute for the Study of Public Policy Implementation, 5

        Annunzio-Wylie Anti-Money Laundering Act (AML), 13, 16-18, 51

        anti-money laundering, 3, 7, 16-18, 44, 56

        assessments, 7, 11, 61, 62, 64, 91

        assurance statement, 70, 71, 72

        automated clearing house (ACH), 16

        Automated Learning Information System (ALICE), 48

        automated teller machine (ATM), 25



  B     balance sheets, 63, 66, 82, 88

        balanced scorecard, 57, 58-61

        bank assets, 62, 63

        bank examiners, ii, 4, 7, 19, 49

        bank insurance fund, 15

        Bank Secrecy Act (BSA), 3, 13, 14, 16, 30, 34, 44, 51, 56, 73

        BSA/AML Examination Manual, 3, 9, 17, 39, 44

        Basel Capital Accord, 39, 73

        Basel Committee on Banking Supervision, 39, 41

        Basel II, 1, 13, 39, 41, 44

        Bloom, Thomas R., 57


104                                                                     OCC ANNUAL REPORT
  C       call center, 9, 24

          CAMELS rating, 14, 15, 20

          capital planning and investment control (CPIC), 48

          cease-and-desist orders, 18, 20, 21, 23

          central data repository (CDR), 41

          Change in Bank Control Act (CBCA), 37, 38

          Check 21, 10, 31, 43

          Chief Financial Officer, letter from, 56

          Chief National Bank Examiner, 13

          civil money penalties, 18, 20, 21, 22, 23, 68, 88

          Civil Service Retirement System (CSRS), 67, 94

          collective bargaining agreement, 10, 50

          Committee on Bank Supervision, 13

          Community Affairs, 24

          community development, 22, 23, 25, 28, 41

          Community Reinvestment Act (CRA), 3, 8, 14, 24, 28, 31, 43

          Comptroller’s Handbook, 30

          Comptroller’s Licensing Manual, 10, 37

          Continuity of Operations Plan (COOP), 55

          Corporate Activity Information System (CAIS), 54

          corporate applications, 35, 36, 38




OCTOBER 2005                                                           105
      corporate governance, 13, 44, 73

      credit card banks, 19

      credit card programs, 14

      Customer Assistance Group, 1, 22, 23



  D   data center, 7

      Debt Collection Improvement Act of 1996, 68

      departmental offices, 88

      derivative transactions, 29

      District Risk Committee (DRC), 19

      District map, 11

      Dugan, John C., 5, 71



  E   electronic funds transfer (EFT), 11, 68

      Emergency Operations Center (EOC), 55

      enforcement actions, 18, 20, 21

      enter on duty e-Gov initiative, 48

      equal employment opportunity, 51

      erroneous payments, 69, 74

      e-TIME, 54, 60, 61

      e-Travel, 61

      Examiner Specialized Skills Program (ESSP), 17, 51


106                                                        OCC ANNUAL REPORT
  F       FAIR Act Inventory (FAI), 47

          Fair Alternatives and Innovative Resolutions (FAIR) Program, 52

          Fair and Accurate Credit Transactions Act, 27, 28

          fair lending, 22, 33

          Fast Track Enforcement Program, 20

          Federal Deposit Insurance Corporation (FDIC), 9, 28, 39, 40, 41, 42

          Federal Emergency Management Agency (FEMA), 55

          Federal Employees’ Compensation Act (FECA), 95

          Federal Employees Group Life Insurance (FEGLI), 95

          Federal Employees Health Benefits (FEHB), 95

          Federal Employees Retirement System (FERS), 67, 94

          Federal Financial Institutions Examination Council (FFIEC), 3, 9, 17, 39, 44

          Federal Financial Management Improvement Act (FFMIA), 10, 70, 72

          federal human capital survey, 50

          Federal Information Security Management Act of 2002 (FISMA), 53, 73

          Federal Managers’ Financial Integrity Act (FMFIA), 10, 70, 71

          Federal Reserve System (FRB), 9, 21, 27, 39, 40, 41, 42

          Federal Thrift Savings Plan (TSP), 94

          Federal Trade Commission (FTC), 27, 40

          Federal Trade Commission Act, 23

          Financial and Banking Infrastructure Information Committee (FBIIC), 39, 55




OCTOBER 2005                                                                             107
      Financial Crimes Enforcement Network (FinCEN), 17, 39, 56

      financial statements, 82-87, 88

      flood insurance, 22

      formal agreements, 20, 21



  G   Gallup Q12 employee engagement survey, 60

      gift cards, 10, 31

      GoLearn initiative, 48

      Government Accountability Office (GAO), 72

      Government Performance Results Act (GPRA), 8, 73

      Gramm-Leach-Bliley Act (GLBA), 28, 33



  H   Hawke, Jr., John, D., 5

      home equity lending, 1, 10, 23, 27, 44, 73

      Home Mortgage Disclosure Act (HMDA), 22, 25, 31, 44

      Home Ownership Equity Protection Act, 23, 31

      Human Resource Solutions Service Center, 52

      Hurricane Katrina, 7, 25, 39, 55, 73

      Hurricane Rita, 24




108                                                               OCC ANNUAL REPORT
  I       identity theft, 10, 23, 27, 30, 40

          Improper Payments Information Act of 2002, 69, 73

          Independent Auditors’ Report, 75-80

          Intermediate Small Banks, 3, 8, 24, 28, 41, 43, 98

          Investment Review Board, 48



  L       Labor Department (DOL), 96

          Large Bank Supervision, 13

          Latin America, 17

          Lean Six Sigma, 51, 52, 57, 58-61, 69

          letters of reprimand, 21

          Licensing Information System (LIS), 38



  M       Meet the Comptroller roundtables, 44

          memoranda of understanding, 21

          Mid-size/Community Bank Supervision, 13

          money laundering risk (MLR) system, 18



  N       National Association of Insurance Commissioners (NAIC), 39

          National Bank Act of 1864, 88

          national bank appeals process, 20




OCTOBER 2005                                                           109
          national bank charter, 34

          National BankNet, 53

          National Credit Union Administration (NCUA), 27, 39, 40

          National Currency Act of February 25, 1863, 88

          National Resource Planning Tool (NRPT), 19

          National Risk Committee (NRC), 19

          National Treasury Employees Union, 10, 50

      O   OCC 401(k) plan, 94

          Office of Management and Budget (OMB), 11, 68

          Office of the Inspector General (OIG), 56

          Office of Thrift Supervision (OTS), 10, 39, 41, 42

          Ombudsman’s Office, 7, 20

          overdraft and bounced-check fees, 40



      P   partnership for public service, 5

          payroll stored value cards, 25

          performance measures, 8

          pre-commission training program, 51

          predatory lending, 1, 23, 44, 73

          preemption, 9, 32

          President’s Management Agenda (PMA), 47, 48, 56




110                                                                 OCC ANNUAL REPORT
          Prompt Payment Act, 68, 89



  Q       quality assurance program (QAP), 38

          Quantitative Impact Statement (QIS), 1, 42



  R       real estate lending, 23, 27, 43

          Real Estate Settlement Procedures Act, 23

          risk assessment program, 72

          recruitment, 4, 5, 10, 19, 49-50

          regulatory burden reduction, 41



  S       Securities and Exchange Commission (SEC), 27, 40

          Senior Assessment Team (SAT), 11, 59

          Shared National Credit (SNC) Program, 42

          shared national credit review, 9, 19, 42

          sheltering-in-place (SIP) plan, 55

          statements of custodial activity, 63, 68, 87, 88

          statements of budgetary resources, 63, 67, 85, 88

          statements of changes in net position, 63, 66, 67, 84, 88

          statements of financing, 63, 67, 86, 88

          statements of net cost, 63, 67, 83, 88




OCTOBER 2005                                                          111
          strategic goals, 8, 72

          supervisory strategy certifications, 8, 14

          suspicious activity reports (SAR), 34

          system development life cycle (SDLC), 54

          system management server (SMS), 54



      T   telephone seminars for bankers, 44

          terrorist financing, 7

          Treasury Department, 7, 8, 60, 88

          Truth in Lending Act, 23



      U   unfair and deceptive acts or practices, 23

          USA PATRIOT Act, 9, 13, 14, 16-18, 44



      W   Web-site spoofing, 30

          Williams, Julie L., 5, 7

          World Bank, 17

          workers’ compensation, 29




112                                                    OCC ANNUAL REPORT
                                                               ��������������������
                            To obtain copies of this report, please fill out and print the order form
                                            that is online at http://www.occ.treas.gov/publsta.htm
                                                 Mail the completed form with a check payable to
                                                                      Comptroller of the Currency,
                                                                   Attention: Accounts Receivable
                                                                 250 E Street, S.W., Mail Stop 4–8
                                                                           Washington, D.C. 20219

                                                                               Copies are $45 each




                                              ���������������������������
Thank you for your interest in the Office of the Comptroller of the Currency’s 2005 Annual Report.
        We welcome your comments on how to make this report more informative for our readers.
                   We are particularly interested in comments on the usefulness of the information.
                                            Please send your comments to: Annual Reports Editor
                                                                          Communications Division
                                                         Office of the Comptroller of the Currency
                                                                                  250 E Street, S.W.
                                                                            Washington, DC 20219

               This report is available on the OCC Web site at http://www.occ.treas.gov/pubs1.htm
Comptroller of the Currency
Administrator of National Banks

Washington, DC 20219
